<html>
<title> - FISCAL YEAR 2000 FOREIGN AFFAIRS BUDGET AND EMBASSY SECURITY FOR A NEW MILLENNIUM</title>
<body><pre>[Senate Hearing 106-47]
[From the U.S. Government Printing Office]


                                                         S. Hrg. 106-47


 
FISCAL YEAR 2000 FOREIGN AFFAIRS BUDGET AND EMBASSY SECURITY FOR A NEW 
                               MILLENNIUM

=======================================================================

                                HEARINGS

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS

                                AND THE

                SUBCOMMITTEE ON INTERNATIONAL OPERATIONS

                                 OF THE

                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

              FEBRUARY 24, MARCH 4, 11, AND APRIL 21, 1999

                               __________

       Printed for the use of the Committee on Foreign Relations

                               <snowflake>

 Available via the World Wide Web: http://www.access.gpo.gov/congress/senate


                      U.S. GOVERNMENT PRINTING OFFICE
 54-972 CC                   WASHINGTON : 1999
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
PAUL COVERDELL, Georgia              PAUL S. SARBANES, Maryland
CHUCK HAGEL, Nebraska                CHRISTOPHER J. DODD, Connecticut
GORDON H. SMITH, Oregon              JOHN F. KERRY, Massachusetts
ROD GRAMS, Minnesota                 RUSSELL D. FEINGOLD, Wisconsin
SAM BROWNBACK, Kansas                PAUL D. WELLSTONE, Minnesota
CRAIG THOMAS, Wyoming                BARBARA BOXER, California
JOHN ASHCROFT, Missouri              ROBERT G. TORRICELLI, New Jersey
BILL FRIST, Tennessee
                     James W. Nance, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                 ------                                

                SUBCOMMITTEE ON INTERNATIONAL OPERATIONS

                     ROD GRAMS, Minnesota, Chairman
JESSE HELMS, North Carolina          BARBARA BOXER, California
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
BILL FRIST, Tennessee                RUSSELL D. FEINGOLD, Wisconsin

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                           February 24, 1999
   1999 Foreign Policy Overview and the President's Fiscal Year 2000 
                         Foreign Affairs Budget

Albright, Hon. Madeleine K., Secretary of State..................     8
    Prepared statement...........................................    13
Responses to Additional Questions Submitted to Secretary of State 
  Albright by Members of the Committee...........................    41

                             March 4, 1999
       Fiscal Year 2000 Administration of Foreign Affairs Budget

Cohen, Hon. Bonnie R., Under Secretary of State for Management; 
  accompanied by Hon. Patrick Kennedy, Assistant Secretary of 
  State for Administration.......................................    88
    Prepared statement...........................................    92
Nelson, Benjamin F., Director, International Relations and Trade 
  Issues, National Security and International Affairs Division, 
  General Accounting Office......................................   128
    Prepared statement...........................................   129
Williams-Bridgers, Jacquelyn, Inspector General, Department of 
  State..........................................................   113
    Prepared statement...........................................   117
Responses to Additional Questions Submitted to Under Secretary of 
  State Cohen by Members of the Committee........................   141
Additional Material Submitted for the Record
    Prepared Statement of Harold Pachios, Chairman of the U.S. 
      Advisory Commission on Public Diplomacy....................   155

                             March 11, 1999
                 Embassy Security for a New Millennium

Carpenter, Hon. David G., Assistant Secretary of State for 
  Diplomatic Security............................................   182
    Prepared statement...........................................   186
Crowe, Admiral William J., U.S. Navy Retired, Chairman, State 
  Department Accountability Review Boards on the Embassy Bombings   161
Responses to Additional Questions Submitted to Assistant 
  Secretary of State Carpenter by Members of the Committee.......   202

                             April 21, 1999
   Markup: Foreign Relations Authorization Act, Fiscal Year 2000-2001

Proceedings of the Markup Hearing................................   217

                                 (iii)



   1999 FOREIGN POLICY OVERVIEW AND THE PRESIDENT'S FISCAL YEAR 2000 
                         FOREIGN AFFAIRS BUDGET

                              ----------                              


                      WEDNESDAY, FEBRUARY 24, 1999

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 11:10 a.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Jesse A. 
Helms (chairman of the committee) presiding.
    Present: Senators Helms, Hagel, Smith, Grams, Brownback, 
Ashcroft, Biden, Dodd, Kerry, Feingold, Wellstone, and Boxer.
    The Chairman. The committee will come to order. Madam 
Secretary, did you get any sleep last night?
    Secretary Albright. Not a lot. Not a lot.
    The Chairman. Well, we welcome you. This is the 14th time 
you have appeared before this committee since and including 
your confirmation hearing. We are always glad to have you.
    Let me say at the start, Senator Biden, that this lady has 
been up all night working on this thing in France, negotiating 
to resolve the Kosovo conflict peacefully, and if we happen 
accidentally to ask you a question that involves a lot of 
detail, just say, I will answer that in writing, because you 
cannot be expected to remember everything, not having any more 
than you have had.
    Secretary Albright. Thank you.
    The Chairman. Now, during the past 2 years we have worked 
together on significant achievements as a result of the 
enactment of the Foreign Affairs Reform and Restructuring Act. 
This past October looked pretty good for us. Two Federal 
agencies, the U.S. Arms Control and Disarmament Agency and the 
U.S. Information Agency will become a part of the State 
Department. Their functions will be directly under your 
control, which is where they ought to be, and almost as 
significant the Administrator of the Agency for International 
Development will hereafter report to you and be under your 
direct authority and foreign policy guidance.
    Now, it may be easier to achieve peace in the Middle East 
than to straighten that place out. We are making certain that 
U.S. foreign aid used to support U.S. foreign policy objectives 
is now in your hands, so I commend you, Madam Secretary and 
others in the executive branch responsible for preparing the 
plan and report regarding reorganization as required by the new 
law.
    Now, much of the plan reflects the legislative intent. I 
look forward to its interpretation, of course, and Senator 
Biden and I have written to you outlining those areas of 
disagreement, and I will submit that letter to you in today's 
hearing record.
    [The letter referred to by Senator Helms follows:]

                                       U.S. Senate,
                               Foreign Relations Committee,
                                 Washington, DC, February 24, 1999.
The President
The White House
Washington, DC.
    Dear Mr. President: We write regarding the reorganization plan and 
report you submitted to Congress pursuant to the Foreign Affairs Reform 
and Restructuring Act.
    At the outset, we commend you, the Secretary of State, and others 
in the Executive Branch responsible for preparing the plan and report. 
We recognize, and greatly appreciate, the considerable effort involved 
in the preparation of such a comprehensive plan. More important, we 
agree with much of the plan outlined in the report, and look forward to 
its implementation. Having said that, we share several serious concerns 
regarding the plan.
    First, as we wrote to the Secretary of State in January 1998, we 
are deeply concerned that, under your plan, the function of 
verification and compliance of arms control treaties would not be 
carried out by a separate bureau, as is now the case in the Arms 
Control and Disarmament Agency (ACDA). Instead, these important duties 
would be performed by a ``Special Adviser'' to the Under Secretary for 
Arms Control and International Security Affairs, as well as staff 
within the proposed Arms Control Bureau. We regard this proposed 
structure as an unacceptable diminution of the verification and 
compliance function.
    We are committed, as we know you are, to vigorous enforcement of 
arms control and nonproliferation agreements and statutes. We believe, 
however, that this objective cannot be adequately achieved under the 
proposal you submitted, because it submerges these important functions 
to such an extent that they will undoubtedly be viewed as a second-
order priority.
    Therefore, we strongly urge you to modify this portion of the plan 
promptly in accordance with the authority of Section 1601 of the Act in 
order to create an Assistant Secretary position for Verification and 
Compliance. As the deadline for the integration of ACDA into the State 
Department is fast approaching, we urge you to modify the plan to 
include the Verification and Compliance bureau as soon as possible.
    Second, we are concerned, for both legal and policy reasons, by the 
proposal to combine the exchanges and information functions into one 
bureau under the new Under Secretary for Public Diplomacy.
    Legally, we seriously doubt that the proposal you submitted can be 
sustained. Section 112(a) of the Fulbright-Hays Act provides that 
``there is established in the U.S. Information Agency, or in such 
appropriate agency of the United States as the President shall 
determine, a Bureau of Educational and Cultural Affairs.'' (emphasis 
added). Thus, even with the abolition of the U.S. Information Agency, 
there remains a statutory mandate for a bureau to carry out the 
programs under the Act. Section 112(d) of the Act further provides that 
``[the Bureau shall administer no programs except those operating under 
the authority of this Act and consistent with its purposes.'' We 
recognize that Section 1611(a) of the Foreign Affairs Reform and 
Restructuring Act empowers the Secretary of State to ``allocate or 
reallocate any function transferred to the Department [under the 
Act].'' That same provision makes clear, however, that it ``does not 
authorize the Secretary to modify the terms of any statute that 
establishes or defines the functions of any bureau, office, or officer 
of the Department.'' In our view, the proposal you have submitted 
improperly modifies the functions of the Exchanges bureau. In sum, we 
believe the Fulbright-Hays Act is clear: the bureau operating exchanges 
and cultural affairs cannot carry out any other duties. It should go 
without saying that legislative history cannot override this statutory 
command.
    As a matter of policy, we believe the responsibility of managing 
educational and professional exchanges is too comprehensive to be 
relegated to a Deputy Assistant Secretary of State. The U.S. budget for 
exchanges conducted by USIA is approximately $200 million a year; with 
the commitment of our foreign partners in the Fulbright program, of 
course, the sum total of these programs is still higher. Just as other 
major programs are operated by the State Department at the bureau level 
(such as narcotics and crime, and refugees and migration), we believe 
these programs should be carried out by an Assistant Secretary. Indeed, 
we believe it unwise to relegate the management of such substantial 
programmatic resources to a level below Assistant Secretary. Equally 
important, we are concerned that your proposal to merge the two 
functions (exchanges and information) could cause grave damage to the 
reputation our exchange programs now enjoy. If joined organizationally 
with our overseas public relations function, the exchanges programs may 
be perceived by foreign publics and students as little more than a 
``propaganda exercise'' rather than what they are intended to be: an 
investment in mutual understanding.
    Finally, we are unequivocally opposed to the proposal to establish 
a new Eastern European Bureau in the Department of State based upon the 
geography of the former Soviet Union. We do not accept the argument 
that the European Bureau as currently constituted need be unwieldy. In 
fact, any potential management benefit of dividing this bureau would be 
far outweighed by the implications of separating our policy toward 
Russia from our policy toward the rest of Europe. Such an action would 
be unhealthy for Russia's neighbors, for the further integration of 
Russia into the democratic West, and ultimately for U.S. foreign 
policy.
    The Administration has repeatedly stated its strategic vision in 
this region to be the creation of a ``Europe, whole and free.'' The 
draft proposal for a new Eastern Europe Bureau flies in the face of 
this stated goal. We gladly will work with you in finding the necessary 
resources to make the European Bureau function well. We will not, 
however, support the creation of a new bureau.
    We appreciate your addressing these issues prior to integration of 
ACDA and USIA into the State Department.
            Sincerely,
                                               Jesse Helms,
                                       Joseph R. Biden, Jr.

    The Chairman. Your most recent visit with us was exactly 1 
year ago to discuss ratification of the protocols to permit 
Poland, Hungary, and the Czech Republic to become parties to 
NATO, and that was a move that I believe will strengthen NATO 
and ensure peace and stability to some extent in Eastern 
Europe, but much has happened around the world since your most 
recent visit.
    In Iraq, the sanctions regime has collapsed, and we are in 
a low level shooting war with Saddam Hussein. The majority 
leader and I are hopeful that with the passage and signature of 
the Iraq Liberation Act the administration might embrace a 
coherent policy to remove Saddam altogether, period and 
paragraph.
    In any case, I look forward to hearing what you have to say 
on that.
    Now then, in my meeting with you and several other Cabinet 
members in late January regarding Iraq your comments were most 
impressive. I said that privately to you, and I say it publicly 
this morning. However, your marching orders to the people at 
the State Department must be lost somewhere in the shuffle. I 
have heard nothing from the Department except the word, can't, 
can't train an opposition force, can't get the opposition 
together, and I guess my favorite can't is, we can't spend 
money Congress has given us.
    Now, I am confident that you do not share General Zinni's 
view that the Iraq operation was a bad idea, and I trust that 
you do not share Secretary Cohen's view that we are not trying 
to get rid of Saddam Hussein because, Saddam, if you are out 
there listening somewhere, we are out there to get rid of you.
    Madam Secretary, you and I have spoken several times in 
recent weeks about the situation in Kosovo. In fact, Mr. Biden 
and I have invited you, along with Secretary Cohen and General 
Shelton, to appear before this committee at another early date 
to discuss the details of the United States policy in Kosovo, 
including the President's deployment of troops in that region.
    In any event, given the grave consequences of sending U.S. 
soldiers into harm's way, and that is something that bothers my 
very soul, I expect that we will be able to arrange a mutually 
convenient time for that hearing prior to the implementation of 
any administration decision to deploy American troops to 
Kosovo. I am confident that you agree that it is critical to 
have an open discussion on this matter with the Congress and 
the American people as soon as possible.
    In China, we witnessed last year a lot of the chummy toasts 
and dinners at the United States-China summit where President 
Clinton, shall we say, quite graciously uttered Beijing's long-
awaited three noes on Taiwan, and then promptly passed our 
allies, South Korea and Japan, on his way home. He may have 
waved at them from the airplane window, but that is all.
    Beijing, needless to say, returned those favors with a 
draconian crackdown on dissidents and with increasing hard-
headedness on trade matters, plus a military exercise in 
November that consisted of mock missile attacks on Taiwan and 
United States forces in Japan and South Korea, so I hope we may 
be forgiven for wondering out loud again, what are we getting 
from our policy of so-called engagement with China?
    You and I have discussed that, and I will appreciate your 
discussion today.
    This is also the first opportunity you have had to appear 
before us since the tragic terrorist bombing of our embassies 
in Kenya and Tanzania, and first of all I extend to the 
families and friends of those who lost their lives in those 
bombings your and my and all of us, our deep regret at that 
loss, and to reiterate to these people that there is unanimous 
agreement that we must bring to justice those who orchestrated 
and carried out the bombings.
    I am confident that I will speak for the committee in 
saying that although Congress cannot and must not write a blank 
check, we are determined to provide the support necessary to 
upgrade the U.S. embassies, and you and I have discussed that, 
and that they proceed to provide secure work environments for 
U.S. Government employees working overseas; and parenthetically 
I understand that AID initially resisted official requirements 
to collocate its offices within the new embassy compounds that 
will be built in Kenya and Tanzania, but they have seen the 
light on this one finally, and I am glad they see it, and I am 
confident that you had something to do with that.
    Closer to home, I hope that we can cooperate closely on two 
urgent projects in the Americas. First, we will do our part to 
help our neighbors in Central America rebuild their countries 
from the wreckage left by Hurricane Mitch, and I believe we 
could support the Central American efforts to rebuild.
    Now, this we have got to discuss publicly and privately, 
Madam Secretary, and it is of grave importance to me and I 
think to the country. I want to be as candid as I can as I do 
it. Nobody needs to tell you that the world has changed a very 
great deal since the ABM treaty was first ratified 27 years 
ago. The United States faces new and very different threats 
today, threats which are growing daily.
    China has 19 intercontinental ballistic missiles, 13 of 
which are aimed at the United States. Saddam is doggedly 
pursuing nuclear, chemical and biological weapons, and the 
long-range missiles to deliver them, and according to the 
Rumsfeld Commission, Iran--and I am quoting--``has acquired and 
is seeking advanced missile components that can be combined to 
produce ballistic missiles with sufficient range to strike the 
United States.''
    Now, if Iran succeeds, the commission warns, it will be 
capable of striking St. Paul, Minnesota. The ABM treaty is the 
root of our problems, as I see it. So long as it is a 
cornerstone of U.S. security policy, as Mr. Berger emphasized 
last month, we will never, never be able to deploy a nationwide 
missile defense that will provide real security for the 
American people.
    It is time for the administration to submit the ABM 
protocols that would expand the ABM treaty to Russia and other 
post-Soviet States and debate whether the ABM treaty should 
remain a cornerstone of U.S. security policy. I will do my best 
to lead the charge, saying a very loud no.
    A lot of major issues, Madam Secretary, and I look forward 
to discussing them. Thanks again for coming, and I hope you get 
some sleep tonight.
    Joe.
    Senator Biden. Thank you, Mr. Chairman. Let me begin by 
thanking you in our meetings for organizing for this year, for 
your generosity and your cooperation.
    Madam Secretary, the chairman and I are good friends. We 
came the same day to the U.S. Senate 26-plus years ago, and we 
truly like one another, and we truly disagree with one another 
on some very important things, and so I want to thank the 
chairman for accommodating an opportunity to fight those areas 
of disagreement out like we did last year, and there are going 
to be a lot of fights this year, Madam Secretary, and that is 
why I say to the chairman I am glad I have got Barbara Boxer on 
the committee now, and Mr. Torricelli.
    Now, all kidding aside, this is our first meeting. It seems 
strange, but the first meeting of the committee since the 
Senate has been sworn in, and I would like to formally welcome 
Senator Boxer.
    The Chairman. I join in that.
    Senator Boxer. Thank you.
    Senator Biden. And also Senator Torricelli, who has been 
added on the Democratic side, and I look forward to working 
with them.
    I would like to ask unanimous consent that my entire 
statement be placed in the record as if read, and let me 
summarize as briefly as I can, Madam Secretary.
    [The statement of Senator Biden follows:]

           Prepared Statement of Senator Joseph R. Biden, Jr.

    Mr. Chairman, I join you in welcoming the Secretary back to the 
Committee. It's a long way from Paris, where she spent the last few 
days, but we hope this hearing will not be as difficult as those 
negotiations.
    We congratulate you and your colleagues for bringing the Kosovo 
talks to a successful conclusion. I hope Congress will support the 
agreement and the troop commitment made by the President. You must be 
prepared to make the case to Congress and the American people that--as 
I strongly believe--preventing instability in Europe is in the interest 
of the United States.
    The attention focused on Kosovo at this moment should not deflect 
us from several other pressing foreign policy challenges. Let me 
highlight just a few.
    A preeminent challenge lies in Russia. Though the installation of 
Prime Minister Primakov has created a surface calm, just below that 
surface is the danger of political and economic collapse--a collapse 
that would have catastrophic consequences. We must make clear to Russia 
that we want its democratic experiment to succeed, and that we are 
prepared to help--but Russia must do more to help itself.
    A primary danger to world security is the prospect that the vast 
arsenal of weapons of mass destruction possessed by Russia will find 
its way into the wrong hands.
    We must expand our joint efforts to control not only ``loose 
nukes'' but also ``loose chemicals'', ``loose pathogens'' and ``loose 
missiles.'' To his credit, the President has proposed increasing the 
Nunn-Lugar-Domenici programs by sixty percent for the next five years. 
As Russia's economy goes south, we must reduce the risk that its 
weapons of mass destruction or expertise will literally go south--to 
Iran, or Iraq, or who-knows-where.
    Equally important, we must revive the strategic arms control 
agenda. The second START Treaty, approved by the Senate over three 
years ago, languishes in the Russian Duma. We must find a way to 
convince Russia to approve the treaty, and move to still deeper 
reductions in a third START Treaty.
    Your task, Madam Secretary, has never been easy, and it has been 
made more difficult by the rush to deploy a ``thin'' national missile 
defense. Such a missile defense may be warranted by the emerging 
threat, but there are profound ramifications for the strategic arms 
control agenda which have yet to be fully debated.
    Other proliferation challenges confront us, particularly in East 
Asia, where must re-energize our effort to prevent North Korea from 
developing nuclear weapons and the means to deliver them. The Agreed 
Framework has succeeded in temporarily restraining North Korea's 
production of fissile material--and bought us time to strengthen our 
conventional deterrence on the peninsula. But we are fast approaching 
the point where North Korea must resolve the world's concerns over its 
nuclear and ballistic missile programs, or the fading congressional 
support for the status quo will lead us toward a real crisis.
    Here in the Senate, we must take up the Comprehensive Test Ban 
Treaty. This fall, a review conference will be held among nations which 
have ratified the treaty. Thanks to U.S. leadership, the two nations 
which detonated nuclear devices last year, India and Pakistan, are 
moving toward joining the treaty. It would be a strange irony, and a 
serious blow to nuclear nonproliferation, if the United States fails to 
ratify this treaty.
    We also have some unfinished business in the Senate--paying our 
arrears to the United Nations. In the last Congress, the Chairman and I 
worked with you to forge an agreement that had broad support in the 
Senate. It is essential to our many interests at the United Nations 
that we resolve this issue quickly--and promptly put in place one of 
our most capable diplomats, Dick Holbrooke, to help carry it out.
    Finally, to advance our foreign policy we need a first-class 
diplomatic corps. Unfortunately, funding for foreign affairs has been a 
second-order priority in recent years. We must bring the State 
Department into the 21st century technologically, and we must ensure 
that our people serving overseas are well protected.
    I share the concerns stated by Admiral Crowe last week that the 
three billion dollars for embassy security requested over the next five 
years may be insufficient; it would be a dereliction of duty for 
Congress and the administration to ignore this pressing need.
    Mr. Chairman, I appreciate your giving me a few minutes to outline 
what I see as the key priorities for the coming year. I look forward to 
hearing from the Secretary.

    My mom has an expression. My mom, thank God, is alive and 
well, and is an 80-year-old plus woman who looks like she is 
60, and still takes care of all her kids and her grandkids and 
great-grandkids. Every time we complain about something, my 
mother used to say--my mother is a very devout Catholic. She 
would say, dear--her maiden name was Finnegan, which explains a 
lot. She would say, dear, the Lord never sends anyone a cross 
that they cannot bear.
    Well, you have been sent a whole hell of a lot of crosses. 
You are about to--I think your plate at State is probably more 
full with significant, very significant issues, that are going 
to have long-term consequences for this country's foreign 
policy and security, and I must say to you, the way you have 
handled that responsibility from emergency circumstances of 
consequence such as Iraq, the Middle East, Kosovo, has been 
admirable, but as the chairman pointed out, we have some major, 
major disagreements.
    I have an inordinately high regard, and I mean this 
sincerely, for my Republican colleagues on this committee. Some 
of the most devoted and smartest folks in this place I think 
are on this committee and on the Republican side of this dais, 
but we have some real strong disagreements between them, among 
us, and they relate first and foremost in my view to arms 
control, the whole question of our strategic posture.
    It is going to be the future of where we are going to be. I 
think our strategic doctrine is going to be tested more in the 
next 18 months than it has been at any time in the last, 
probably since 1972. The chairman has been very forthright. He 
would like to see ABM no longer the cornerstone. I believe it 
is the essential cornerstone of our strategic doctrine, and so 
we are going to have a real knock-down drag-out as we should, a 
legitimate intellectual debate about what our strategic 
doctrine should be.
    In addition to that, Madam Secretary, we are going to be 
dealing with very, very basic and significant issues relating 
to proliferation. I have been letting my chairman know that I 
believe the Comprehensive Test Ban Treaty, if the Lord came 
along and said, Joe, you get one off the wish list to get 
passed this year, I would say the Comprehensive Test Ban 
Treaty. My chairman says if there is one that is going to stay 
on the list I think he would say Comprehensive Test Ban Treaty.
    The Chairman. [Nods.]
    Senator Biden. So a lot is at stake, as you well know, but 
there is some help. There is some progress going on. The 
efforts that you in the State Department and the President had 
underway with regard to India and Pakistan look like they may 
be bearing a little bit of fruit here. It looks like there may 
be a shot at it.
    And I think what happens in Korea, will have a tremendous 
effect. Senator Brownback has made me even more aware today, of 
an incredibly difficult problem in Africa in terms of live, 
potent and flourishing slave trade going on a la the 15th 
century and 16th century.
    So there are a lot of problems we face, but let me conclude 
by saying to you I think that your overall budget which is one 
of the purposes of this opening hearing is sound. You seek 
$21.3 billion for international affairs and roughly $3 billion 
in advanced appropriations for embassy security, which is an 
unusual thing.
    We do not do that. We do not often do that, commit and 
appropriate and authorize 1, 2, 3, 4 years down the road. I 
think it is a solid sound budget. I think it gives you a 
platform from which to be able to begin to deal with or 
continue to deal with some of these very difficult problems.
    I hope, and it is the chairman's wish--as you notice, since 
the chairman has taken over this committee he has felt very 
strongly about the jurisdictional responsibilities of this 
committee and us authorizing your budget, and if I may conclude 
by saying, in our discussions the chairman has a desire to try 
very, very early this spring for us to have an authorization 
bill out of this committee.
    So it is going to be a very busy time, Madam Secretary. I 
look forward to working with you. There is going to be a lot of 
places we can agree, but on some of the biggest ticket items in 
terms of our strategic policy and our foreign policy there is 
not a partisan disagreement for partisan purposes. There is a 
genuine, ideological divide on some of these issues that is 
reminiscent of what occurred 35 years ago, and I think it is 
good for the country we have the debate. I think it is good for 
the country we resolve it, but it is going to be very hard on 
you, and I wish you well.
    Again, I will end where my mother begins, the Lord does not 
send anybody a cross they cannot bear. I am sure you will be 
able to handle it, but I want you to know and understand the 
incredible pressure and time constraints you are under, and 
thank you for being here.
    The Chairman. To which I say, amen. Now you may sing the 
Doxology for us. Madam Secretary, we welcome you.

  STATEMENT OF HON. MADELEINE K. ALBRIGHT, SECRETARY OF STATE

    Secretary Albright. Thank you, Mr. Chairman, and thank you, 
Senator Biden, and thank you for your understanding of my 
condition. Makeup not aside, I have earned this face.
    So I look forward very much to having a discussion with you 
today, and I thank you very much for all the kind words about 
the leadership role in the State Department. I am very proud of 
the fact that I think we have the strongest State Department 
that has existed in decades, and I have a very fine team. I 
hope that you all will recognize that along with me, because I 
think that it is a great team.
    When I was still a professor, and shortly after the end of 
the cold war, with the fall of the Berlin Wall, I remember 
giving a lecture to one of the graduate classes and saying that 
the world was going to be much more complicated and much more 
dangerous than the period that we had just gone through. I had 
no idea that I would be in a position where I would actually 
have to deal with those dangers and complications and crosses, 
but as you know, I am honored to be in this position and will 
continue to work with you.
    I am very much looking forward to the way you have both 
framed this as important discussion. I think these are debates 
that the American people have to hear, and I think this is the 
best forum for those debates to take place, and so I look 
forward to doing that with you.
    And I thank you also very much for rescheduling this 
hearing. It is very kind of you, and I will try to keep my 
testimony short and get through some of the issues that you 
have raised, but obviously we will do more in questions.
    I am sure you are interested in Kosovo, which I will 
discuss, but I want to at least touch on the many other 
challenges that we face. As I have said before, Mr. Chairman, 
the overarching goal of U.S. foreign policy is to bring nations 
closer together around basic principles of democracy and law, 
open markets, and a commitment to peace, and nowhere have we 
made greater progress than in the community of democracies we 
and our neighbors are building in this hemisphere.
    I want to begin this morning by echoing the President's 
request for funds to help the people of Central America and the 
Caribbean recover from the terrible destruction of Hurricanes 
Georges and Mitch. Recovering this region matters both from 
human reasons and because economic dislocations there could 
have a serious repercussion here, and we have strong interests 
in helping Central America bolster its democracies and provide 
a good life for its people at home.
    Elsewhere in the region we are working closely with Mexico 
to expand economic ties and achieve greater success in the war 
against drugs. We are helping Colombia's new President as he 
struggles to bring peace and the rule of law to his country, 
and we are pressing Haiti's leaders to end their destructive 
political deadlock, and we are taking steps to help the people 
of Cuba without helping their repressive and backward-looking 
ruler.
    Across the Atlantic this year marks the 10th anniversary of 
the fall of the Berlin Wall and the birth of a new Europe, and 
it also marks the 50th anniversary of a remarkable alliance. In 
2 months here in Washington we will meet with our allies to set 
the course for NATO's second 50 years, and together we will 
affirm NATO's success in safeguarding freedom, welcome the 
alliance's new members, and prepare for the challenges of the 
21st century, and as we do so, we bear in mind that although 
NATO stands tall, it does not stand alone. The EU, OSC, NATO 
and its partners form the core of a broader system for ensuring 
security and promoting shared values.
    We learned in Bosnia earlier this decade that such a system 
is vital, and we face a test of that system now in Kosovo. Now, 
as you know, I returned last night from France and efforts to 
lay the groundwork for a lasting peace in Kosovo. We did not 
reach full agreement, but we did hammer out a viable plan for 
autonomy and democracy in Kosovo through an interim political 
settlement, and we made progress on and clarified, although we 
did not settle the security issues.
    The parties have agreed to meet again on March 15. In the 
interim, we call upon both sides to refrain from acts of 
provocation and violence and respect fully the security of the 
Kosovo verification mission. Officials in Belgrade know that 
NATO's authority to use force if necessary remains in effect. 
The proposed interim agreement is the best deal either side 
will get, and it should be agreed to by both. If a settlement 
does occur, the United States will participate with NATO and as 
partners in implementing it.
    There are compelling reasons for this. Kosovo lies within 
the Balkans, where there is no natural border to conflict. A 
new explosion of fighting in Kosovo could expand into regional 
hostilities that could cause massive suffering, displace tens 
of thousands of people, undermine stability throughout South 
Central Europe, and directly affect our key allies.
    As I said, Kosovo is also a critical test for NATO and 
other institutions in which we have a vital stake. These 
institutions are being challenged now, especially by Serb 
President Milosevic, who has lied repeatedly to them. If we 
fail in our resolve, we will weaken the institutions we rely 
upon not only in the Balkans but also throughout the continent. 
That is a weakness we cannot risk and must not allow.
    We also have an interest in seeing that the situation in 
Kosovo is resolved in a way that promotes ethnic tolerance and 
democratic principles. Failure to achieve this could harm 
progress elsewhere, especially in Bosnia.
    Having returned from Rambouillet I can also tell you, Mr. 
Chairman, that there is zero chance that the Kosovo Albanians 
will sign on to this deal if the U.S. does not participate in 
its implementation. The President has made it clear that others 
must provide the lion's share of the troops, and we have seen 
our allies step forward and offer to do just that.
    The stakes in Kosovo are high, and I will not sugar-coat 
the difficulties that we face. We did not achieve all we hoped 
for at Rambouillet, but Rambouillet was not the end of the 
road. The people of Kosovo, whether ethnic Albanian, Serb, or 
other, deserve to live in democracy and peace. They deserve to 
have their rights and heritage respected, and I am convinced 
that by far the majority of respected leaders within the 
Kosovar Albanian community support the interim agreement we 
proposed and they helped to refine.
    The primary obstacle to peace remains Slobadan Milosevic. 
It was his brutal campaign of repression that gave birth to the 
KLA, and it was at his orders that so much of the worst 
violence and suffering has occurred.
    Milosevic no longer has a choice. If the Kosovar Albanians 
accept the interim agreement, Milosevic must, too, or face the 
consequences.
    Mr. Chairman and members of the committee, let me now move 
on to the Asian Pacific, where we are working with allies and 
partners to improve security cooperation, restore economic 
momentum, and build democracy.
    In this region, there is no greater threat to peace and 
stability than the situation on the Korean Peninsula. With our 
allies and Japan and China we are discussing with North Korea 
the prospects for achieving a permanent end to tensions. We are 
also engaged in direct talks with North Korea on ways to 
resolve concerns regarding suspicious underground construction 
activities and long-range missile programs. These concerns must 
be addressed if North Korea is to improve relations with us and 
others in the region. In addition, the agreed framework must be 
implemented in good faith, and by all sides.
    Also in East Asia we have continued our strategic dialog 
with China, and since that dialog began, China has taken 
positive steps on proliferation, moved ahead on economic 
reform, and played a responsible role during the Asia financial 
crisis. We need to recognize progress even as we press for 
more.
    At the end of this week, I leave for China, where I will 
reaffirm our commitment to dialog and straight talk. I expect 
serious discussions about possible Chinese accession to the 
WTO, export controls, and the need to prevent renewed tensions 
related to Taiwan.
    I will also bring a strong message of support for 
international norms of respect for human rights. This will come 
as no surprise to Beijing. President Clinton has emphasized 
this principle repeatedly, and in recent months we have 
condemned the arrest of Chinese who sought peacefully to 
establish an opposition political party.
    Let me stress that in our relations with China engagement 
is not endorsement. We continue to have sharp differences with 
Beijing, but we also believe that the best way to narrow those 
differences and to make progress where our interests coincide 
is through regular contacts and dialog.
    In the Middle East we have lost King Hussein, a great 
leader and an eloquent partisan for peace. His memory should 
inspire us all to even more vigorous efforts. The United States 
will persist in supporting the peace process.
    We are in regular contact with Israeli and Palestinian 
leaders encouraging them to carry out the Wye River memorandum, 
and I urge the committee to back the President's request for 
funds to help them do that and ask expedited consideration of 
$300 million in assistance to support Jordan at this critical 
time. I have met with the new king, and am confident that he 
will carry on the wise policies of his father.
    In the gulf, we have shown again our willingness to use 
force when required to respond to flagrant Iraqi violations. 
Our strikes have reduced Iraq's aggressive potential and we 
continue to defend our pilots patrolling the no-fly zone. At 
the United Nations, we are working with the Security Council to 
develop a basis for resuming inspection and monitoring of 
Iraq's remaining weapons of mass destruction capabilities. We 
are insisting that sanctions against the regime continue until 
Iraq meets its obligations, although we support helping the 
Iraqi people through an enhanced oil for food program.
    Our policy toward Iraq is to counter the threat Saddam 
Hussein poses to his neighbors, our allies, and our interests, 
and to support the Iraqi people's desire to reintegrate 
themselves internationally and free themselves from a leader 
they do not want, do not deserve, and never chose.
    Mr. Chairman and members of the committee, the new century 
will demand from us a fresh approach to the dangers and 
opportunities of Africa. Today, with regional leaders, we are 
searching for ways to end bloody conflicts from the Sudan and 
Horn of Africa to Congo and Sierra Leone.
    These immediate crises must not, however, cause us to 
neglect our long-term goals. I urge your backing for our 
efforts to assist the hoped-for transition to democracy in 
Nigeria, to improve Africa's emergency response capabilities, 
and to gain passage of the Africa Growth and Opportunity Act 
which would help the continent's most determined reformers and 
expand our trade with the world's largest underdeveloped 
market.
    Mr. Chairman, I will be blunt. There are some both inside 
and outside Government who look at Africa's problems and throw 
up their hands. Many others throw up their hands without even 
the slightest glance at the cross-currents presently at work. 
The sources of crisis in Africa are hardly unique to that 
continent, and Africa does not lack the qualities out of which 
a freer and more prosperous future may be built. Progress may 
be neither universal nor as rapid as we would wish, but we owe 
it to ourselves and to those striving to build a new Africa to 
assist their efforts when and where we can.
    Mr. Chairman, many of the measures we take to protect 
American security and prosperity are directed at particular 
countries or parts of the world, but others can best be 
considered in global terms. These include our international 
economic leadership, war against terror, drugs, and crime, 
environmental measures, and initiatives to promote democracy, 
human rights, and the rule of law. They also include our 
strategy for safeguarding American security by preventing 
weapons of mass destruction and the missiles that deliver them 
from falling into the wrong hands.
    The economic crisis in Russia adds urgency to this need. 
The President is seeking $4.5 billion over the next 5 years for 
threat reduction programs designed to safeguard critical 
weapons materials and technology. We are determined that no 
nukes should become loose nukes.
    We are striving to ensure effective implementation of the 
Chemical Weapons Convention, to negotiate an agreement to end 
the production of fissile material for nuclear weapons, and to 
bring the Comprehensive Test Ban Treaty into force. This last 
agreement holds the promise of a world forever free of nuclear 
explosions, but if we are to fulfill that promise we must lead 
the way in ratifying the CTBT just as we did in negotiating and 
signing it, and I strongly urge the Senate to approve the CTBT 
this year.
    Mr. Chairman, as my written statement describes, we also 
want to work with you and the members of this committee to 
develop an effective and comprehensive response to the 
potential dangers posed to our citizens by missiles that may 
carry weapons of mass destruction.
    Finally, perhaps the best way to begin the work of the new 
year is to finish with that of the old. We have been trying, it 
seems forever, to find a way to encourage further reform at the 
United Nations while meeting America's obligation to pay our 
arrears. This stalemate has dragged on for much too long, and I 
hope we can work together in 1999 successfully this time to pay 
our bills and thereby increase our leverage in keeping the U.N. 
on the reform road. This would serve U.S. interests and 
increase our leverage for further reform.
    Senators, the efforts we make to advance our security, 
prosperity, and values are essential to our future, but we 
cannot lead without tools. It costs money to counter modern 
terrorists, protect American jobs, cool regional disputes, aid 
child survival, and spread the gospel of freedom, but these 
costs are small compared to the price we would pay if we sat 
passive while conflicts raged, criminals flourish, democracies 
unraveled, and weapons of mass destruction spread unhindered 
around the globe.
    Unfortunately, despite the strong support from many in both 
parties in Congress, we have lost grounds during this decade. 
In real terms, funding to protect American interests abroad has 
declined sharply. We have been forced to cut back on training. 
We face critical infrastructure needs, and the embassy bombings 
in Africa were tragic evidence of the imperative to do far 
more, far more quickly to reduce the vulnerability of our 
diplomatic missions.
    So I urge the committee to support with enthusiasm and in 
full the President's budget for international programs. By so 
doing, you will serve both our Nation and your constituents 
well, and you will give the people who protect American 
interests overseas the backing that they have earned.
    Fifty years ago, only a short distance from where we are 
now, President Harry Truman delivered his first and only 
inaugural address. In what came to be known as the four point 
speech, he challenged Democrats and Republicans alike to lend 
their support to international organizations, to continue 
programs for world economic recovery, to join with free people 
everywhere in the defense of democracy, and to draw on our 
country's expertise to help people help themselves in the fight 
against ignorance, illness, and despair.
    Today, we are summoned to build new institutions adapted to 
the challenges of our time, based on principles that will 
endure for all time. In so doing, we must heed the central 
lesson of this century, which is that problems abroad, if left 
unattended, will all too often come home to America.
    We Americans draw immense strength from the fact that we 
know who we are and what we believe. We have a purpose and, 
like the farmer's faith that seeds and rain will cause crops to 
grow, it is our faith that if we are true to our principles we 
will succeed.
    Let us, then, do honor to that faith in this final year of 
this turbulent century. Let us assume, not with complaint but 
welcome, the leader's role established by our forebears, and by 
living up to the heritage of our past, let us fulfill the 
promise of our future and enter the new century free and 
united, prosperous, and at peace, and to that mission I pledge 
my own best efforts and respectfully solicit both your wise 
counsel and support.
    Thank you very much, and I am now ready to answer 
questions.
    [The prepared statement of Secretary Albright follows:]

  Prepared Statement of Hon. Madeleine K. Albright, Secretary of State

    Mr. Chairman and Members of the Committee, good morning, I am 
delighted to be here to testify regarding the President's proposed 
Fiscal Year 2000 budget request for international affairs, and to 
review the principles and practice of U.S. foreign policy around the 
world.
    I begin with the observation that we all know America's purpose. It 
is freedom. We Americans are dedicated to the rights of all people. We 
promote government with the consent of the governed. We believe in law. 
We cherish peace. We seek prosperity.
    Having said this, we have not said very much. For it is easy to 
list goals. Our task, together, you and me, America and our friends 
overseas, is to achieve them.
    About a decade ago, our generation began a journey into a new era. 
We set out free from cold war bonds, but were soon plagued by a viper's 
nest of other perils. Along the way, we have not always put our foot 
right, but overall we have made great progress.
    Because the signposts of the past have fallen, history demands that 
we be innovators and trailblazers, builders of new institutions and 
adapters of old.
    So in virtually every part of every continent, we work with others 
to bring nations closer together around basic principles of democracy 
and law, open markets and a commitment to peace.
    We do this because it is right, but also because it is essential to 
protect the best interests of our nation and people. In this era, our 
security, prosperity and freedom hinge on whether others, too, have 
access to these blessings. And the future depends on whether we can 
help shape a world in which disputes are settled, prosperity is shared, 
criminals are caught, aggressors are deterred and basic human rights 
are respected.
                i. american leadership around the world
(A) The Western Hemisphere
    Nowhere are these truths more evident than in the community of 
democracies we are building with our neighbors in this hemisphere.
    Earlier this month, the President and I visited Mexico, with whom 
we share a 2000-mile border and a host of common interests. We place a 
high priority on our economic ties with Mexico, and on working through 
the U.S.-Mexico Binational Commission to enhance cooperation on matters 
ranging from counternarcotics to environmental protection to 
immigration. We also have an urgent and shared interest in helping the 
people of Central America recover from the destruction caused by 
Hurricane Mitch.
    The President's trip to that region next month will remind the 
world and our own citizens that, though the floods have receded, the 
hard work of rebuilding from that terrible storm has just begun.
    This morning, I ask your support for the President's request for 
emergency supplemental funds to help our neighbors plant crops, replace 
schools, reconstruct communities and resume normal lives.
    An early and sustained recovery in Central America matters to us 
both for human reasons and because economic dislocations in that region 
could contribute to social conflict, illegal immigration and crime. We 
have a strong interest in helping Central America strengthen its 
democracies and provide a good life for its people at home. Sustained 
recovery means expanding trade and creating jobs. These are the goals 
of the enhanced Caribbean Basin Initiative legislation the 
Administration will soon submit and for which I ask your support.
    It is appropriate that we help our neighbors not only in Central 
America, but also in the Caribbean and Colombia, to recover from recent 
natural disasters. For this spirit reflects the flourishing partnership 
that has grown out of the Summit of the Americas process.
    That process began in Miami in 1994 and gained momentum in Santiago 
last year. Its purpose is to build a hemispheric community based on 
shared interests and democratic values.
    On the economic front, we have forged a commitment to growth and 
integration based on open markets, open books, better schools and 
broader participation. Already, we export more to the Americas than to 
any other part of the world. And the United States is firmly committed 
to achieving a Free Trade Area of the Americas by 2005.
    We are also working closely with Brazil and other countries in the 
region to prevent the further spread of financial instability.
    In the area of security, our hemispheric community has also made 
great strides. With our help, and that of others, the troubling border 
dispute between Ecuador and Peru has been resolved. In Central America, 
after decades of fighting, differences are being settled by ballots, 
not bullets. And overall counter-narcotics cooperation is stronger than 
ever, because the understanding is broader than ever that the drug 
plague threatens us all, and that we must all do our part in the 
struggle against it.
    At the heart of the Summit of the Americas process is a commitment 
to democracy.
    In nations such as Venezuela and Peru, Paraguay and the Dominican 
Republic, we are helping democratic forces to assemble the nuts and 
bolts of lasting freedom.
    In Colombia, President Pastrana is committed to the rule of law and 
a future of peace for his people. I urge your support for our efforts 
to help him end his nation's bloody civil conflict, fight drug 
traffickers, support alternative development, and create a climate in 
which the rights of all Colombians may be respected.
    In Haiti, the long-unresolved conflict between President Preval and 
majority legislators has stalled economic reforms and led to the de 
facto dissolution of Parliament. The Haitian people deserve better. It 
is in our interest to continue assisting them as they struggle to build 
better lives.
    And in Cuba, we have taken a series of steps designed to help the 
Cuban people without strengthening their repressive and backward-
looking rulers.
    Our goal is to do what we can to help Cubans lay the groundwork for 
civil society and prepare for a peaceful transition to democratic rule. 
To this end, we have sought to make it easier for the people of Cuba to 
be in touch with family and friends here in the United States; and 
easier for the Cuban-American community to help those who remain on the 
island.
(B) Europe and the New Independent States
    We will mark this year the tenth anniversary of the fall of the 
Berlin Wall and the birth of a new Europe--undivided, democratic and 
working together for peace.
    With allies and partners, we are creating new institutions and 
adapting old ones to meet the challenges of the new era.
    With the President's personal leadership, and crucial help from 
former Senator George Mitchell, we have supported the people of Ireland 
in their desire to end terror and live in peace through implementation 
of the historic ``Good Friday'' agreement.
    We have joined Estonia, Latvia and Lithuania in signing the U.S.-
Baltic Charter, to show support for the freedom and security of those 
nations and for their efforts to join western institutions. We are 
pursuing our Northeast Europe Initiative to build bridges among the 
nations of the Nordic and Baltic region.
    We strongly support the expansion of the European Union (EU) into 
central and eastern Europe, and Turkey's desire to be part of that 
process. We are working hard to ease tensions in the Aegean and 
continue to explore every opportunity for progress toward a settlement 
on Cyprus.
    We are among those striving to help the Organization for Security 
Cooperation in Europe (OSCE) meet its potential as a catalyst for 
democratic change, tolerance and respect for human rights.
    And in 2 months, here in Washington, we will meet with our allies 
to set the course for NATO's second fifty years.
    The Washington Summit will be the largest diplomatic gathering at 
the Head-of-State level in the history of our nation's capital. 
Together, we will affirm NATO's success in safeguarding freedom, as we 
formally welcome the three new members who will have joined our 
alliance--a step made possible by strong Congressional support--and 
have discussions with 25 other partners who will participate during the 
Summit's second day.
    Together, we will recognize collective defense as the core mission 
of the Alliance; prepare to respond to the full range of threats the 
Alliance may face; further develop our partnerships with other European 
democracies; and coordinate our activities with key institutions such 
as the EU and OSCE.
    The NATO of the 21st Century will confront a changed and ever-
changing strategic environment. Possible threats include those posed by 
international terror, dangerous regional conflicts and the 
proliferation of weapons of mass destruction and the missiles that 
deliver them. As we have already seen in the Balkans, these dangers 
could emanate from well beyond NATO's borders, and while staying true 
to our character as a Euro-Atlantic Alliance, we must prepare ourselves 
to respond to them.
    As we do so, we bear in mind that although NATO stands tall, it 
does not stand alone. NATO and its partners, the OSCE, and the EU form 
the core of a broader system for protecting vital interests and 
promoting shared values. We learned in Bosnia earlier this decade that 
such a system is vital. We face a test now in Kosovo to see how 
effective the system we are developing can be under demanding and 
complex circumstances.
    As we have seen in both places, NATO's ability to use or credibly 
threaten to use force can be essential in countering threats to 
stability. But the efforts of other institutions and organizations are 
required to prevent such dangers from recurring.
    In Bosnia, we remain deeply committed to full implementation of the 
Dayton Accords. Success here would remove a major threat to European 
security, and establish a model for inter-ethnic collaboration that is 
needed throughout the Balkans and around the world.
    Since the peace accords were signed more than 3 years ago, enormous 
strides have been made. The fighting has long since stopped; tens of 
thousands of refugees and displaced have returned home; elections have 
been conducted at all levels; the symbols and substance of nationhood 
have begun slowly to come together; and we and our partners in SFOR 
have begun slowly to reduce the international military presence.
    It is essential, however, that we not allow events elsewhere in the 
region to distract us, or conclude from past progress that the future 
of peace in Bosnia is assured. The nation's bitter divisions are only 
partially healed. The job of enabling refugees to return safely is 
ongoing and difficult. Local authorities have not yet assumed the 
responsibilities for democracy and peace that they must if Bosnia is to 
become truly independent, united and free.
    The Dayton Accords remain the linchpin of hopes for stability in 
the Balkans. If those accords are to be implemented, the United States 
must continue to help the people of Bosnia realize the benefits of 
peace. The President's budget ensures that we will.
    As we enter the last year of the old century, democracy and 
economic reform have taken firm root in most parts of Central and East 
Europe. However, much work remains to be done in the Southern Tier of 
Balkan countries, particularly in Bosnia, Albania, Bulgaria, Romania 
and the Former Yugoslav Republic of Macedonia. We are helping to 
sustain progress through the Southeast Europe Cooperative Initiative 
and other measures that support regional cooperation in sectors such as 
trade and law enforcement.
    Further to the east, toward the Caucasus and Central Asia, 
democratic change remains very much a work in progress. In many 
countries, respect for human rights and the rule of law is 
unsatisfactory and economic reforms have been slowed by financial 
turmoil.
    With the aid of our soon-to-be-created Bureau of East European and 
Eurasian Affairs, we will vigorously pursue diplomatic and programmatic 
efforts to help countries in the region find the right road. We do this 
for reasons of principle, but also because this part of the world is 
critical to our own long-term security and prosperity.
    I want to express my appreciation for past congressional 
leadership, through Nunn-Lugar and the Freedom Support Act, to 
safeguard the handling of nuclear materials and lay the groundwork for 
economic and political reforms in the New Independent States. We will 
need your continued help this year in providing the resources and the 
flexibility we need to advance our goals, for we have entered a pivotal 
period.
    Every country in the region will hold parliamentary or Presidential 
elections in 1999 or 2000. We hope to see progress on Nagorno-Karabakh 
and on withdrawal of Russian troops from Moldova. We will also renew 
our request this year for legislation to repeal Section 907 of the 
Freedom Support Act. And we will press for completion of CFE 
negotiations by the OSCE summit later this year.
    We attach high importance to our strategic partnership with 
Ukraine, knowing that an independent, democratic, prosperous and stable 
Ukraine is a key to building a secure and undivided Europe. In 1999, we 
will continue to support Ukraine's economic and political reforms, 
press for a free and fair Presidential election, deepen our cooperation 
under the NATO-Ukraine Charter and strengthen our joint 
nonproliferation efforts. Last week, I was able to certify--after 
careful consideration--that the requirements of U.S. law with respect 
to Ukraine's business climate have been met--albeit just barely.
    We are also striving to strengthen our partnership with Russia. 
During my visit to Moscow last month, I found a Russia struggling to 
cope with economic setbacks, high rates of crime, and political 
uncertainty. I was heartened by my meeting with leaders of Russian 
civil society, and urged them to persist in efforts to build democracy 
and to resist the forces of extremism and intolerance--including anti-
semitism--that are threatening progress.
    On the official level, we continue to work closely with Russia. Our 
constant communication helps us to manage differences and make progress 
on important issues such as the CFE negotiations and Kosovo.
    A peaceful and democratic Russia that is tackling its economic 
problems and playing a constructive international role can make an 
enormous contribution to the 21 Century. It should not be surprising 
that the Russian transition from Communism to a more open system is 
proving difficult. Our own democracy took many decades to mature and 
remains unfinished. We have an enormous stake in Russian success and 
will continue to help as long Russia is committed to the path of 
reform.
(C) The Asia Pacific
    In the Asia Pacific, we are working with allies and partners to 
improve security cooperation, restore economic momentum and build 
democracy.
    Our alliance with Japan remains the cornerstone of regional 
security, and we are reinvigorating that alliance through the 
implementation of new guidelines for defense cooperation. Clearly, with 
the world's second largest economy, Japan is also an economic key. We 
are encouraging Tokyo to expand its program of deregulation, open its 
markets, and take other measures to restore growth.
    There is no greater threat to peace and stability in the Asia 
Pacific than the situation on the Korean Peninsula. With our Korean and 
Japanese allies, and China, we are discussing with North Korea the 
prospects for achieving a permanent end to tensions.
    We are also engaged in direct talks with North Korea on ways to 
resolve our concerns regarding its suspicious underground construction 
activities at Kumchang-ni and its long-range missile development, 
deployment and exports.
    There can be no improvement in our relations until our concerns 
about Kumchang-ni are resolved.
    North Korea must also address our concerns about its missile 
program if it wishes to enjoy good relations with nations in its region 
and improve its standing in the world. Further, the Agreed Framework to 
freeze and dismantle North Korea's ability to produce fissile material 
must be implemented in good faith and by all sides--and we will need 
the help of Congress in ensuring that our own obligations to the Korean 
Peninsula Energy Development Organization are met.
    Also in East Asia, we have continued our strategic dialog with 
China, a nation of increasing economic influence, diplomatic prominence 
and military strength.
    Since our dialog began, we have seen China move from being part of 
the nuclear proliferation problem to becoming part of the solution. It 
has endorsed extension of the Nuclear Non-Proliferation Treaty; signed 
the Comprehensive Test Ban Treaty (CTBT); become party to the Chemical 
Weapons Convention; promised not to assist unsafeguarded nuclear 
facilities; agreed to study membership in the Missile Technology 
Control Regime; supported peace talks on Korea; and played a 
responsible role during the Asian financial crisis.
    These developments matter. China's international role is evolving 
in a way that could aid regional prosperity and security for decades to 
come. We need to recognize these gains, even as we press for further 
progress.
    Next week, I will visit China, and I will bear with me from 
President Clinton a two-part message. The first is a firm commitment to 
our continued dialog and to the spirit of mutual respect with which it 
has been conducted. We will seek serious discussions about possible 
Chinese accession to the World Trade Organization, export controls, and 
the need to prevent renewed tensions related to Taiwan.
    But I will also bring a strong message of American concern about 
areas where we have differences, including human rights. This will come 
as no surprise to Beijing. In recent months, we have condemned the 
arrest, trial and sentencing of Chinese who sought peacefully to 
establish an opposition political party. In our human rights dialog 
with China, Assistant Secretary of State Harold Koh has emphasized the 
importance of Chinese compliance with international human rights 
standards, including a free press, freedom of religion and freedom of 
political expression. And we have urged China to open a dialog with the 
Dalai Lama regarding the protection of Tibet's religious, cultural and 
linguistic heritage within China.
    As I have said before, in our relations with China, engagement is 
not endorsement. We continue to have sharp differences with Beijing. 
But we also believe that the way to narrow those differences, and to 
take advantage of the many areas where United States and Chinese 
interests coincide, is through regular contacts and dialog.
    Economically, the past 20 months have been extremely painful for 
many in Asia. Governments have been challenged and millions of people 
face the prospects of unemployment, reduced living standards and a more 
uncertain future. Currently, we are working with a number of 
governments and with the international financial institutions to 
encourage policies that will restore growth, attract long-term 
investment, improve financial transparency, sustain momentum toward 
open markets, and help citizens adjust to change.
    One of the central lessons of the current crisis is that nations 
with strong democratic institutions are better able to withstand the 
turbulence of the new global economy. This is a message I will carry 
with me in my visits next week to Thailand and Indonesia.
    In Thailand, I will convey strong United States support for the 
government's economic reform programs and the efforts of the Thai 
people to strengthen democratic institutions across the board.
    To Indonesia, I will bring a message of concern and friendship from 
the American people; including support for free, fair and credible 
elections and a commitment to stand by the Indonesian people in what 
promises to be an extended period of economic recovery and political 
change. I will also discuss with Indonesian leaders the ongoing 
negotiations to reach a peaceful resolution of the status of East 
Timor. My emphasis will be on the need to minimize violence, promote 
stability, and respect human rights as the transition to a new status 
takes place.
    Elsewhere in the region, we will continue to work with ASEAN, Japan 
and others to strengthen democracy in Cambodia, and encourage a 
meaningful dialog in Burma between the authorities there and the 
democratic opposition, led by the National League for Democracy (NLD). 
We are deeply concerned by the attempts made throughout the past year 
to harass and intimidate NLD leaders. Burmese authorities must 
understand that the path to international acceptance and economic 
progress lies in movement toward a legitimate and popularly supported 
government in Rangoon.
(D) South Asia
    If the past year was a time of disappointment and unfulfilled 
promise in South Asia, we are working hard to see that the coming year 
is one of opportunity and progress. Following last May's nuclear tests, 
we worked with India and Pakistan to prevent a nuclear arms race. Both 
agreed to adhere to the CTBT by year's end, join negotiations for a 
fissile materials production cutoff and tighten export controls. And 
both have taken encouraging steps to improve bilateral relations with 
the other. The two Prime Ministers just concluded a very successful 
summit in Lahore. In the months ahead, we will be pressing for further 
stabilizing actions.
    Throughout the region, we will be working hard to advance our core 
foreign policy objectives of strengthening democracy, enhancing 
economic ties, countering terrorism, extending the rule of law and 
promoting respect for human rights--including religious freedom, worker 
rights and women's rights.
(E) The Middle East
    In the Middle East, our primary objective remains a just, lasting, 
and comprehensive peace between Israel and her Arab neighbors.
    Earlier this month, this cause lost one of its great champions with 
the passing of Jordan's King Hussein. As Secretary of State, I knew 
King Hussein as an eloquent and deeply committed partisan of peace. I 
hope his death will inspire us all to even greater efforts. In this 
regard, we are seeking expedited congressional consideration of $300 
million in additional assistance to support Jordan during this critical 
transition period. I have met with the new King and am confident that 
he will carry on the wise policies of his father; whose passing we all 
mourn.
    Let me also note that March 26 marks the 20th anniversary of the 
signing of the Egypt-Israeli peace treaty, which remains the bedrock of 
all subsequent regional peace efforts. The anniversary also marks the 
beginning of our strategic relationship with Egypt, which continues to 
contribute to peace and stability throughout the region.
    In the months ahead, we will persist in our efforts to help the 
peace process move forward. We are in regular contact with Israeli and 
Palestinian leaders, encouraging them to focus on implementing the Wye 
River Memorandum. To this end, I urge the Committee to support the 
President's request for funds to help the parties carry out that 
agreement.
    In the Gulf, we will continue to work with our allies and friends, 
and within the United Nations Security Council, to confront the threats 
that the Iraqi regime's aggression and weapons of mass destruction 
(WMD) capability pose to Iraq's own people, its neighbors, the 
international community and our own vital interests.
    In mid-December, we joined our British allies in a military 
operation that degraded Iraq's WMD capacity and its ability to threaten 
its neighbors. We have since continued to enforce the southern and 
northern No-Fly Zones and have repeatedly acted against Iraqi military 
assets in the zones that threaten our pilots and aircraft.
    At the United Nations, we are working within the Security Council 
to develop a basis for resuming inspection and monitoring of Iraq's 
remaining WMD capabilities. We will insist that sanctions against the 
regime continue until Iraq meets its obligations, although we support 
easing the burdens on the Iraqi people through an enhanced oil-for-food 
program.
    Our policy toward Iraq is to counter the threat Saddam Hussein 
poses to his people, his neighbors, our allies, and our interests in 
the region. We must and will persist in thwarting Iraq's potential for 
aggression. And we will support the Iraqi people's desire to 
reintegrate themselves into the international community and free 
themselves from a leader they do not want, do not deserve, and never 
chose.
    Across the border from Iraq in Iran, there are clear signs of 
popular support for a society based on the rule of law and a more open 
approach to the world. We welcome that, though we are concerned that 
Iran continues to pursue policies--on proliferation, terrorism, and 
human rights--that violate international norms.
    Iran's President Khatami has called for a dialog between our two 
peoples. Last summer, I endorsed that call and expressed a willingness 
to work with authorities in Tehran, when the time is right, to develop 
a roadmap for more normal relations. The official Iranian response thus 
far has been disappointing, but we stand ready for a dialog in which 
both sides would be free to discuss all issues of concern.
    America's interest in a stable and prosperous Middle East also 
depends upon whether the nations there work together to reform their 
economies, attract investment, move in the direction of democracy and 
create opportunities for their people. In Algeria, we support a 
credible, peaceful, Presidential campaign, which will transcend 
radicalism and violence and carry out President Zeroual's stated 
commitment to economic and political liberalization.
    Under Secretary of State Stuart Eizenstat is leading our North 
African partnership initiative, which aims to encourage structural 
reform in the region, increase regional commerce and improve political 
relationships. I hope we will continue to have the Committee's support 
for U.S. programs and policies that encourage progress in these 
directions.
(F) Africa
    The new century will demand from us a new approach to the vast and 
diverse African continent, where both exciting opportunities and grave 
dangers are present.
    The good news is that dozens of countries are implementing 
political and economic reforms. A majority of governments in sub-
Saharan Africa were democratically elected. Overall economic growth is 
a healthy 4.5 percent. Africa's potential as a participant in world 
trade has barely been tapped, and yet the United States already exports 
more to Africa than to the entire former Soviet Union. Moreover, we 
import almost as much oil from Africa as from the Middle East.
    On the negative side, Africa is a major battleground in the global 
fight against terror, crime, drugs, illicit arms-trafficking, and 
disease. And an array of immediate crises demand our attention.
    We are actively engaged with South Africa and other regional 
leaders, and with the United Nations, in efforts to end the senseless 
war in the Horn of Africa, salvage the peace process in Angola, achieve 
a lasting settlement in the Democratic Republic of Congo, find a 
solution to the decades-long strife in Sudan, and help the West African 
peacekeeping force, ECOMOG, try to end the brutal fighting in Sierra 
Leone.
    We are also working with the World Health Organization and through 
USAID to slow the spread of HIV/AIDS, which is causing incalculable 
human suffering.
    It is vital, however, that we not allow immediate crises to cause 
us to neglect long-term goals. In Africa, as elsewhere, we must build 
relationships and forge institutions that will serve as the foundation 
for future progess.
    This is the approach that drives our policy and for which I ask the 
support of this Committee and the Congress.
    For example, I urge your backing for efforts to assist the long-
delayed and often-betrayed transition to democracy in Nigeria, Africa's 
largest nation.
    I urge your support for our efforts to assist conflict resolution 
through our Africa Crisis Response Initiative and the new African 
Center for Strategic Studies, and to approve funding for key African 
programs such as the Great Lakes Justice Initiative, VOA's new Radio 
Democracy for Africa program, the African Development Foundation, and 
USAID's assistance for development and democracy.
    I urge you once more this year to approve the African Growth and 
Opportunity Act, a trade measure that would afford greater market 
access for selected products from the strongest reforming countries of 
Africa. This proposal would also benefit American companies and workers 
by expanding our trade with the largest underdeveloped market in the 
world.
    I ask you to listen to the voices of the African diplomatic 
community here in Washington who have requested Senate approval of the 
U.N. Convention to Combat Desertification. This is a Presidential 
priority. And I invite members of this Committee to participate in next 
month's first-ever U.S.-Africa Partnership Conference with senior 
foreign ministry, trade and finance officials from 46 of the 48 
countries of Sub-Saharan Africa.
    Mr. Chairman, I will be frank. There are those both in and outside 
of public office in our country who look at the deep-rooted problems in 
Africa and throw up their hands. Many others throw up their hands 
without even the slightest glance at the cross currents presently at 
work in Africa.
    The sources of crisis in Africa, which include ethnic rivalry, 
greed, unchecked ambition and ignorance, are hardly unique to that 
continent. And Africa does not lack the qualities out of which a freer 
and more prosperous future may be built.
    Many in Africa are laboring hard to heal ethnic divisions, advance 
the status of women, clear landmines, care for refugees, and build 
civil society. An increasing number of leaders understand that the 
continent's future prosperity depends on trade, and are committed to 
the kind of market-opening and rule of law initiatives that will create 
a sound environment for domestic and foreign investment. And I have 
spoken with Africans from all walks of life who admire deeply the 
democratic institutions they equate with America and urgently desire 
our help in strengthening their own.
    Looking ahead, we know that progress toward stability, prosperity 
and democracy in Africa will be neither constant, nor universal, nor as 
swift as we would wish. But we owe it to those striving to build the 
new Africa, and to ourselves, to assist their efforts when and where we 
can, understanding that our strategies must be based less on the 
promise of short-term breakthroughs, and more on the potential for 
long-term results.
                  ii. global opportunities and threats
    Mr. Chairman, to protect the security and prosperity of our 
citizens, we are engaged in every region on every continent. Many of 
our initiatives and concerns are directed, as I have discussed, at 
particular countries or parts of the world. Others are more 
encompassing and can best be considered in global terms.
(A) Protecting American Security
    The first of these is our strategy for ensuring the fundamental 
security of our citizens and territory--a challenge that differs 
substantially from the past.
    The risks of cold war confrontation have ended, and for that we 
remain grateful. But we face a variety of other dangers, some fueled by 
technology's advance; some by regional rivalry; some by naked ambition; 
and some by outright hate.
    During the past year, we were witness to terrorist attacks against 
two of our embassies in Africa, the testing of longer range missiles by 
North Korea and Iran, periodic threats from Saddam Hussein, and nuclear 
explosions in South Asia that challenged the global nonproliferation 
regime.
    The new year promises little relief from such perils. In his State 
of the Union Address, President Clinton outlined plans for further 
strengthening our military, reinvigorating our alliances, and 
preparing--down to the community level--for the possibility of a 
terrorist strike.
    The defense of our country requires both the capacity and the will 
to use force when necessary; and as the President made clear, we have 
both. But force can be a blunt instrument and nearly always entails 
grave risks.
    So our security also requires the vigorous use of diplomatic tools 
to bolster the forces of law and prevent weapons of mass destruction 
and the missiles that deliver them from falling into the wrong hands.
    The economic crisis in Russia and elsewhere in the New Independent 
States (NIS) adds urgency to the need for effective action. The 
President is seeking $4.5 billion over the next 5 years for threat 
reduction programs in this region to dismantle or store strategic 
weapons safely, secure fissile material components, and engage 
scientists to prevent the proliferation of WMD expertise. We are 
determined that no nukes become ``loose nukes.''
    Around the world, we are engaged with allies and friends in a 
multi-year, multi-faceted campaign to deter and defend against 
terrorist acts; and to pursue, prosecute and punish the criminals who 
commit them.
    We are striving to ensure effective implementation of the Chemical 
Weapons Convention. We have stepped up efforts to hammer out an accord 
that will strengthen compliance with the Biological Weapons Convention. 
We have begun to make progress toward a treaty to end the production of 
fissile material for nuclear weapons.
    And we are supporting the entry into force of the CTBT. This 
Treaty, sought by U.S. Presidents since Dwight Eisenhower and John 
Kennedy, holds the promise of a world forever free of nuclear 
explosions, making it harder for other nations to develop nuclear arms. 
But if we are to fulfill that promise, America must lead the way in 
ratifying the CTBT, just as we did in negotiating and signing it. The 
CTBT cannot enter into force without our ratification, and that of 
other key countries, such as India and Pakistan. Those two nations have 
pledged to adhere to the CTBT by September. We should not give them an 
excuse to delay, nor should we lag behind. I strongly urge the Senate 
to approve the CTBT this session.
    During my recent visit to Russia, I emphasized the need to prevent 
the destabilizing transfer of arms and sensitive technologies. This is 
a problem we address not only with Moscow, but worldwide. We provide 
material or technical assistance to more than two dozen countries to 
enhance the effectiveness of their export controls. We also share 
information. These efforts, although rarely publicized, have prevented 
numerous transactions that would have threatened our allies, our 
friends and ourselves.
    Mr. Chairman, it is especially important that we work together on a 
bipartisan basis to respond to the potential dangers posed to our 
citizens, troops, territory and friends by long-range missiles that may 
carry weapons of mass destruction.
    We have lived with this danger for decades. But its character is 
changing now as more nations develop the means to launch longer-range 
missiles.
    Our policy includes diplomatic efforts to restrain missile 
development, an option that a number of countries have voluntarily 
foregone. Almost three dozen nations are cooperating to limit 
technology transfers through the Missile Transfer Control Regime. And 
we are strongly urging nations such as North Korea, Iran, India and 
Pakistan not to further develop or deploy missiles that could be de-
stabilizing.
    We understand, however, that nonproliferation efforts may not be 
enough. Our military power serves as a mighty deterrent against any 
potential adversary. Further, to protect ourselves and our allies 
abroad, we are working to develop theater missile defense systems, as 
allowed under the Anti-Ballistic Missile (ABM) Treaty.
    To protect ourselves at home, the President is requesting $10.5 
billion between now and Fiscal Year 2005 for a national missile defense 
(NMD) system, including the funds that would be necessary during this 
period to deploy a limited NMD, should the technology prove viable and 
a deployment decision be made. The purpose of such a system would be to 
protect against attacks by outlaw nations.
    I know that Congress may soon consider legislation that would 
mandate deployment of a national system as soon as it is 
technologically feasible to do so. The Administration opposes this 
approach as too narrow. We believe a deployment decision should be 
based on four factors. These include a thorough assessment of the 
technology and the proposed system's operational effectiveness; the 
status of the ballistic missile threat; and the cost of deployment. A 
decision regarding NMD deployment must also be addressed within the 
context of the ABM Treaty and our objectives for achieving future 
reductions in strategic offensive arms through START II and III.
    I have personally made clear to Russian leaders that deployment of 
a limited NMD that required amendments to the ABM Treaty would not be 
incompatible with the underlying purpose of that Treaty, which is to 
maintain stability and enable further reductions in strategic nuclear 
arms. The ABM Treaty has been amended before, and we see no reason why 
we should not be able to modify it again to permit deployment of NMD 
against rogue nation missile threats.
    We could not and would not give Russia or any other nation a veto 
over our NMD decisions. It is important to recognize that our sovereign 
rights are fully protected by the supreme national interests clause 
that is an integral part of this Treaty. But neither should we issue 
ultimatums. We are prepared to negotiate any necessary amendments in 
good faith.
    Mr. Chairman, the threat to the security of America and its 
partners is most obvious from weapons of mass destruction, but that is 
not the only danger. In many parts of the world, instability is fueled 
by the unregulated and illegitimate sale of large quantities of 
conventional arms. These are the sales that equip brutal rebel 
movements, such as that in Sierra Leone, and make it harder to sustain 
peace processes in places such as Angola and Afghanistan.
    In response, the Clinton Administration has launched a small arms 
initiative designed to curb the flow of weapons to Central Africa, and 
to negotiate an international agreement aimed at making global 
standards for the regulation and sale of firearms closer to our own. We 
are also working to negotiate an agreement to control the export of 
shoulder-fired missiles, which are ardently desired by many terrorist 
and other criminal organizations, and which pose a severe danger to 
civilian aircraft.
    Finally, Mr. Chairman, we also protect our security by 
strengthening the rule of law in areas of potential misunderstanding 
and conflict. That is why the Defense Department and our military 
leaders have strongly urged Senate approval of the new and improved 
U.N. Convention on the Law of the Sea.
(B) Sustaining American Prosperity
    A second overarching goal of our foreign policy is to promote a 
healthy world economy in which American genius and productivity receive 
their due.
     The American economy is strong today because of the energy, 
innovation, and skills of the American people. We have the most 
competitive economy on Earth. Our foreign policy cannot take credit for 
that; but we can and do support it.
    Since President Clinton took office, we have negotiated more than 
240 trade agreements, including the Uruguay Round and agreements on 
information technology, basic telecommunications and financial 
services. This matters because trade has been responsible for almost 
one-third of the sustained economic growth we have enjoyed these past 6 
years. Today, more than ten million U.S. jobs are supported by exports, 
and these are good jobs, paying--on the average--significantly more 
than non-trade related positions.
    I urge the Congress to restore the President's fast track trade 
negotiating authority so that he may take full advantage of the 
opportunities for further lowering barriers to trade in American goods 
and services.
    I ask your backing for our efforts to negotiate market-opening 
aviation agreements, and an international policy on telecommunications 
that could reduce the cost to our citizens of overseas phone calls and 
mail.
    And I hope you will lend your support to agencies such as the 
Export-Import Bank, the Trade Development Agency, and the Overseas 
Private Investment Corporation, which help our businesspeople find new 
markets abroad.
    The State Department also supports prosperity by using embassy 
expertise and contacts to provide appropriate help to American firms. 
Under President Clinton, the Department has worked hard to develop a 
dynamic partnership with the American business community and to ensure 
that business interests are taken into account when foreign policy 
decisions affecting them are made. As further evidence of this, we have 
included in our budget this year a proposal for a modest pilot program 
to help our smaller embassies work with our businesspeople to develop 
markets in countries where other U.S. agencies are not represented.
    During the past decade, the trend toward more open rules of 
investment and trade has helped to spur record economic expansion and 
raise living standards in much of the world. Over the past 18 months, 
however, the financial crisis has applied the brakes to many national 
economies and plunged a number, particularly in East Asia, into 
reverse. Although the U.S. economy has remained healthy, important 
sectors such as agriculture, aircraft and steel have been adversely 
affected by shrinking export markets and increased pressure from low-
priced imports.
    We have responded on two levels. First, we have rigorously enforced 
our laws against unfair trade. For example, the Administration 
expedited consideration of hot-rolled steel antidumping cases; helped 
persuade Korea to curtail government support for its steel industry; 
and urged the EU to take more steel imports. These efforts have borne 
some fruit. Imports of steel mill products in December were 32 percent 
lower than in November.
    More broadly, President Clinton has responded with proposals 
designed to restore world economic growth, reform international 
financial institutions, ensure fair treatment for U.S. workers and 
firms, and assist our trading partners in improving the management of 
their financial sectors.
    We have encouraged Japan to implement reforms that would help make 
that country once again an engine of economic expansion. We have joined 
forces with the World Bank and the IMF to prevent the financial 
contagion from spreading further and to meet urgent humanitarian needs. 
And we have made it clear, in promoting trade and supporting the role 
of the international financial institutions, that serious consideration 
must be given to environmental and worker standards.
    Unfortunately, there are no quick or simple solutions to the 
problems many countries now face. Success in the global economy 
requires sound fiscal and monetary policies, transparent financial 
systems, good governance and the rule of law. It is no accident that 
nations with these attributes have fared best in the current crisis.
    Nations with deeper problems must take the tough steps required to 
develop broad-based and accountable democratic institutions that will 
earn investor confidence and engender public support. It is in our 
interest to help nations that are prepared to undertake these reforms 
and we are committed to doing so.
    One example of this is by calling attention to the crippling 
effects of corruption on economic growth, investor confidence, 
political stability and popular morale. I thank Congress for backing 
U.S. participation in the OECD's landmark Convention against Commercial 
Bribery. We will be asking your support for a broader convention 
negotiated in the OAS. We are seeking support for anti-corruption 
initiatives in Asia and Africa. And, as we speak, Vice President Gore 
is chairing a conference with representatives from around the world to 
discuss ways to fight corruption.
    In recent years, trade and investment have played increasing roles 
in efforts to foster development and raise living standards around the 
world. But this does not diminish the critical role played by 
professional development organizations such as USAID.
    We know that many of our fastest-growing markets are in developing 
countries where the transition to an open economic system is 
incomplete. By helping these countries, we contribute to our own 
prosperity while strengthening the international system, in which the 
United States has the largest stake.
    Over time, we hope that every country will have a seat at the table 
in the international system, and that each will fulfill its 
responsibility to observe global norms. This will not happen 
automatically or by accident. Certainly, globalization and the free 
market alone will not make it happen. It will never happen without the 
right kind of hands-on assistance, in the right places, at the right 
times, from those who understand how the process of development works.
    So I urge your support for the varied and vital work of USAID. And 
I hope you will embrace other economic and humanitarian assistance 
programs such as the Peace Corps, our contributions to the multilateral 
development banks and support for vital U.N. organizations such as 
UNICEF, the U.N. Development Program, and the U.N. Population Fund.
(C) Fighting International Crime and Narcotics
    Mr. Chairman, a third global objective of our foreign policy is to 
fight and win the struggle against the hydra-headed evil of 
international crime. Drug cartels and the criminal empires they finance 
threaten us every day whether we are traveling abroad or going about 
our daily business here at home.
    President Clinton spoke to this danger last spring when he unveiled 
a comprehensive strategy to integrate all facets of the Federal 
response to international crime. Led by our Bureau of International 
Narcotics and Law Enforcement Affairs, the State Department is a key 
partner in this effort, which is designed to extend the first line of 
defense against crime far beyond U.S. borders.
    To this end, we are working with other nations as never before to 
train police, prosecutors and judges, seize drug assets, help farmers 
find alternatives to illicit crops, expose and close front companies, 
halt money laundering, track criminals and bring smugglers of 
contraband to justice.
    These efforts have paid off in significantly reduced coca 
cultivation in Bolivia and Peru, and the promise of a more concerted 
anti-narcotics program in Colombia.
    In Africa, Nigeria is a key, and we are encouraged by the prospect 
of a democratic transition in that country. It is essential, however, 
that we have the flexibility in administering our anti-narcotics and 
crime programs to devote a higher percentage of our resources to this 
continent. Thirty percent of the heroin interdicted in the U.S. is 
traceable to African smuggling organizations.
    In Asia, we are handicapped by the repressive nature of the 
authorities in the world's two largest producers of heroin, Burma and 
Afghanistan. We are doing our best to address the problem by working 
through neighboring states, regional organizations and the U.N.
    Around the world, we strive to disrupt the vicious criminal empires 
which endanger citizens and threaten democratic values from Moscow to 
Manhattan.
    There are no final victories in the fight against international 
crime, but--as our increased budget request for this year reflects--we 
are pushing ahead hard. Our purpose, ultimately, is to create a tightly 
woven web of agreements, laws, inspectors, police and judicial power 
that will deny drug kingpins and other criminals and the space they 
need to operate and without which they cannot survive.
(D) Safeguarding the Environment
    The United States also has a major foreign policy interest in 
ensuring for future generations a healthy and abundant global 
environment and in working to prevent environmental problems that could 
lead to conflict or contribute to humanitarian disasters.
    The wise stewardship of natural resources is about far more than 
aesthetics. Misuse of resources can produce shortages that breed 
famine, fear, flight and fighting. And as societies grow and 
industrialize, the absorptive capacities of the Earth will be severely 
tested.
    That is why we have incorporated environmental goals into the 
mainstream of our foreign policy, and why we are pursuing specific 
objectives through regional environmental hubs in every part of the 
world.
    It is why we are seeking an international agreement to regulate the 
production and use of persistent chemical toxins that have global 
impacts.
    It is why we are working hard to bring into force better standards 
for preserving biological diversity and managing marine resources.
    And it is why we will be working to limit the emission of 
greenhouse gases that most scientists believe cause global warming. 
Last November, in Buenos Aires, parties to the U.N. Framework 
Convention on Climate Change agreed to an action plan for advancing the 
agenda outlined in the 1997 Kyoto Protocol. In that Protocol, leading 
industrialized countries agreed to binding limits, at reduced levels, 
on greenhouse gas emissions and adopted, in key respects, the U.S. 
market-based approach to achieving those reductions.
    In the year to come, we will continue our vigorous diplomatic 
efforts to implement the Buenos Aires work plan and to encourage 
developing country participation, without which international efforts 
to control global warming cannot succeed.
(E) Human Rights, Democracy and the Rule of Law
    American policy is to promote democracy, the rule of law, religious 
tolerance and human rights.
    We believe, and the Universal Declaration on Human Rights affirms, 
that ``the will of the people . . . expressed in periodic elections'' 
should be the basis of government everywhere. We are working actively 
to promote the observation of this principle around the world.
    Earlier in this statement, I mentioned some of the specific 
programs we use to aid democratic transitions, support free and fair 
elections and help democratic forces build civil society.
    These programs reflect our ideals and serve our interests.
    When we support democratic leaders, we are aiding our natural 
partners and helping to forge a community of democratic nations that 
will work together to defend freedom where it exists and promote it 
where it does not.
    We also know from experience that democratic governments tend to be 
more successful at preventing conflicts and coping with the turbulence 
of the global market than regimes that do not answer to the people.
    Our support for the right to democracy is part of our broader 
effort to elevate global standards of human rights and respect for the 
rule of law. Our goal is to enter the 21st Century moving ahead in 
these areas, not just settling for the status quo.
    Accordingly, the United States will continue to support democratic 
ideals and institutions however and wherever we can effectively do so.
    We will continue to advocate increased respect for human rights, 
vigorously promote religious freedom and firmly back the international 
criminal tribunals for Rwanda and the Former Yugoslavia.
    We will support efforts to help women gain fair access to the 
levers of economic and political power, work with others to end the 
pernicious trafficking in women and girls, and renew our request for 
Senate approval of the Convention to Eliminate All Forms of 
Discrimination Against Women.
    As the President pledged in his State of the Union Address, we will 
continue working through the International Labor Organization to raise 
core labor standards, and to conclude a treaty that would ban abusive 
child labor.
    And we will remain leaders in the international effort to prevent 
harm to civilians from anti-personnel landmines. Through the 
President's ``Demining 2010'' Initiative, we are working with official 
and nongovernmental organizations everywhere to detect, map, mark and 
destroy mines; increase mine awareness; improve mine detection 
technology; and care for the victims of mines.
                        iii. unfinished business
    Mr. Chairman, perhaps the best way to begin the new year's work is 
to finish with old business. We have been trying, it seems forever, to 
find a way to encourage further reform while meeting America's 
obligation to pay our arrears to the United Nations and other 
international organizations.
    This stalemate has dragged on far too long. We need to stop 
treating the United Nations like a political football. We need a fresh 
start based on a bipartisan consensus that falls somewhere between 
those who have nothing but praise for the U.N. and those who would like 
nothing better than to bury it. Most Americans are in this mainstream.
    With their backing in mind, we need an approach that is realistic, 
grounded in U.S. interests, and based on a small number of constructive 
and pragmatic principles, of which I would offer four.
    First, we should recognize that the United States has important 
interests in the work that the U.N. and other international 
organizations do. These range from our security interest in U.N. 
peacekeeping and multilateral sanctions against Iraq and Libya; to our 
economic interest in the protection of intellectual property rights and 
fair worker standards; to our humanitarian interest in feeding 
children, fighting disease and caring for the world's refugees.
    Second, we should be realistic in our demands and expectations of 
the U.N. The U.N. provides no guarantee of global peace or prosperity. 
But in peacekeeping, development and other areas, it can play a vital 
role as catalyst and coordinator, and as a bridge spanning the gaps 
between the contributions of others.
    Third, we must maintain pressure for reforms that will make the 
U.N. more effective. With help from the United States and other leading 
nations, the U.N. system has achieved more reform in the last half 
decade than in the previous 45 years. It is better led, more ably 
managed and far more disciplined that it was when I arrived in New York 
as our Permanent Representative to the U.N. in 1993. We should do all 
we can to see that this process of modernization and reform continues.
    Finally, while insisting that others do the same, we must--as the 
President proposes in his budget--pay our bills. This is not just a 
question of dollars and cents. It is a matter of honor, of keeping our 
word. It is also a question of national interest because we will be far 
more influential--and far better able to spur further reform--within 
the U.N. system and other international organizations if we are meeting 
our obligations to them.
                       iv. world-class diplomacy
    The efforts we make to advance our security, prosperity and values 
are essential for our future. But we cannot lead without tools.
    It costs money to counter modern terrorists; protect American jobs; 
cool regional disputes; aid child survival; and spread the gospel of 
freedom.
    But these costs do not begin to compare to the costs we would incur 
if we stood aside while conflicts raged, terrorists struck, democracies 
unravelled and weapons of mass destruction spread unhindered around the 
globe.
    Unfortunately, despite strong support from many in both parties in 
Congress, we have lost ground during this decade. In real terms, 
funding has declined sharply. We've been forced to cut back on the 
life's blood of any organization, which is training. We must modernize 
our information systems. We face critical infrastructure needs. We have 
seen the proportion of our nation's wealth that is used to support 
democracy and prosperity around the globe shrink steadily, so that 
among industrialized nations we are now dead last. And the embassy 
bombings in Africa were tragic evidence of the imperative to do far 
more, far more quickly, to reduce the vulnerability of our diplomatic 
missions.
    On this last point, let me stress my own personal commitment to do 
all I can to protect our people. Last year, Congress approved our 
request for $1.4 billion to enhance security through construction 
upgrades, new personnel and improved equipment. The President's Fiscal 
Year 2000 budget includes funds to sustain those efforts. And we are 
asking $3 billion in advance appropriations over 5 years to build new 
and safer posts. Meanwhile, I am in regular contact with White House 
and other senior officials to assess security threats and needs. This 
is a year-round, around-the-clock, concern.
    Given all this, I urge the Committee to support the President's 
budget request for international programs in its entirety. By so doing, 
you will serve our nation and your constituents very, very well. And 
you will give deserved support to the foreign service officers, civil 
service personnel and foreign service nationals--who work every day, 
often under difficult and dangerous conditions, to protect our 
interests around the world.
                             v. conclusion
    Fifty years ago, only a short distance from where we are now, 
President Harry Truman delivered his first and only inaugural address.
    In what came to be known as the Four Point speech, he challenged 
Democrats and Republicans alike to lend their full support to 
international organizations; to continue programs for world economic 
recovery; to join with free people everywhere in defense of democracy; 
and to draw on our country's vast storehouse of technical expertise to 
help people help themselves in the fight against ignorance, illness and 
despair.
    Today, we are summoned to build new institutions, adapted to the 
challenges of our time, based on principles that will endure for all 
time.
    In so doing, we must heed the central lesson of this century, which 
is that problems abroad, if left unattended, will all too often come 
home to America.
    We Americans draw immense strength from the fact that we know who 
we are and what we believe. We have a purpose. And like the farmer's 
faith that seeds and rain will cause crops to grow; it is our faith 
that if we are true to our principles, we will succeed.
    Let us, then, do honor to that faith. In this final year of this 
turbulent century, let us assume, not with complaint, but welcome, the 
leader's role established by our forebears.
    And by living up to the heritage of our past, let us fulfill the 
promise of our future--and enter the new century free and united, 
prosperous and at peace.
    To that mission, I pledge my own best efforts, and respectfully 
solicit both your wise counsel and support.
    Thank you very much. And now I would be pleased to respond to your 
questions.

    The Chairman. Very well, Madam Secretary. By the way, I am 
counting. I think we have about 11 Senators here, and I will do 
a little bit of arithmetic and say maybe we had better limit 
the questioning to 5 minutes per Senator for the first round.
    Now, Madam Secretary, we figured up yesterday that 649 days 
have passed since the President made a legal commitment to 
submit the ABM treaty amendments for the Senate's advice and 
consent. We talked about that earlier this morning.
    Now, I have been accused from time to time of holding 
treaties hostage, but it seems to me that the shoe may be on 
the other foot, really, because it is the President who is 
refusing to allow the Senate to vote on this treaty.
    Now, he pledged to submit the changes to the treaty almost 
2 years ago. Do you think it appropriate for the President to 
leave office without fulfilling that promise?
    Secretary Albright. Mr. Chairman, let me say that, as we 
have said, we will send this agreement to the Senate along with 
the START II protocol after the Russians have ratified START II 
and its protocol. Prior to the implementation, we are committed 
to seeking the Senate's advice and consent to ratification of 
the memorandum of understanding related to the ABM treaty 
succession, and to the two agreed statements related to the 
demarcation, but I think we fully understand the necessity of 
sending this forward.
    The Chairman. Good.
    Secretary Albright. But as we have said, it is related to 
the Russian action, and it is my understanding from when I was 
there last that they are planning to have this on their 
calendar in March.
    The Chairman. On another subject, I was pleased and 
gratified to hear your statement last month, when you flatly 
stated that our sanctions on Cuba can be lifted only if Castro 
undertakes basic democratic reform, but last week we got Mr. 
Castro's reply to this message as he applied more draconian 
crackdowns on dissidents and independent journalists.
    Are you in a position to assure this committee that the 
administration will stick to the reasonable conditions in our 
present law for lifting the embargo, or normalizing relations, 
which are that Cuba must first release all political prisoners, 
respect basic human and political rights, and dismantle that 
secret police gang that he has?
    Secretary Albright. Mr. Chairman, as you know, I have taken 
a great deal of interest personally in what is going on with 
Cuba and our relationship with it. We have no plans to lift the 
embargo, but what we are doing is systematically following up 
on some of the openings created by the Pope's visit to Cuba, 
and our own desire to build on the Torricelli bill and the 
Libertad Act to try to consistently help the Cuban people.
    I have been saying that what is really going on is that 
Castro has an embargo against his own people. We are trying to 
break that embargo by providing the possibilities for ordinary 
Americans now to send remittances to the Cuban people so that 
they have more elbow room to operate outside of their very 
restricted regime.
    We also wish to expand the number of flights going back and 
forth. There are a number of measures, as you know, we have 
taken while making very clear that the embargo is the law of 
the land and systematically penetrating the system.
    I was very honored to be able to be in Miami 2 weeks ago, 
to open the new studios of Radio and TV Marti with a much 
stronger signal. I delivered a very strong statement myself 
over that broadcast saying that we wanted to support the people 
of Cuba.
    The Chairman. On another subject, very quickly, do you 
think that inasmuch as credible evidence has been made and 
delivered and made public that Iraq could assemble a nuclear 
weapon in as few as 6 months, provided it has the required 
fissile material? Given this, do you think we ought to actively 
pursue the immediate removal of Saddam from power?
    Secretary Albright. Senator, let me say that we have 
consistently, ever since the Gulf War, been pursuing a policy 
of containing Saddam Hussein and his weapons of mass 
destruction. The administration earlier, I believe starting 
last year, added something to that element, which is 
containment plus, the plus being regime change. This will 
enable the people of Iraq to have a leader who is 
representative of them or will allow them to choose a leader.
    We are following up systematically on the Iraq Liberation 
Act. As you know, the President has designated some seven 
opposition groups that are eligible for assistance. I have 
named a very trusted and very capable U.S. diplomat, Frank 
Ricciardone, who has taken over the role of a coordinator for 
the transition. He will be working with these various groups as 
well as working on a number of plans to add, as I said, the 
plus to the containment plus.
    We believe that Iraq would be better off without Saddam 
Hussein. I pride myself on many things. I most of all like it 
when you all have something nice to say about me, but next to 
that I like it a lot when Saddam Hussein has something terrible 
to say about me, and his newest name for me is sorceress.
    So I feel OK today.
    The Chairman. I think the answer to my question was yes, 
sort of.
    Secretary Albright. Yes.
    The Chairman. Senator Biden.
    Senator Biden. Thank you very much.
    Madam Secretary, again, we appreciate your being here, and 
there is a lot to cover. I am not going to go into detail, 
because there is no time in 5 minutes, but I would like to ask 
unanimous consent that I would be able to submit to you a 
series of detailed questions on ABM, ABM modification, the test 
ban treaty, and ask you as soon as your staff can get a chance 
to look at them we would appreciate the answers to these in 
detail.
    Now let me ask you a more generic question. The Senator has 
pointed out accurately that the administration is committed to 
submit the protocol, submit the demarcation changes to the ABM, 
and the administration has consistently said it will do that 
when the Duma acts on START.
    Now, we are about to--the calendar dictates a lot of 
things. Hopefully in March that will happen with the Duma, but 
in February, next week, we are going to start a debate here on 
the floor of the Senate on the Cochran bill that would make it 
the U.S. policy to deploy a missile defense system as soon as 
technologically possible.
    Could you give me a brief comment on what impact, if any, 
and it may not have any, such an action, assuming it were to 
pass the Senate, and it may very well, would have upon the 
circumstances in the Duma, in your view, or in Russia 
generally, in terms of them moving on START, or is there any 
causal connection?
    Secretary Albright. Well, one of the interesting 
discussions that I had when I was in Russia was the whole 
connection from their perspective of the ABM treaty and our 
national missile defense discussions. I think it is very 
important if it is at all possible for them to be able to have 
their ratification of START take place in a way that does not 
put all these pieces together, because they know that we will 
not put our ABM ratification process forward until the START 
treaty is in place. I believe they have a whole discussion 
process of their own which also needs to go forward.
    I think that this goes to something that the chairman said. 
I do believe that the ABM is a cornerstone of our strategic 
stability, and that we are committed to continued efforts to 
strengthen that treaty and enhance its viability. That does not 
mean, however, that it is not possible for us at some stage to 
amend it. It has been amended before, but I think that it is 
very important for the Russians to have their debate.
    The administration has put forward a statement of 
administration policy on going forward with the National 
Missile Defense Act--that is, the Cochran bill--and we think 
the decision regarding this NMD deployment has to be addressed 
within the context of the ABM treaty and our objectives for 
achieving future reductions in strategic offensive arms through 
START II and START III, and I think it is very important to 
keep that in mind.
    We have made clear to Russia that deployment of a limited 
NMD that required amendments to the ABM treaty would not be 
incompatible with the underlying purpose of the ABM treaty. 
That is, to maintain strategic stability and enable further 
reductions in the strategic nuclear arms.
    But I think that obviously no other Nation shall have veto 
over our requirements, and we have our sovereign rights. We 
think that, as S. 257 suggests, that neither the ABM treaty nor 
the objectives for START II and III are factors in an NMD 
deployment decision, and enactment of this legislation would 
clearly be interpreted by Russia as evidence that the United 
States is not interested in working toward a cooperative 
solution, one that is both in our national security interests.
    Senator Biden. Madam Secretary, my time is almost up--it 
will be in about 10 seconds--and I want to ask you one more 
quick question. It is very simple. Security, embassy security. 
Admiral Crowe has indicated and issued a report suggesting that 
maybe for financial and security reasons we might very well 
talk about regional embassies as opposed to embassies as we do 
now, where every country has an embassy.
    This notion of doing away with universality in terms of our 
embassies, I am frank to tell you, I have not thought that 
through yet. On the surface, it does not seem to be a good idea 
to me, but do you have any general thoughts on that, on Admiral 
Crowe's recommendation?
    Secretary Albright. Yes, sir. First of all, I do believe 
that we need to maintain universality. I think that is a very 
important element of our foreign policy. But that does not mean 
that it is not possible to have certain embassies which can 
provide for certain services regionally, so as we are 
rebuilding Nairobi, for instance, it is going to contain a 
number of computer possibilities, and a variety of 
technological possibilities that can serve the region that do 
not have to be duplicated in all the embassies in the African 
region.
    But I do think universality is important, and I say that 
not just because it is nice to have a U.S. flag in every 
country, but I think people need to think of embassies to a 
great extent as aircraft carriers or platforms which carry on 
them and within them a number of other activities beyond just 
diplomatic activities, our commercial services, economic 
ability to deal with the problems of terrorists, a whole host 
of issues, and therefore there are many reasons for 
universality.
    But I can assure you that as we look at rebuilding 
embassies we will be looking at ways to make some of them 
regionally more capable.
    Senator Biden. Thank you very much, and thank you, Mr. 
Chairman.
    The Chairman. Senator Hagel.
    Senator Hagel. Thank you, Madam Secretary. Welcome, and 
thank you for the good work you are doing for our country.
    I want to ask a couple of questions regarding Kosovo. In 
light of the fact that we have allowed two deadlines to pass 
without moving forward on NATO air strikes on Yugoslavia, the 
first part of the question is, do you think that will affect 
NATO and U.S. credibility in that part of the world?
    Secretary Albright. No, I do not. I think that the talks 
themselves were very productive and useful in getting parties 
together, and I think that we have to remember that the 
deadlines, while passed, certainly focused people's minds at 
the time, and NATO credibility depends on the ability to carry 
through when necessary.
    What I am saying now is that that threat still exists. I 
think if you remember the scenarios, if there was a clear yes 
from the Albanians and a clear no from the Serbs, that is what 
brought the bombing. There was not a clear yes from the 
Albanians. They want to go back, and they did what one might 
say initialed the agreement, and they want to go back for a 
couple of weeks and get the support of their people.
    You know, interestingly enough, they are trying to develop 
a democracy. As far as the Serbs are concerned they just need 
one phone call to the leader to decide how they would respond.
    We also still have another NATO factor effective, which is 
that if the Serbs do not comply with the agreements of October, 
which is to cut down the numbers of the military forces and 
their special police in Kosovo, then they are subject to NATO 
strikes in that regard also. I had a discussion with Secretary-
General Solana on that subject, and he is watching it very 
carefully, and we are doing all the warning, as did all the 
NATO contact group members yesterday.
    Senator Hagel. There appears to be, at least according to 
the news reports, a rather significant buildup of forces along 
the borders of Yugoslavian, Serbian forces. What is the 
trigger? What is the threshold that we are using in order to 
determine whether we will attack Serbian forces, that is, 
Milosevic's forces?
    Secretary Albright. Well, we have issued various warnings. 
Secretary-General Solana I believe did again yesterday, and I 
believe will do so again.
    Basically, it is a matter of what we are seeing on the 
ground and what they are doing there under warning right now. I 
cannot tell you specifically. I do not think it is appropriate, 
what the specific thing is, but they are very much under 
warning right now that they are not to use those forces 
offensively. And, they are supposed to be drawing back to the 
agreement that they made in October.
    Senator Hagel. Is there any sense on your part why they 
have moved forward that kind of heavy armor, or heavy 
artillery, troop concentration, if they are at all serious 
about coming to an agreement?
    Secretary Albright. My reading of this would be that they 
are getting ready for a spring offensive of some kind here, and 
we are going to work very hard to make it clear to them that 
that would be a grave mistake.
    Interestingly enough, Senator, during these discussions 
they did begin to engage somewhat on the political part of the 
agreement, and the progress that was made was, as you know, 
they stripped Kosovo of its autonomy in 1989. Through their 
response to the negotiators yesterday they in effect admitted 
again that Kosovo could be independent. They just did not add 
the fact that it could have democratic institutions, but they 
did begin to engage on that. They engaged not at all on the 
military part of the document, which would allow there to be a 
peaceful invited implementation force and therefore I think, 
while they are engaged in some part of the discussion, they 
have not yet given up their ideas about their spring action, 
and our goal in the next 2 weeks is to make sure that they 
change their way of looking at this.
    It is not easy, I have to tell you. This is a very tough 
negotiation, and we have to keep pushing back.
    Senator Hagel. Madam Secretary, I have not a minute but 
seconds left. I would go back to something you said that I 
think is critically important, and that is, you said in essence 
that this is a classic example of why we cannot lose sight of 
American leadership, and when we defer the tough decisions we 
only complicate matters.
    I would say first of all that I agree with that completely, 
and if we are to accomplish the hope and opportunity and 
potential of the world, which I think we can, it is going to 
require American leadership.
    But on Kosovo we all recall what President Bush said in 
December 1992 in the strong warning, and what Margaret Thatcher 
said early on, before we had the slaughter in Bosnia. Senator 
Dole has talked about Kosovo for a number of years, and I only 
bring that out because you have inherited a mess. You are 
sorting it out as best you can.
    But for the record and for this hearing I think it is very 
important, and it goes back to what Senator Biden said. We are 
going to have a very significant debate in this country, and we 
should, over the next year and a half, about what is the 
appropriate role of America and the world, what kind of 
leadership should we provide.
    This again points up to how dangerous the world is, and 
uncertain it is, especially when we do not have American 
leadership.
    Thank you.
    Secretary Albright. Could I just make a point here? I think 
if we go forward with an implementation force, I think we will 
have managed what I would hope suits most of the people in the 
Congress that are concerned about whether we are leading, how 
much we are leading, and are we doing everybody else's work. 
Because what we will have done is to have a NATO-led force, 
that is, with American SACEUR General Clark in charge of it, a 
force of around 28,000, with an American force which is under 
4,000, which in effect lets the Europeans do the lion's share 
of the work, but we continue to have a leadership role. I think 
this is just the right balance of us being a part of the system 
not letting down the credibility of NATO and not letting down 
the credibility of our leadership in NATO.
    There are those who think we do not let anybody do 
anything, and there are those who think we do everything, and a 
line that I think kind of suits this is, if we wanted to be 
Rambo, I would not have gone to Rambouillet, and I think that 
we are capable of having the leadership role but have others do 
it with us, and if we go forward on this plan I think we have 
managed that balance very well.
    Senator Hagel. Thank you. Thank you, Mr. Chairman.
    The Chairman. Senator Dodd.
    Senator Dodd. Thank you very much, Mr. Chairman. Madam 
Secretary, welcome. I am once again impressed by your level of 
energy, knowing the travel schedule that you have kept in the 
last several days, and to be here this morning addressing as 
forcefully as you have the issues that are before us.
    There are a number of issues here, and I am just going to 
run down a couple of them very quickly, and then we will give 
you a chance to respond.
    Just as a personal note, I want to commend the Department 
of State on how it is working with this Y2K issue, the year 
2000 issue. Senator Bennett of Utah and I chair the committee, 
and are watching very carefully how various agencies are 
responding and the Department of State according to the General 
Accounting Office, Mr. Chairman, is one of the better agencies 
in terms of its own computer systems and so forth. It has one 
of the more difficult jobs, because worldwide it is not a good 
story outside of the borders of this country, but I wanted to 
begin on that note.
    Madam Secretary, the supplemental that is coming up for the 
victims of Hurricanes Mitch and Georges in Central American and 
the Caribbean, February 16 is awfully late to get that 
supplemental. I do not know what the administration's plans on 
this area, whether you want to tie it to the Jordanian 
supplemental or not, but the President is planning I think 
sometime shortly to be going down to the area, and whether or 
not Congress is going to move on this is an important question.
    Second, with regard to Cuba, and my good friend the 
chairman and I have had our disagreements over the year on how 
to address this issue. I have had an opportunity to express 
myself to the Secretary and others about this. I just express 
here, 24 of us, including Senator Grams and Senator Warner and 
others, really without any effort at all, recommended the 
establishment of a commission, much as we did on Central 
America, to examine the issues of the Cuban-United States 
relationship. That suggestion was rejected.
    I am not, certainly, pleased with the Cuban reaction to the 
decision earlier with regard to several steps we took or tried 
to take back 4 or 5 weeks ago, but I just hope at some point 
here--we have 11 million people less than 100 miles off our 
shore, and we had better start talking about how we are going 
to transition that.
    I do not want to dwell on that in 5 minutes here today, but 
would just say that there is a growing number of us up here, 
not on one side of the aisle or the other, who would like to 
see some new thinking about how we address these issues.
    That is not in any way to be perceived, I hope it is not, 
as trying to do any favors for Mr. Castro, but it is how we 
watch out for our own interests in this hemisphere, so I just 
want to suggest that there is more than one point of view on 
this issue up here, and it needs to be brought into some 
consideration.
    I am pleased with your answer on the embassy issue. I think 
creating large embassies regionally become a target of 
opportunity as well as the issue you have raised of 
universality, which I think is important, and let me hope that 
the Agency and the Department will watch very carefully.
    In Central America, for instance in certain embassies back 
in the 1980's, some of the steps that were made for security 
purposes were mind-boggling, one wall that cost over $1 
million, $1 million to build a wall, and I hope as we look at 
this issue, legitimate issue of protecting American personnel 
and protecting our people in these embassies and residencies 
around the world, this does not become a spending boondoggle 
for people out there. It can happen if we are not careful.
    We want to make sure our people are secure. We also do not 
want to see people take advantage of a legitimate opportunity 
and be abusive in terms of how dollars are spent.
    Mexico decertification is a critical issue coming up here 
very quickly. I know my colleague from California has some 
thoughts and ideas about this that are very important.
    Last, on sanctions, we have imposed sanctions now 70 times 
in the last 6 years. Most of them, a lot of them are universal 
sanctions. Senator Hagel, myself and others, and Senator Grams 
have tried to come up with some different ways on how we can 
address this issue.
    This ham-stringing the President, it ham-strings you, Madam 
Secretary. It has become the option of choice up here every 
time a country does something we rightly disapprove of. We have 
got to have a better response than just imposing sanctions. I 
think it is hurting our ability to conduct foreign policy. Too 
often it targets the wrong people, not the policy centers, and 
it constrains our ability to act with some flexibility in an 
ever-changing world, so I would hope we might get some 
additional indications of support on that issue.
    I apologize for jumping around here on you, but when you 
have 5 minutes you have got to try to get in what you can, Mr. 
Chairman.
    The Chairman. Very good. Senator Grams.
    Senator Grams. Thank you very much, Mr. Chairman and Madam 
Secretary for taking the time to be here.
    I would like to followup on an important security issue 
that the chairman raised, and that was the issue of collocating 
U.S. Government entities within chancery compounds. It just 
caught our attention because after the August terrorist 
bombings AID headquarters decided not to move their missions in 
Kenya and Tanzania into the more secure embassy compounds that 
are going to be built.
    Now, this was in opposition to State Department guidelines 
which stated--I will quote--``all U.S. Government offices and 
activities subject to the authority of the chief of mission are 
required to be collocated in chancery office buildings or on 
the chancery consulate compound.''
    After hearing from us and listening to U.S. officials in 
both Kenya and Tanzania, AID reversed itself; Madam Secretary, 
I would like to hear from you about this now that the 
Administrator reports to you and is under your direct authority 
and foreign policy guidance, pursuant to the Foreign Affairs 
Reform and Restructuring Act. First, can we agree that when the 
issue of collocation comes up, no exception to the above-
mentioned guidelines will be made unless it can be 
demonstrated, of course, that it would be in the best U.S. 
interest to leave our people in higher-risk situations?
    Secretary Albright. Senator, let me just say that as far as 
I know, what was happening in Kenya is that I think they were 
having a hard time finding a place where they could all be 
together. And some of it had to do with their decision on the 
ground about sufficient security.
    As far as I am concerned, I think that it is very important 
as a policy matter to be collocated, and that there needs to be 
some demonstrable reason for not doing so. It is my hope that 
as we go into this whole, finally reworking the reorganization 
of the State Department, that the purpose for it is for us to 
have a comprehensive policy which allows us all to work 
together, and proximity does help in that regard, aside from 
security reasons.
    If I might make a point, and it goes back to something 
Senator Dodd said about security. I think that none of us can 
ever feel that we have done enough in terms of protecting our 
personnel, and I think we are all working on it very hard. It 
is something that lends itself easily to finger-pointing and 
blame-placing. Everyone is saying that they would have done 
more, or it requires more money. There is never enough money, 
and ultimately I have to say there is no such thing as perfect 
security.
    The thing about which I would like to assure all of you, as 
well as the American people, is that we are doing everything we 
can within the resources that are available and pushing for 
additional resources to provide security for our personnel. But 
a final point is, it does not do us any good to have totally 
secure buildings with nobody inside them and no money to carry 
on programs, so we have to find the right balance while always 
thinking about the security. At the same time, however, being 
able to do America's business abroad is what we are working on 
right now.
    Senator Grams. I agree with you on that, but going back to 
the collocation question, too, if you would.
    Secretary Albright. I would say that we want to have them 
collocated, and we would need to have a good reason why that 
policy is not being carried out.
    Senator Grams. Would it make sense to modify the current 
procedures so that the Secretary would sign off on any 
diplomatic security decisions, or the decision to grant any 
waivers?
    Secretary Albright. Let me check on what the right 
bureaucratic procedure would be on it.
    Senator Grams. Also, Madam Secretary, given that this is 
the first budget request which reflects the ACDA and the USIA 
that are going to be folded now into the State Department, I 
would like to know whether this consolidation to date has 
resulted in any budget savings in the fiscal 2000 year 
submission.
    Secretary Albright. It is my understanding, Senator, and as 
I said even when I was testifying about reorganization, it is 
not possible for us to have any short-term savings on this. We 
said then that would not be possible because it requires us to 
move people, get computers integrated, and a variety of other 
steps in order to really have this happen.
    While I think that one of the desires for the 
reorganization was money-saving, in my discussions with the 
chairman and with all of you I think we had an even larger 
goal. That was to have a rational foreign policy, to try not to 
have duplication, and to try to make sure that both the 
proliferation issues and the development issues became central 
to American foreign policy. So cost-saving up front right now 
is not something that I can tell you is taking place.
    Senator Grams. Do you expect some though in the future?
    Secretary Albright. Yes, we do in the future, absolutely. 
However, at this moment you can imagine that as we are trying 
to collocate people, trying to get computers in place that are 
Y2K functional, and also trying to integrate, it is very hard 
to point up short-term savings.
    Senator Grams. Thank you. Thank you, Mr. Chairman.
    The Chairman. Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman, and thank you, 
Madam Secretary, especially for the tremendous efforts you are 
making with regard to Kosovo.
    I do want to turn now to Nigeria, to the situation there. 
For years, many of us have been concerned about the human 
rights situation, and we have introduced various pieces of 
legislation in that regard. Of course, this weekend Nigeria 
will elect a civilian President who is scheduled to take office 
in May, so it has elements of hope and, as you indicated, we 
are always looking for success stories in Africa, and none 
could be more important than Nigeria.
    But at the same time, I hope the administration continues 
to calibrate and pace any direct assistance, particularly plans 
to work with the military, until we can be actually assured 
that the old habits of the past are really gone. It is so 
tempting to look at each positive step in Nigeria and think 
that everything is going to be all right, but I hope we are 
careful about that.
    In that light, if all goes well, what are the 
administration's plans for Nigeria after the transition to 
civilian rule? A second part is, what is your analysis of 
recent violent disturbances in the oil-producing regions and 
the Nigerian Government's response to that?
    Secretary Albright. Well, first of all let me say that we 
have been looking generally about how to support democracy 
where we can, and as we look out at the next 2 years we are 
hoping very much that it will be possible to take certain 
countries that are on the verge of really crossing over the 
line to see if we can make sure that they really get there. 
Nigeria is obviously one of the countries that we are hopeful 
about, and the elections that are approaching are clearly part 
of what we are looking at.
    With regard to your concerns, Senator, we have tried very 
hard to do what we can to make sure that the elections are free 
and fair and that there are a number of NGO's and organizations 
that have gone in there as monitoring.
    We will also have a congressional delegation going to 
observe the elections on February 27. We are going to be 
working further in terms of supporting various democratic 
institutions, trying to ensure civilian control over the 
military, advancing a variety of institutions, an independent 
judiciary, et cetera, that we consider the building blocks of a 
functional democracy.
    We are concerned, as we have been for some time, about the 
fact that Nigeria, a huge country, has a variety of ethnic 
groups within it. It is actually a very rich country, and 
looking at how the oil revenues are dispersed and how they are 
used is part of the issue, so I can just tell you that I have 
decided that we need to have a whole country approach to 
Nigeria in looking at how it deals with its environmental 
problems, its oil problems, its narcotics issue, helping to 
develop the domestic functioning democratic institutions, and 
controling the military. It is one of our target countries in 
terms of trying to bring it over the line.
    Senator Feingold. Thank you. I would just add the obvious 
point, the tremendous impact that Nigeria has on other 
conflicts in the area such as Sierra Leone, Liberia and others. 
It is such an essential country.
    The other country situation I would like to ask you about 
is another occasion for cautious optimism. It is East Timor. 
Many of us on this committee and in the Senate have for years 
advocated for the rights of the people of East Timor, and there 
are some hopeful signs. I am encouraged that the Government of 
Indonesia has seen fit to move Sunamma Guzmal from prison to 
house arrest, which I interpret as a gesture of goodwill, but 
the situation is very complex, and there is violence on the 
island.
    You mention that you are going to Asia next week. I urge 
you to continue your efforts to call for the release of 
political prisoners, and the withdrawal of troops from East 
Timor in order to help during this transition period, and the 
question I would like to ask you is what you see happening with 
regard to the United Nations role during a transition period.
    It will probably be crucial to have an international 
presence in East Timor during such a period of transition to 
whatever form of self-determination may occur. Would the United 
States support a monitoring or a peacekeeping operation in East 
Timor?
    Secretary Albright. If I could just go back to one thing on 
Nigeria and your point about it helping in other areas, they 
have been very important, first in Liberia and now in Sierra 
Leone, and we have been trying to support ECOMOG, which is the 
overall organization that does that, and Nigeria, even in its 
worst days, actually, was very helpful in terms of its support 
in trying to deal with peacekeeping matters.
    Indonesia I have to tell you is another one of the 
countries that I have targeted for trying to move over the 
line. They are going to have elections. They have undertaken 
some significant reforms, although not enough, and I will be 
going to Indonesia on this trip after I leave China.
    The East Timor developments are truly fascinating, and I 
think are very hopeful. We are supporting the U.N. action 
there, and the U.N. Special Representative there is looking at 
a variety of ways for us to be able to help move that forward. 
I will be discussing the issue actually today again with 
Secretary-General Kofi Annan, and I think we need to figure out 
what the most supportive thing is that the United States can 
do.
    There have been discussions about an international or U.N. 
presence. I do not think they have jelled yet, but we clearly 
do see what is happening there as an opportunity to deal with 
one of the most troublesome issues that has been out there for 
all of us.
    Senator Feingold. Thank you, Mr. Chairman.
    The Chairman. Senator Wellstone.
    Senator Wellstone. Mr. Chairman, I wonder if I could follow 
Senator Boxer. She has been sitting here the whole time, and I 
had a conflict, so I will follow her.
    The Chairman. By all means. Again, we welcome you to the 
committee and look forward to working with you.
    Senator Boxer. Thank you so much, Mr. Chairman, for your 
graciousness since I got onto the committee, the same with 
Senator Biden, and Senator Wellstone carries on that spirit, 
and I am very grateful, because I have a commitment coming up 
on the Brady bill that I have to go forward to.
    I want to say, Madam Secretary, how proud I am of the work 
you are doing. I have seen you look tired because there are 
reasons to. You need to get rest. You need to get rest.
    Senator Wellstone. I was going to say that, too.
    Senator Boxer. I know. Paul and I say you need to get rest.
    The Chairman. Well, I think you look pretty good myself.
    Senator Wellstone. You look wonderful, just exhausted.
    Senator Boxer. You look good and tired.
    I am going to go very quickly through, because some of the 
issues we have covered, and there are so many more issues we 
could not do justice to your portfolio.
    I wanted to quickly mention what Senator Dodd said. I am 
working on an alternative to the Mexican situation so that we 
do not have to choose between certification, basically, and 
decertification, and Mr. Chairman, I am looking forward to 
presenting that to you for your consideration, because I am 
excited that I have come up with some ideas on that, and we 
hope it will be bipartisan.
    I thought because I am the only woman on the committee I 
might take a different tack to my questions, so let me speak 
quickly and leave enough time for you to comment. At least one 
woman dies every minute from causes related to pregnancy and 
childbirth, and in developing countries maternal mortality is 
the leading cause of death for women of reproductive age.
    These are terrible trends, and I know we are all trying to 
bring our own background to solve this, but in the 
congressional fog we have been in for about 6 weeks there was a 
very important Hague forum, and the Hague forum, without going 
into details, pointed out that developed countries are not 
doing enough to financially help with family planning and child 
and maternal health, and they said, it is interesting, 
developing countries are doing more than we are doing in 
proportion to our ability to help.
    Now, this administration has taken a step in the right 
direction. We have $25 million in your budget for the U.N. 
population fund, and I know it is very controversial, but yet 
we have to talk about these issues.
    The UNFPA operates in more than 140 countries, and one of 
your Under Secretaries in a speech, it was Under Secretary Loy, 
said that just last year's contribution would have prevented 
the deaths of 1,200 mothers and 22,000 babies, as well as would 
have prevented 200,000 abortions, because family planning, when 
done right, stops the unwanted pregnancy and women do not have 
to go seek abortions, so I wanted to let you know I support 
this, and I would like to get your view as to whether you 
subscribe to those numbers.
    Another issue of great concern is the Taliban's treatment 
of women in Afghanistan. Anyone who has seen the burka, what 
they have to wear--and Mr. Chairman, I have one I want to show 
you, what women are forced to wear living under Taliban rule. 
They are not allowed to go to school. They are not allowed to 
go to work. If women are seen in public with as much as a bare 
ankle, they are beaten by the police, and we have to continue 
to denounce this. I wanted to ask, I know you have already done 
some, do you have plans to talk about this more?
    In a related issue, I wanted to express my support for the 
convention to eliminate all forms of discrimination against 
women. This is a very important treaty. It would set 
international standards regarding discrimination on the basis 
of gender. It would establish rights for women, and we were an 
active participant in drafting the convention. President Carter 
signed it 1980.
    Twenty years later, 162 nations have ratified the 
convention. We have not, and I know that we did make a push. We 
could not get it done for reasons that have to do with what I 
consider to be ancillary issues. I was going to ask if you 
would speak about that.
    So if you could comment on that estimate that 22,500 
infants lives would have been saved if we had made that 
contribution to UNFPA, 1,200 mothers, also, are you still 
committed to this convention to eliminate all forms of 
discrimination, and could you speak a minute about the Taliban?
    Secretary Albright. Yes. Thank you very much, Senator 
Boxer, and I cannot tell you how pleased I am to have you on 
this committee. It is going to be a pleasure to work with you.
    First of all, as in 1999, the President has again requested 
$25 million for family planning, and I think that is, given all 
the various priorities that we have, a sign of our really 
strong commitment to population and reproductive health 
programs.
    I do not have the exact numbers, but I am sure those are 
correct. I had met with a number of the NGO's before they were 
going over to the Hague, and we discussed these kinds of issues 
and the fact that there are so many problems caused when women 
are not allowed to have access to information.
    I think there is such a misunderstanding about something, 
and I think it needs to be stated flat out. U.N. family 
planning programs do not fund abortion services. I think people 
get this all confused. There is a difference between family 
planning and funding abortions and, categorically, the United 
States does not fund abortions, and the majority of activities 
support maternal and child health care programs, including the 
provision of voluntary family planning.
    And I think also something that should be noted, the U.N. 
family planning funding supports programs aimed at the spread 
of HIV/AIDS, and trying to prevent that. I think if you look at 
the maps of how that is spreading, I think that is something 
that is very important, and enhancing the status of women.
    Senator Boxer. Maybe just a yes answer, because my time is 
up. Will you speak out on the Taliban, and do you still support 
the convention against discrimination?
    Secretary Albright. Well, first of all on the Taliban, of 
course, and I visited with women before, and I do everything I 
can. And Mr. Chairman, the Convention on the Status of Women is 
something that is so important to all of us.
    I speak very often on our support for that. Our desire for 
support for that always gets an applause line. It is very 
important to the women of the United States, and I do hope 
very, very much that we can move this. I think it would be a 
tribute to the work that we do together if we could move this. 
I would be very grateful.
    The Chairman. Very well. Now, I would say to you two ladies 
that even the Iranians describe the Taliban as medieval, so it 
is pretty universal that people hold their noses about it, but 
thank you, ma'am. I welcome you to the committee.
    Last but not least at any time, the Senator from Minnesota.
    Senator Wellstone. Thank you, Mr. Chairman, and I apologize 
profusely. Something I have been working on for a year, Madam 
Secretary, came up with a press conference. It had to do with 
kids and mental health, and that is where I was.
    Let me thank you for your heroic work. You have really been 
at it, and I will be hoping and pulling for you and the people 
of Kosovo and for all of us. Thank you very much for what you 
are trying to do.
    Madam Secretary, this question will not surprise you. We 
are probably going to have a freestanding resolution, thanks to 
the support of the chairman today, which basically says it is 
the sense of the Senate that at the 55th session of the United 
Nations Human Rights Commission in Geneva, Switzerland, the 
United States should introduce and make all necessary efforts 
to pass a resolution criticizing the People's Republic of China 
for its human rights abuses in China and Tibet, and I think we 
will probably get 96 votes. This is a bipartisan resolution.
    During your visit to China next week, do you intend to 
inform the Government that the United States is ready to 
sponsor a resolution on China at this U.N. Commission on Human 
Rights?
    Secretary Albright. Well, first of all, Senator Wellstone, 
I think you know my views on human rights in China, and I even 
went to their celebration of the 20th anniversary of 
normalization and told them how critical I was of their human 
rights. I do not think usually people are invited to a party 
and then do something like that.
    What we are doing, and I am very much aware of 
congressional expressions of support, we are now considering 
what our approach should be, which would be the most effective 
approach to try to get China's attention on this.
    I will be discussing human rights when I am in China. It is 
very much a part of my agenda, but we have not yet made a final 
decision about how we are going to deal with Geneva.
    Senator Wellstone. So we have not made a final commitment 
as to whether or not we will introduce this resolution. Have we 
made any commitment if the European Union by some chance does 
it that we would join in?
    Secretary Albright. Well, we are exactly at this moment 
consulting with our allies. Assistant Secretary Koh has been 
over there consulting, and I just cannot tell you at this 
moment what our strategy is going to be. I will get back to you 
on that.
    Senator Wellstone. Do you have any idea as to when the 
administration will make this decision? You know, we went 
through this last year. I do not think there have been 
improvements since the President's visit. If anything--and you 
have spoken out about that.
    Secretary Albright. Yes, I have.
    Senator Wellstone. I really believe, and I think the Senate 
believes and the Congress believes that our Government ought to 
be the leader here. We ought to respond to this resolution in 
Geneva. Do you know when it will happen?
    Secretary Albright. We have it under active consideration. 
It is a priority decision for the administration. I am just 
trying to collect all the information on it now.
    Senator Wellstone. Let me just switch and say to you that I 
appreciate your response, for I was hoping you would say yes, I 
am going to go there, I am going to inform them, we are going 
to do this. Please let us know as soon as you have made a 
decision.
    Secretary Albright. I will.
    Senator Wellstone. I really hope that our Government will 
take the lead. I think it is long past the time to do so.
    Could I ask you real quickly, this is another area that is 
certainly near and dear to my heart. This is the country that 
my father lived in before he fled persecution. For a quick 
briefing on your part--maybe you have done it in response to 
other questions about relations with Russia. I have the sense 
that we have seen some strains, and I am trying to figure out 
how we repair this. Could you give us just a quick overview?
    Secretary Albright. Strobe Talbott is there right now, and 
I was there 3 weeks before. I think we do have some very 
serious strains at the moment, and they have to do with some 
disagreements that we have about how to handle regional issues, 
one specifically now Kosovo, and we have some questions about 
Iraq.
    At the same time, we are very concerned about their 
economic situation and how we can help them help themselves. 
Part of the problem is that they are having trouble helping 
themselves. They have now passed a budget. I think that will 
help us in the IMF to be able to give greater assistance.
    What we are concerned about also, as I mentioned in my 
testimony, is the fact that it, as an economy, does not do 
well, and they have a great many things out there that can be 
sold that do not help our proliferation policy, and a great 
many scientists who are unemployed.
    The President's threat reduction proposal is one that I 
think does two goods. It helps to transfer some hard currency 
into the Russian system, but in a way that makes sure that it 
goes to the right people so that some of these scientists are 
employed, that the materials are not sold.
    I do think, Senator, that we are yet again at a tense time 
with the Russians, but both Prime Minister Primakov and Prime 
Minister Ivanov and I in our discussions understand the 
importance of the overall Russian-United States relationship, 
and the importance of keeping it on an even keel as we deal 
with the START and ABM and various issues, that while we may 
disagree on certain elements, that we understand the importance 
of keeping the relationship going in a positive way.
    I can assure you we will work on this, as we do consider 
that a key element of our foreign policy.
    Senator Wellstone. Thank you, Madam Secretary. Thank you, 
Mr. Chairman.
    The Chairman. Madam Secretary, I had hoped that I could 
fulfill my commitment to get you out of here at 12:30, but you 
have provided so much information for the members, and 
everybody is interested.
    For the record, before I recognize Senator Grams, the 
record will be kept open for 5 days, and also Senator Lugar and 
others who wanted to be here are presiding over subcommittees 
and could not be here, so that means that you may be receiving 
some written questions to which you can give written answers.
    I thank you so much for coming. It is always a pleasure to 
see you. I do not know when number 15 will come up, but I hope 
it comes up soon.
    Before you leave, Senator Grams wants to ask you one more 
question.
    Senator Grams. Three short ones. We will get this done 
within an hour. We will wrap this up.
    Just briefly, Madam Secretary, I could not leave without 
asking you some questions about the United Nations. Madam 
Secretary, it appears that there is a lack of focus on our part 
at the U.N. at this time. Why didn't the United States support 
the U.N. budget outline for the year 2000-2001 biennium?
    Secretary Albright. Well, first of all I think that they 
are in a very preliminary part of the U.N. budget 
considerations, and we will continue to be as tough as we have 
been in terms of trying to keep the U.N. budget within the 
basic caps. We are working and will continue to work on that.
    Senator Grams. But that is when we should really have a 
loud voice in the preliminary part. Why didn't the U.S. 
decision, again, to disassociate, which is basically voting 
present and not taking leadership there--invoke the Kassebaum-
Solomon condition, which requires withholding if there is not a 
consensus budget at the United Nations? Even though it is in 
the preliminary stages of the U.N. budget process, doesn't that 
vote just go against our position?
    Secretary Albright. Well, first of all, the United States 
and Japan made clear our opposition to the budget outline, 
which was a preliminary step for the 2000-2001 biennium, which 
exceeds the current budget level.
    But as I said, this is a first step in the process. We have 
made our position clear. The outcome is ultimately going to be 
determined at the General Assembly in December, and the U.N. 
has made clear that additional savings could reduce that 
number.
    As I mentioned, I am going to have lunch today with Kofi 
Annan, and we will talk about this again, because this is 
something that is obviously of great importance to us, but I 
have to say it is a little hard to keep threatening what we are 
not going to do or do if we do not give them any money in the 
first place.
    Senator Grams. We passed that bill, you know.
    Secretary Albright. I know, but I am just saying that this 
is the problem.
    Senator Grams. It did not make it through the White House.
    One final thing, Madam Secretary. What is the status of the 
U.N. Secretary-General's reform proposals to establish a sunset 
mechanism for all new U.N. programs?
    Secretary Albright. I think he is working on it. Again, 
this is one of the questions that I have planned for him this 
afternoon.
    Senator Grams. Thank you. Madam Secretary, I also have some 
other questions that I would like to submit in writing. Mr. 
Chairman, if I could do so. I appreciate your time.
    The Chairman. Very well. Thank you again, and there being 
no further business before the committee, we stand in recess.
    Secretary Albright. Thank you very much, Mr. Chairman, for 
everything.
    The Chairman. It has been a pleasure to have you here.
    [Whereupon, at 12:41 p.m., the committee adjourned.]

 Responses to Additional Questions Submitted to Secretary Albright by 
                        Members of the Committee

                  Questions Submitted by Senator Helms

                 u.s. support for unfpa's china program
    Question. In light of AID Administrator, Brian Atwood's, pledge in 
a September 10, 1995 letter to me that, ``. . . if there are not 
significant improvements in China's population program, the United 
States will not support continued UNFPA assistance to China beyond 1995 
when the current program ends,'' and given the fact that decisions to 
start or renew UNFPA programs are made by consensus by UNFPA's board 
(thereby allowing the U.S. to single handedly veto any proposal)--as 
well as the fact that there are no ``significant improvements'' in 
China's one child per family population control program--why then did 
the Administration choose to renege on the above-mentioned pledge and 
actively support UNFPA's proposal for a new program in China at the 
January 19, 1998 UNFPA Board meeting?
    Answer. Official Chinese policy opposes coercion in family 
planning. However, Chinese programs have included numerical targets or 
quotas for family planning staff which can create pressure that can 
lead to abuses.
    Removing targets and quotas at the family planning service provider 
level should help reduce such pressure and encourage non-coercive 
behavior by officials and service providers. This is what China agreed 
to do in the 32 counties participating in the UNFPA program.
    We believe that this is an important step by the Chinese. It is a 
new feature of UNFPA operations in China, which took two years to 
negotiate and, as such, marks a significant improvement in Chinese 
policy.
    I should clarify that the U.S. did not ``actively support'' the 
proposed China program in January 1998. We stated very clearly our 
continued concerns regarding UNFPA assistance to China. Every other 
Board member supported the program and, given its significant merits, 
we did not oppose consensus.
            administration decision on unfpa's china program
    Question. Why did the Administration choose not to consult with the 
Chairman of the Foreign Relations Committee or, to my knowledge, any 
other member of the Foreign Relations Committee before the decision 
(notified to Congress on February 13, 1998) to renege on the above-
mentioned promise?
    Answer. We endeavor to have periodic informal discussions with 
Congressional contacts on China and other issues of interest, and to 
consult more formally with Members when needed.
    As noted in my response to your earlier question, we followed USAID 
Administrator Atwood's pledge not to support UNFPA assistance to China 
in the absence of significant improvement in China's population 
program.
    As our February 13 letter noted, the UNFPA program reflects the 
principles of voluntarism and non-coercion which we and the 
international community have been asking China to adopt, and begins to 
address many of the concerns we have about China's family planning 
policy.
                       u.s. contribution to unfpa
    Question. If UNFPA is really interested in receiving $25,000,000 
from the United States, why cannot it simply terminate its $5,000,000 
program in China?
    Answer. UN agencies do not want to close down country programs that 
are fully consistent with agency mandates, that are needed, and that 
can be effective, in order to increase their revenues.
    As a multilateral organization, UNFPA's major interest is in 
meeting its mandate to help developing countries, at their request, to 
improve reproductive health care and to promote sustainable 
development.
    UNFPA negotiated with China for two years to develop a program 
which follows the principles, including voluntarism and non-coercion, 
that 180 nations agreed to at the 1994 International Conference on 
Population and Development (ICPD).
    An ICPD-consistent program to improve reproductive health care and 
promote sustainable development in a country with one-fifth of the 
world's population is a very significant effort for UNFPA.
    UNFPA's management, all other members of UNFPA's Executive Board, 
and this Administration believe that ICPD-consistent UNFPA programs are 
most needed in countries--and there are many--where reproductive rights 
and reproductive health services are deficient. That is where 
improvements can be made, and people can be helped.
               voluntary nature of unfpa's china program
    Question. UNFPA claims that its new $5,000,000 program in China is 
``voluntary'' (this is the basis for U.S. support). How can the United 
States be fully confident that it is truly ``voluntary'' and verify 
this in an oppressive, totalitarian regime such as Communist China?
    Answer. We can be reasonably sure of the voluntary nature of 
population activities in UNFPA program counties because of the high 
level of access and oversight afforded by UNFPA, the Chinese 
authorities, and our China mission.
    Program monitoring is an integral part of UNFPA's China program, 
and includes explicit Chinese agreement for external monitors.
    The State Family Planning Commission (SFPC) has invited UNFPA 
Executive Board members and representatives from their Congresses to 
visit and monitor the UNFPA program. We have begun talking with 
Congressional contacts, other Executive Board members, UNFPA management 
and our China mission about possible monitoring trips.
    For independent checks on local compliance with UNFPA's program 
requirements, last year the Department requested our Embassy and 
consulates in China to add monitoring visits to UNFPA program counties 
to their travel and reporting plans. We asked them to report on issues 
such as the presence/absence of birth quotas and targets, public 
awareness of quota/target policy changes, and other measures to enforce 
family planning policies.
    Our officers in China have attended SFPC meetings with program 
county officials, talked with family planning staff at various levels, 
and visited a number of program sites. Reports so far indicate that 
SFPC officials have been spreading the message in all UNFPA program 
counties that targets and quotas are not to be used.
    Our monitoring will continue throughout the four-year program 
cycle.
                  u.s. bilateral population assistance
    Question. To your knowledge, does any other single country in the 
world contribute more bilateral assistance to international population 
programs than does the United States?
    Answer. We can be proud that, in its bilateral population 
assistance, the U.S. has consistently been--as you suggest--the world's 
largest single donor. This reflects the recognition by one 
Administration after another that international population and 
development efforts are critical to human well-being, require long-term 
attention, and deserve continued U.S. support.
    That said, it is also true that bilateral U.S. population 
assistance has shrunk dramatically in recent years. It was reduced by 
Congress almost 30 percent in just two years, from fiscal 1995 to 
fiscal 1997, and has been completely flat since then.
    Furthermore, while the U.S. is the largest bilateral donor, we are 
far from the most generous in terms of our economic size and wealth. 
Proportionally, Denmark provides almost four and a half times more 
international population assistance than the U.S. ($371 per one million 
dollars of GNP in 1996, compared to $84 from the U.S.) Norway, the 
Netherlands, Sweden, Finland, the U.K., and Australia also provide 
proportionally more than we do.
                         government of honduras
    Question. As Congress is considering a multi-million dollar 
humanitarian relief package for Hurricane Mitch affected countries, the 
Government of Honduras has yet to pay (pursuant to a legal contract 
more than a year old) an American company, Advanced Navigation and 
Positioning Corp., for a Transponder Landing System for Toncontin 
Airport at Tegucigalpa. Inasmuch as this is a security concern for 
Americans traveling to Honduras, as Toncontin Airport is one of the 
most dangerous airports in the world in which to take off and land, 
will you recommend that the resolution of this case be placed on the 
agenda for the upcoming meeting between Presidents Clinton and Flores?
    Answer. The Department places a high priority on ensuring that U.S. 
investors abroad are treated fairly and that their rights are 
respected. We also convey to foreign governments the message that the 
existence of unresolved investment disputes against them may send 
foreign investors negative signals about the investment climate in 
their countries.
    Officials from our Embassy in Tegucigalpa have raised this matter 
with senior officials of the Honduran Government and have facilitated 
discussions between government officials and representatives of 
Advanced Navigation and Positioning Corp. in an effort to resolve the 
dispute.
    These discussions are ongoing and our Embassy in Tegucigalpa will 
continue to monitor their progress with interest.
           cambodia: fbi investigation of 1997 grenade attack
    Question. It has been nearly two years since the grenade attack in 
Cambodia which killed nearly 20 people and injured an American citizen, 
prompting an FBI investigation. At the time, many people suspected that 
Prime Minister Hun Sen's forces were involved. After two years, have 
you been able to make any kind of judgment as to whether forces close 
to Hun Sen were involved?
    Answer. The FBI's report on the grenade attack was delivered to 
Congress late last year. According to the report, all investigative 
leads are complete and the FBI has presented its findings to the 
Department of Justice for a prosecutive opinion.
    We understand that the Committee has discussed this report further 
with the FBI. We cannot comment on discussions to which we were not a 
party.
 pressure on cambodian government to solve 1997 grenade attack/hun sen 
                   claim that sam rainsy was involved
    Question. What kind of pressure are we bringing to bear on the Hun 
Sen regime to find the perpetrators of this crime? Do you give any 
credence to Hun Sen's claim that Sam Rainsy staged the attack on 
himself?
    Answer. Any questions on the current status of the FBI's 
investigation of this incident should be directed to the FBI. Any 
questions regarding responsibility for this crime should also be 
directed to the FBI, which stated in its report to Congress that it has 
presented its findings to the Department of Justice for a prosecutive 
opinion.
    Again, we understand that the Committee has discussed this report 
further with the FBI. We cannot comment on discussions to which we were 
not a party.
          denial of visa for cambodian general nhiek bun chhay
    Question. Last month your Assistant Secretary Stanley Roth made the 
decision to deny a visa to Cambodia General Nhiek Bun Chhay based upon 
the General's alleged connections with the Khmer Rouge. Given that most 
of the dominant CPP in the Cambodian Government, including Foreign 
Minister Hor Nam Hong, who visited the U.S. in October, are former 
Khmer Rouge, and that most everybody in Cambodia, including King 
Sihanouk, have in one way or another had contact with the Khmer Rouge, 
how can we justify singling out this one man?
    Answer. General Nhiek Bun Chhay applied for a visitor visa last 
December. He was found ineligible under U.S. law for a visa based on 
his coordination last year of military activity and active cooperation 
with the Khmer Rouge, a designated terrorist organization under U.S. 
law.
    The relevant section of the Immigration and Nationality Act 
(section 212) states that a visa cannot be issued to an individual who 
has engaged in: ``the providing of any type of material support . . . 
to any individual the actor knows or has reason to believe has 
committed or plans to commit a terrorist activity.''
    We have conducted a careful review of this case drawing on numerous 
sources in reaching a decision to refuse the visa.
                               engagement
    Question. Just recently, the Chinese Government initiated a 
draconian crackdown on dissidents, reportedly conducted military 
exercises that consisted of mock missile attacks on Taiwan, as well as 
on U.S. forces in Japan and South Korea. They have made additional 
aggressive moves in the Spratly Islands. Our trade and investment 
problems with China also seem to be growing. All of this despite the 
fact that last year we declined to sponsor the annual UN resolution on 
human rights in China, held a summit in July, and yielded to Beijing's 
``three no's'' on Taiwan. What benefits do you see for us and for the 
Chinese people in our policy of engagement with the Chinese Government? 
Why don't we seem to be getting more?
    Answer. Put simply, engagement is aimed at producing closer 
cooperation and concrete results that benefit U.S. interests. As the 
President noted in Guatemala, had we not engaged China, we would not 
have seen China accede to the CTBT and CWC, would not have seen 
restraint on transfers of sensitive materials and technologies to Iran 
and Pakistan, and would not have had close cooperation on the Korean 
peninsula and on nuclear proliferation in South Asia. Sharp differences 
do exist, particularly on human rights, and we do not hesitate to raise 
them frankly and directly. In this regard, engagement provides us a 
channel to communicate these concerns at all levels of the Chinese 
Government, even when it cannot always produce agreement.
    Moreover, not engaging is simply not an option. China's presence as 
a permanent member of the UN Security Council, remarkable economic 
achievements and potential markets, increasing diplomatic prominence 
and growing military strength, all mean that we must deal with China in 
order to protect significant U.S. interests in the Asia-Pacific region 
and around the world. Not to seek to influence China's actions that 
have a critical bearing on U.S. interests would be irresponsible.
                 un commission on human rights (unchr)
    Question. Will the U.S. support a UNCHR resolution on China this 
year?
    Answer. The United Nations Commission on Human Rights (UNCHR) in 
Geneva is an important multilateral mechanism for encouraging change in 
China. The Administration supports the Geneva process, and intends to 
participate vigorously in this year's Commission activities.
    I am aware of Congressional expressions of support in favor of a 
resolution, and assure you that your concerns are being considered 
seriously in our ongoing decision-making process.
    Last year, our Government did not sponsor a resolution because of 
positive steps the Chinese had taken, but made clear that we were 
keeping our options open for the future.
    At this time, we are consulting within the Administration and with 
our Allies about the specific actions we will undertake at Geneva and 
how best to promote human rights in China.
                      russian arms sales to china
    Question. I understand that China is to take first delivery of 
Russian destroyers equipped with the supersonic Sunburn missile by mid-
year. What are we doing to discourage this transfer?
    Answer. We monitor Russian military sales to China closely in order 
to assess their impact on the region and on U.S. strategic planning. 
Russian and U.S. arms transfers are a subject of regular bilateral 
discussion with Russia. We are aware of the contracts that China has 
signed to purchase Russian destroyers. We have made clear to the 
Russians our view that promoting regional stability should be an 
important consideration in arms transfer policy.
    No international treaty or understanding proscribes transfers to 
China of such arms, nor does U.S. law penalize conventional arms 
transfers by third countries to the PRC. Russia is a member of existing 
international regimes to control conventional arms transfers (e.g. the 
COCOM-successor Wassenaar arrangement, which monitors destabilizing 
arms accumulations). We expect that Russia will abide by its 
commitments.

    Question. What are we doing to prepare our forces and Taiwan's 
forces for this threat? Does this situation perhaps dictate that we 
rethink our refusal to sell submarines to Taiwan?
    Answer. The Administration remains firmly committed to fulfilling 
the security and arms transfers provisions of the Taiwan Relations Act 
(TRA). We will continue to assist Taiwan in meeting its legitimate 
defense needs in accordance with the TRA and the 1982 Joint Communique 
with the PRO.
    Consistent with our obligations under the TRA, we regularly consult 
with Taiwan on its defense requirements.
                            south china sea
    Question. Do we believe that the structures China is building on 
Mischief Reef are military in nature, or are they just fishing 
structures, as the Chinese claim? What are we doing to dissuade the 
Chinese from continuing their aggressive unilateral actions on Mischief 
Reef and the Spratly Islands in general? Are we prepared to assist the 
Philippine military upgrade its capabilities as a response to this 
situation?
    Answer. We believe the reinforced concrete ``castle-style'' 
structures constructed by the PRC on Mischief Reef have dual-use 
capability.
    The United States has repeatedly spoken out, both publicly and 
through diplomatic channels, against unilateral actions that increase 
tensions in the region and has called for all claimants to resolve 
their differences in a peaceful manner, consistent with international 
law. We have strongly denounced the use of force or the threat to use 
force to resolve the conflicting claims.
    We regularly remind claimants of their past statements on the South 
China Sea, including the December 1997 joint statement by China and 
ASEAN, which have indicated a willingness to resolve territorial 
disputes through peaceful means and in accordance with universally 
recognized international law, including the 1982 UN Convention on the 
Law of the Sea. We have urged all claimants to use all appropriate 
diplomatic channels to resolve the dispute. In this regard, we are 
pleased to see that China and the Philippines are scheduled to hold 
bilateral experts' meeting talks in Manila on confidence-building 
measures (CBMs) in the South China Sea.
    While the United States takes no position on the legal merits of 
competing claims to sovereignty in the area, we have made clear that 
maintaining peace and stability in the region and freedom of navigation 
are fundamental interests of ours. Unhindered navigation by all ships 
and aircraft in the South China Sea is essential for the peace and 
prosperity of the entire Asia Pacific region, including the United 
States. Construction activities by various claimants have raised 
tensions in the region and are not helpful to achieving a peaceful 
resolution of the competing claims; however, such activities to date 
have not hindered freedom of navigation.
    As we have repeatedly stated, the basis of our defense cooperation 
relationship with the Philippines is not linked to the current 
situation in the Spratlys/South China Sea. We seek to maintain a normal 
and appropriate security relationship with the Philippines.
    Ratification by the Philippines of the proposed Visiting Forces 
Agreement now before the Philippines Senate will help form the basis 
for strengthening our defense relationship by enabling us to resume 
ship visits to Philippine ports, to hold joint military training 
exercises, and to undertake other forms of military-to-military 
cooperation in order to enhance our overall security relationship.
                              taiwan & wto
    Question. Given that Taiwan is so far ahead of Beijing in its 
preparations for WTO membership and is nearing fulfillment of its 
requirements, are we prepared to launch a vigorous push for Taiwan's 
membership, ahead of Beijing if necessary?
    Answer. The Administration does not link the applications of China 
and Taiwan to the WTO. The Administration finalized its market access 
agreement with Taiwan in August 1998. We are now actively working with 
Taiwan to resolve outstanding multilateral issues.
    We have publicly expressed our support for Taiwan's accession on 
its own commercial merits. Final action, however, on Taiwan's 
application will require a consensus decision by the members of 
Taiwan's Working Party and a two-thirds majority vote of the WTO 
membership.
                 dprk: suspect underground construction
    Question. How long are we prepared to give North Korea to grant us 
access to the suspect underground site which we were informed of last 
summer? Why haven't we given them a deadline?
    Answer. Since last summer, the U.S. held four rounds of talks about 
the suspect underground construction at Kumchang-ni.
    In the fourth and latest round, the U.S. reached an agreement with 
the North Koreans on access to the suspect underground site at 
Kumchang-ni.
    Under the terms of the agreement, the first visit to the suspect 
site will be in mid-May, with follow-up visits continuing as long as 
our concerns about the site remain.
    During each visit, the U.S. team will have access to the entire 
site.
                 dprk: suspect underground construction
    Question. Is there any evidence that North Korea has attempted to 
sanitize the site?
    Answer. This question is best directed to the intelligence 
community.
    It is also a question that can be discussed in closed session only.
                      dprk: only one suspect site?
    Question. Is the site at Kumchang-ni the only suspect site in North 
Korea, or do we believe there are others?
    Answer. This question would be best directed to the intelligence 
community.
    It is also a question that can be discussed in closed session only.
    If the Administration were to receive information about another 
site which prompted serious suspicion about the DPRK's compliance with 
the Agreed Framework, we would raise the issue with the North Koreans 
and take appropriate steps.
                         dprk: agreed framework
    Question. Should North Korea continue to delay us access to its 
suspect sites, engage in proliferation, and conduct provocative actions 
such as its missile launch over Japan, how long are we prepared to 
continue subsidizing North Korea through the Agreed Framework.
    Answer. The U.S. does not subsidize North Korea through the Agreed 
Framework.
    The Agreed Framework requires the DPRK to freeze, and eventually 
dismantle, its nuclear-related facilities at Yongbyon and a 200MW 
reactor under construction at Taechon. Additionally, this freeze is 
monitored by the IAEA, which also has placed approximately 8000 spent 
fuel rods, or over 98 percent of the estimated total, under seal. In 
effect, this prevents the DPRK from using these facilities and nuclear 
material to acquire a nuclear weapons capability. This is in the U.S. 
security interest.
    In return, KEDO (the Korean Peninsula Energy Development 
Organization) is obligated to provide the DPRK with two proliferation-
resistant, light-water reactors (LWRs). Pending the completion of the 
first reactor, KEDO also provides heavy fuel oil (HFO) as an 
alternative energy source.
    This Administration has made absolutely clear to the DPRK that we 
saw its cooperation in resolving our concerns about the suspect 
underground construction at Kumchang-ni as essential to the survival of 
the Agreed Framework and to continued improvement in U.S.-DPRK 
relations.
    We were thus pleased to have reached March 16 an agreement with the 
North Koreans that--if implemented fully--addresses all of our concerns 
about both the current and future use of the site through multiple 
visits beginning in mid-May of this year.
    The North Korean missile program represents a different but related 
threat to regional and global stability.
    The U.S., along with our ROK and Japanese allies, continues to 
press North Korea to cease all development, testing, deployment and 
export of long-range missiles and related missile technology. We have 
made clear to Pyongyang, as have our allies, that any further long-
range missile tests would have very serious consequences for our 
relations with North Korea.
    The next round of missile talks with North Korea is scheduled for 
March 29.
                            iraqi opposition
    Question. Where are we on putting together a viable opposition to 
get rid of Saddam Hussein?
    Answer. We are working with groups inside Iraq, outside of Iraq, 
and neighboring states who share the common goal of wanting to work 
towards a new regime in Iraq, one that respects its own people and 
accepted norms of international behavior.
    The Secretary has named a senior foreign service officer, Frank 
Ricciardone, as the new Special Coordinator for the Transition of Iraq, 
and he took up his activities full-time on March 1.
    We are implementing the Iraq Liberation Act. In early February, the 
President formally designated seven opposition groups as eligible to 
receive assistance under the Act. We are intensifying our contacts with 
Iraqi groups and will consider how we can help them more effectively 
oppose Saddam's rule and help Iraqis to achieve the kind of government 
they deserve and desire.
    We are assisting the Iraqis in their efforts to restore Iraq to its 
rightful place in the region. We are funding INDICT in its 
international campaign to indict Iraqi war criminals. We are looking at 
ways to help Iraqis outside Iraq work more cooperatively, and we are 
also looking at ways we can help Iraqis inside Iraq, such as by 
providing election preparation assistance in advance of likely 
elections in northern Iraq later this year.
    We have made important progress in reconciling the Kurdish parties 
in northern Iraq. The Principal Deputy Assistant Secretary of the 
Bureau of Near Eastern Affairs traveled to the region in January to 
encourage them in their efforts to unify the regional government 
apparatus and to care more equitably for the needs of the people in the 
region.
    We are also looking at ways to provide assistance to:
          leadership confidence building seminars and organizational 
        meetings;
          Iraqis who will make their case before international 
        organizations such as UN agencies; and
          seminars that explore ``the day after'' and such topics as 
        constitutional modeling, debt restructuring and rebuilding a 
        health care network.
                          un/libya/pan am 103
    Question. The press is telling us that an agreement with Libya on 
releasing the two suspected bombers of Pan Am 103 is close. Apparently, 
Qadhafi is looking for assurances that once his two agents are in 
custody, nothing will be done to try and tie his regime to the bombing. 
Has Qadhafi received such assurances? Press accounts of Secretary 
General Annan's letter to Qadhafi on the matter lead me to believe that 
is a possibility. It has also been reported that UNSYG Annan sent 
another letter to Qadhafi last week. Was that letter coordinated with 
the U.S. Government? Did it contain further reassurances?
    Answer. On March 19 Colonel Qadhafi told visiting South African 
President Nelson Mandela that the PA 103 suspects would be transferred 
to Dutch custody for trial by April 6. Libya confirmed its pledge in a 
letter to the UNSYG. We welcome President Mandela's effort and now 
await action by Libya.
    In addressing Libya's requests for clarification, the SYG has 
consulted the U.S. and UK Governments--and, particularly in the initial 
phase, the Dutch Government--to ensure accuracy. His messages have 
conveyed the same points we and the UK have made publicly. There has 
been no negotiation.
    Regarding the trial, our proposal calls for a trial under Scottish 
law, with Scottish judges, in the Netherlands. It will be a criminal 
trial focusing on the suspects' guilt or innocence in the bombing of PA 
103. The prosecution will pursue the case just as would occur in any 
similar trial in Scotland. I cannot predict how such a trial might 
unfold. That is a matter for the court.
            pa outlawing of militant/terrorist organizations
    Question. Have all militant and/or terrorist organizations been 
outlawed by the PA as required by the Wye Memorandum?
    Answer. The Wye River Memorandum obligated the Palestinian side to 
``inform the U.S. fully of the actions it has taken to outlaw all 
organizations (or wings of organizations, as appropriate) of a 
military, terrorist or violent character . . .''.
    The Palestinians have provided to us a March 3, 1996 statement 
issued by the Palestinian Authority stating that a meeting of the 
Higher Palestinian National Security Council, chaired by Chairman 
Arafat, had decided to ban the activity of all paramilitary groups, 
including the armed wings of HAMAS and the Palestinian Islamic Jihad.
    We have some questions regarding the legal status of this 
statement. We are discussing this with the Palestinians.
    The Palestinian security services have been effective in taking 
action against those terrorist groups.
    We continue to press the PA to do everything possible to prevent 
terror and to cooperate fully with Israel in this effort.
                        lebanon: terrorism list?
    Question. Hezbollah, as well as several other terrorist groups, 
continue to operate on Lebanese soil. Why have you made no 
determination regarding Lebanon as a state sponsor of terrorism?
    Answer. We have no evidence that the Government of Lebanon itself 
is supporting acts of international terrorism.
    Hezbollah and some other terrorism groups operate from parts of 
Lebanon, such as the Bekaa Valley, that are not under effective 
Lebanese Government control.
    Some of these areas, particularly the Bekaa Valley, are under 
Syrian control. Indeed, that is among the reasons that Syria is on the 
list of state sponsors of terrorism.
                    india/pakistan--ctbt commitments
    Question. Both India and Pakistan have made commitments of some 
kind regarding signature of the CTBT. Have any reciprocal commitments 
regarding the lifting of sanctions been made by the Administration to 
India and Pakistan, implying that the lifting of sanctions could be 
contingent upon signing the CTBT?
    Answer. The Indian and Pakistani Prime Ministers both made 
conditional commitments in their speeches to the UN General Assembly 
last fall to adhere to the CTBT by September 1999. Since then, their 
governments have reiterated that it is their intention to do so. In the 
South Asian press, there have been suggestions that they may be 
considering signing the treaty before September. For example, 
Pakistan's Foreign Minister was quoted to that effect recently.
    Early, unconditional adherence to the CTBT has been among our 
highest near-term priorities in the talks which Deputy Secretary 
Talbott has conducted with his Indian and Pakistani counterparts.
    We have carefully crafted a staged approach to these negotiations, 
recognizing the importance to a successful outcome of acknowledging 
progressive steps by India and Pakistan toward the nonproliferation 
benchmarks.
    In recognition of progress up to that time, the President on 
December 1 exercised the waiver authority established by the Brownback 
Amendment in a limited, targeted way.
    The waivers, which expire on October 21, 1999, have permitted 
Export-Import Bank, Overseas Private Investment Corp., Trade 
Development Agency, and International Military Education and--Training 
programs to resume in India and Pakistan. Restrictions were also waived 
on lending by private U.S. banks in India and Pakistan.
    In light of Pakistan's dire economic straits, we also decided not 
to block International Financial Institution lending to that country to 
the extent necessary to support a one-time IMF rescue package.
    However, legislative prohibitions on military sales and financing, 
as well as on the export of military items and dual-use technology, 
remain in place, as do other policy measures.
    We believe the sanctions we now have in place are well targeted and 
properly focused.
    At the same time, we look forward in coming months to concrete 
steps by both India and Pakistan to meet the nonproliferation 
benchmarks that will make possible a reassessment of these sanctions.
    We have no intention of waiving additional Glenn sanctions against 
India or Pakistan, however, until they have taken additional 
significant, concrete steps to meet the nonproliferation benchmarks.
                        haiti: policy challenges
    Question. In Haiti, there seems to be little to show for 4 years of 
work and more than $3 billion spent since the U.S. intervened to return 
Aristide. There has been no Prime Minister or Cabinet in Haiti for 19 
months. The Parliament has been effectively dissolved, as your written 
testimony states. Local officials serve at the whim of President 
Preval. The privatization process is stalled. Political murders remain 
unsolved--and new murders have taken place. Drug trafficking is rampant 
and Haiti has been decertified. Despite this abysmal track record, the 
Administration plans to spend more than $100 million in Haiti in 
FY2000.
    How can you justify these expenditures given the current situation 
in Haiti.
    What is the Administration's ``exit strategy'' for Haiti?
    When can we expect to see the U.S. troops depart and ESF funding 
distributions adjusted to reflect other priorities in the Hemisphere.
    Answer. Haiti's 21 month political impasse has caused 
understandable frustration and impeded the flow of much needed 
international assistance. The political gridlock prevented elections 
last year that were needed to replace parliamentary and local officials 
whose terms, according to the 1995 Electoral Law, were to end in 
January. The dispute over whether these officials should continue in 
office has added another complex dimension to the crisis. On the 
positive side, President Preval and several parties have entered into 
an understanding that appears to lay the basis for a way forward. 
Pursuant to this understanding, the President has named a provisional 
electoral council that shows promise of being capable of organizing 
fair elections. For such elections to be credible and broadly 
inclusive, considerable international support will be needed. 
Consistent with U.S. law, we would expect to contribute to such 
support.
    As Haiti moves through and beyond its political impasse, we should 
not lose sight of what has been accomplished. The government in Haiti, 
held in check for many months by the stalemate, to date has only been 
able to complete one privatization and one telecommunications licensing 
agreement. Nonetheless, technical preparations for further 
privatizations has continued, and the President remains committed to 
seeing them through. While Haiti has not yet been able to take the 
actions needed for its long-term development, we should bear in mind 
that there is freedom of speech, association and commerce, and the 
human rights situation in the country has steadily improved. Illegal 
immigration, which surged to some 40,000 during the 1991-94 period of 
de facto military rule, is now greatly reduced. The police, with less 
than four years of experience, remains embryonic in capability. But it 
has won the respect of all sides for being apolitical--and it is 
clearly the best police or security force the country has had in recent 
memory. Its anti-drug efforts, largely dependent on U.S. assistance, 
have steadily improved over the past several months. A main reason that 
Haiti did not achieve full certification last year was the political 
impasse that prevented passage of effective anti-drug and money 
laundering legislation.
    Against this background, it is essential that neither the U.S. nor 
the international community lose the will to stay the course. 
Disengagement is not an option. We should not consider an ``exit 
strategy'' from support for democracy. We will need to continue to 
provide substantial assistance to Haiti for a long time. That said, we 
expect that the level of such assistance will decline as Haiti begins 
to take advantage of the quantities of international aid that is 
available.
    The U.S. Support Group has been engaged in mutually beneficial 
engineering and medical training projects since 1996. Consistent with 
our commitment to reduce and eventually withdraw our troops from Haiti, 
in August 1998 the President approved a modest reduction in force 
strength and in the frequency of engineering projects undertaken. For 
the time being, these mutually beneficial exercises are continuing.
                          haiti: u.s. approach
    Question. Current tactics are clearly not producing results. Don't 
you think it is time for the U.S. to try a new approach and ask the 
democracies of the OAS to step forward to address the political impasse 
in Haiti? If not, why not?
    Answer. Current tactics, in fact, are working in Haiti. On March 
16, President Preval formed a new Provisional Electoral Council (CEP), 
which appears to have significant political acceptance and has begun 
preparations for the delayed legislative and local elections. On March 
24, President Preval announced an interim government that was formed in 
consultation with five political parties.
    The OAS has played an active and visible role throughout Haiti's 
political crisis. OAS Secretary General Gaviria traveled to Port-au-
Prince January 28 at the height of tensions. The UN/OAS International 
Civilian Mission in Haiti (MICIVIH) continues its critical activities 
in support of human rights and democracy. MICIVIH Executive Director 
Cohin Granderson has been key in facilitating dialogue between 
President Preval and opposition political leaders. In the absence of a 
full legislature, MICIVIH monitors in the field have helped ensure the 
continued apolitical behavior of the Haitian National Police (HNP). We 
are concerned that the potential closure of MICIVIR would greatly 
reduce the influence of the OAS in promoting democracy and human rights 
in Haiti at a politically sensitive time.
    In addition, five OAS members--the U.S., Canada, Argentina, Chile, 
and Venezuela--participate in the UN Secretary General's ``Friends of 
Haiti,'' a forum we have worked with actively in coordinating 
international efforts to resolve the impasse and help Haiti move 
forward.
                          haiti: privatization
    Question. Has the Government of Haiti completed the privatization 
of three of the nine major public entities slated for privatization?
    Answer. The Government of Haiti has completed one of the three 
major public entities slated for privatization. The Haitian flour mill 
was legally transferred to a consortium of Continental Grain, Seaboard, 
and Unifinance, a Haitian bank, on May 22, 1998. The new company, under 
the name of Moulins d'Haiti, began operations in mid-November 1998 with 
approximately 250 employees.
    The GOH awarded the winning bid for the cement plant, another 
public entity, on December 19, 1997 to a European/Latin American 
consortium. (There were no U.S. bidders.) Because Article 12 of Haiti's 
modernization law stipulates that sales of government entities must be 
signed by the prime minister, the delay in the confirmation of a prime 
minister has delayed completion of the sale. GOH officials told us 
recently that as soon as Prime Minister Alexis forms an acceptable 
government, he will sign the transaction.
    Some of the other parastatals, especially the electricity company 
and the phone company, are more complicated and politically sensitive. 
The consulting firms preparing the bid documents for these two firms 
must also write a regulatory framework under which the firms will 
operate. While the Modernization Council has demonstrated a commitment 
to push ahead with the program, both domestic politics and the 
complicated nature of these two privatizations has retarded progress of 
the program.
    We, nevertheless, remain optimistic that privatizations will 
proceed when the competent authorities are in place.
                        haiti: migration issues
    Question. Has the Government of Haiti re-signed the bilateral 
Repatriation Agreement with the United States?
    Answer. The Haitian Government continues to enforce the terms of 
our bilateral Repatriation Agreement although it has not yet been 
resigned.

    Question. Has the Government of Haiti been cooperating with the 
United States in halting illegal emigration from Haiti?
    Answer. The Government of Haiti's cooperation in halting illegal 
emigration to the United States has been limited due to its lack of 
resources and personnel.

    Question. What contingency plans do you have for addressing refugee 
outflows should the Government of Haiti decide not to cooperate?
    Answer. INS is in charge of coordinating the USG's Caribbean mass 
migration contingency planning effort. Since 1995 INS has worked with 
the Coast Guard, the U.S. Southern Command, and FEMA to organize the 
USG response. Eighteen agencies now have roles in mass migration 
planning.
    The main objective of current contingency planning is to detain 
migrants away from U.S. shores so that processing may be done overseas. 
Migrants who are detained will be screened for fear of persecution 
before any are returned to their homeland. The decision as to which are 
returned will be based on country conditions at the time of the crisis. 
Yet, migrants often make it to U.S. shores, so domestic processing 
centers are necessary.
    The planning effort is guided by PDD 56, which grants the NSC 
authority to oversee Caribbean mass migration contingency operations 
during a crisis. The White House at the outset will identify funding 
requirements for mass migration operations, since costs incurred will 
exceed the budget of any single agency.
    There are three phases to the mass migration planning process. The 
first phase required INS to determine how to utilize its resources. 
This phase is now complete. The second phase involves locating a 
temporary staging facility in Florida suitable for short-term (24-72 
hours) detention of migrants while they are screened and processed. The 
objective of the third phase of the program is to identify temporary 
staging facilities for migrants detained along the U.S. southwest 
border. The Department of Justice is actively working on phase two and 
three.
                       haiti: political killings
    Question. Has the Government of Haiti conducted thorough 
investigations into extrajudicial and political killings?
    Are there ongoing investigations into murders committed after 
President Aristide was returned?
    In how many cases have they made substantial progress in bringing 
to justice a person or persons responsible for one or more extrajudical 
or political killings in Haiti?
    How many of those cases involved any of the extrajudicial or 
political killings committed in Haiti since the return of President 
Aristide?
    Is the Government of Haiti cooperating fully with United States 
authorities and with United States-funded technical advisors to the 
Haitian National Police in such investigations?
    Answer. With the exception of the murder case of Antoine Izmery, 
killed in 1993, the Government of Haiti has not brought to trial 
individuals responsible for the political murders that occurred both 
before and after the return of former President Aristide to Haiti. The 
investigations, nonetheless, have contributed to the sharp drop in 
political violence seen in recent years.
    In part, the absence of convictions reflects the fact that key 
suspects in several of the high-profile murders that occurred prior to 
President Aristide's return in October 1994 have fled Haiti or cannot 
be located. Two members of the gang allegedly involved in several of 
the murders after Aristide's return are deceased. Police killed Eddy 
Arbouet, the leader of the gang, in December 1997 in a failed arrest 
effort. His bother, Emmanuel Arbouet, died of AIDS-related 
complications in August 1998 while in police custody.
    A further complication has been Haiti's dysfunctional judicial 
system. Thus, despite the priority given by the GOH to the prosecution 
of the 1994 killings in the town of Raboteau, efforts to bring the 
alleged murderers to trial were derailed when the judge responsible for 
the case fled to Canada at mid-year.
    Politically motivated murders have clearly diminished since 1995, 
and especially since the formation of the Haitian National Police's 
Special Investigative Unit (SIU), the entity charged with investigating 
political murders. In all, the SIU was assigned or worked on some 88 
cases during 1998, including the recent murder of Senator Toussaint. 
Nevertheless, there remain disturbing reminders that political violence 
has not been completely ended. Some ten of these cases (in addition to 
that of Senator Toussaint which, at this point, has not been 
established as being politically motivated) involve high-profile 
killings in the post-1994 period.
    These ten cases were, among others, singled out for concern in this 
year's Foreign Operations Appropriations Act (P.L. 105-277). The Act 
requires that the Secretary submit an annual report to Congress on the 
Government of Haiti's investigation and prosecution of these murders, 
and I will shortly submit this year's report. The report, as last 
year's, will be classified in order to protect sensitive intelligence 
and law enforcement information.
    Without going into the classified details of the report, I would 
note that we remain concerned that the Government of Haiti did not make 
credible progress in investigating the crimes mentioned in the 
legislation. While the SIU is vigorously pursuing the investigation of 
Senator Toussaint's murder, the GOH's cooperation on some of the more 
sensitive post-1994 murders has not been as complete as we have sought. 
In particular, there has been an apparent reluctance to investigate 
former members of the Presidential Security Unit that were allegedly at 
the scene of one of the murder cases.
    This is a matter of concern, and we remain committed to keeping 
pressure on the appropriate Haitian authorities to fully investigate 
all the murders.
        haiti: removal from security forces of alleged murderers
    Question. Has the Government of Haiti taken action to remove from 
the Haitian National Police, National Palace and Residential Guard, 
Ministerial Guard, and any other public security entity or unit of 
Haiti all individuals who are credibly alleged to have engaged in or 
conspired to conceal gross violations of internationally recognized 
human rights or credibly alleged to have engaged in or conspired to 
engage in narcotics trafficking?
    Is the Administration confident that any individuals removed from 
these positions are no longer associated with and/or working for any 
public security entity in Haiti?
    Answer. The Government of Haiti has removed individuals credibly 
alleged to have been involved in political murders from the units in 
which they were serving. As an example, former members of the 
Presidential Security Unit who allegedly were present at the scene of 
the murder of Pastor Antoine Leroy and Jacques Fleurival, and the PSU 
leadership that ordered them to the scene of the murder, were separated 
from the unit.
    In addition, the Government of Haiti separated from the Haitian 
National Police over 100 agents during 1998, many of them suspected of 
involvement in narcotics trafficking.
    The record is less clear regarding whether any of the individuals 
who were removed have been reemployed with other public security units. 
We are currently looking into the possibility that at least two 
individuals previously removed are now back in different units. There 
are also persistent reports that some of those removed still remain on 
the GOH payroll.
    In part, because of these unresolved issues, the Administration has 
not been able to certify that Haiti has fulfilled all the conditions 
contained in Section 561 of the 1999 Foreign Operation Act (P.L. 105-
277).
                       haiti: maritime agreement
    Question. Has the Government of Haiti ratified the maritime 
counternarcotics agreements signed in October 1997?
    Answer. Haiti and the U.S. signed a six part comprehensive maritime 
counternarcotics interdiction agreement on October 17, 1997. Haiti has 
not yet ratified the agreement because of its political deadlock, which 
has left its Parliament nonfunctioning.

    Question. Is Haiti implementing these agreements?
    Answer. The Government of Haiti is honoring the terms of the 
comprehensive maritime counternarcotics interdiction agreement even 
though it has not yet been ratified.
                     haiti: need for u.s. personnel
    Question. Some observers of counter-drug operations in Haiti 
believe that in the absence of U.S. personnel none of the ongoing 
counternarcotics operations would be sustained. Do you agree with this 
assessment?
    Answer. We believe that the Government of Haiti is committed to the 
counter-drug effort.
    However, Haiti's comparatively new law enforcement agencies lack 
the resources, training, experience, and professional traditions to 
effectively combat narcotics trafficking on their own. As a result, 
most of Haiti's counternarcotics law enforcement accomplishments are 
those for which USG programs have provided firm structure, mentoring, 
and support.
    The presence of U.S. law enforcement agencies in Haiti--the U.S. 
Coast Guard, the DEA, and U.S. Customs--are currently vital to the 
counter-drug efforts of their Haitian counterparts. INL-funded training 
and equipment provide critically needed support to Haitian law 
enforcement.
    Without this U.S. presence and assistance, Haitian efforts against 
drug trafficking could not be sustained, the flow of drugs through 
Haiti to the U.S. would increase significantly.
    The purpose of our counternarcotics law enforcement training 
programs is to develop the institutional capabilities of the Haitians 
to the point where they eventually will be able to combat drug 
trafficking without the intense level of effort currently required from 
U.S. law enforcement agencies in Haiti.
                         haiti: 1997 elections
    Question. Has a transparent settlement of the contested April 1997 
elections been achieved?
    Answer. We continue to urge Haitians to achieve a transparent 
settlement of the contested April 1997 elections. We hope the selection 
of a new Provisional Electoral Council (CEP) will facilitate such a 
resolution.
                  haiti: provisional electoral council
    Question. Has concrete progress been made on the constitution of a 
credible and competent provisional electoral council that is acceptable 
to a broad spectrum of political parties and civic groups?
    Answer. President Preval announced March 16 the composition of a 
Provisional Electoral Council (CEP) to carry out delayed legislative 
and local elections. The initial response concerning the individuals 
chosen has been broadly favorable. We are watching developments closely 
and will remain engaged, together with the international community, to 
encourage the broadest possible political consensus for the election 
process.
                        haiti: election schedule
    Question. A USAID grantee, the International Foundation for 
Elections Systems, has set forth a nine month election calendar which 
begins after the April 1997 elections are resolved and credible CEP has 
been installed as the minimum requirement to organize ``good'' 
elections. Does the Administration accept this timetable? If no, why 
not?
    Answer. We hope to work with others in the international community 
to help Haitians hold the delayed legislative and local elections in a 
free and transparent manner as soon as the necessary conditions are in 
place.
    We are inclined toward the nine-month timetable laid out by the 
International Foundation for Elections Systems (IFES). We would 
welcome, however, any efficiencies that would shorten the timetable 
without jeopardizing the overall credibility of the elections.
                             haiti: micivih
    Question. When asked about the MICIVIH by committee staff, the most 
positive things that most Haitians have to say is ``inutile.'' To what 
do you attribute the negative assessment that many Haitians appear to 
have about this mission?
    Answer. Many Haitians--including the Secretary of State for Public 
Security and the Director General of the Haitian National Police 
(HNP)--have told us the UN/OAS Civilian Mission in Haiti (MICIVIH) has 
been invaluable in monitoring, protecting, and promoting human rights 
in Haiti. This sentiment has been shared by key international human 
rights NGOs, including Amnesty International, Human Rights Watch, and 
the Lawyer's Committee on Human Rights.
    MICIVIH's activities have directly contributed to the release of 
numerous individuals illegally detained in Haitian jails--including 
prominent lawyer Osner Fevry and former senator Reynold George. Its 80 
monitors have documented and curbed police abuse throughout the 
country. Its comprehensive and reliable reporting has provided an 
international spotlight both on Haiti's progress and its many continued 
problems in improving respect for human rights.
    In the current atmosphere of executive branch-parliamentary 
tensions, MICIVIH has played a prominent role in international efforts 
to end the impasse. It has also been a strong proponent of political 
pluralism, speaking out forcefully against interference in activities 
of organizations such as a key opposition radio station, and the 
International Republican Institute (IRI).
    Haiti has one of the most oppressive and politically violent 
histories in this Hemisphere. Haiti's nascent human rights community 
continues to gain experience. A departure or cutback of MICIVIH, 
however, would be premature at this point and put at risk all we have 
achieved in improving the human rights situation in Haiti since 1994.
    MICIVIH has sought to maintain impartiality and has called 
attention to abuses against individuals from both sides of the 
political spectrum. Among MICIVIH's critics are those who fault the 
organization for defending individuals with opposing political views. 
Other critics of MICIVIH focus on Haiti's continued human rights 
problems without recognizing tremendous progress. There have been an 
unprecedented four consecutive years of elected government, and the 
level of political violence has diminished, due in large part to 
continued attention by the international community through MICIVIH, the 
UN Civilian Police Mission, and other bilateral and multilateral 
programs.
                   murder of max dalton in costa rica
    Question. What progress has been made by the Costa Ricans on the 
investigation into U.S. citizen Max Dalton's murder in Pavones? Has 
anyone been brought to justice for this crime? Do we expect that anyone 
ever will be?
    Answer. On November 13, 1997, U.S. Citizen Max Dale Dalton, a 
resident of Costa Rica, was killed by gunfire during a confrontation 
with squatters who were occupying his land in the town of Pavones, 
Costa Rica. Embassy San Jose was aware of Dalton's problems with the 
squatters for many years and had been assisting him in his efforts to 
energize the Government of Costa Rica to protect him and his property 
interests when he was killed. After Mr. Dalton's murder, the Embassy 
actively engaged the Costa Rican Government to bring justice to his 
killers.
    The Costa Rican Police conducted an investigation regarding the 
deaths of U.S. citizen Max Dalton and Costa Rican citizen Alvaro 
Aguilar in Pavones on November 13, 1997. That investigation concluded 
that the two men had shot each other.
    It further concluded that Costa Rican citizen Gerardo Mora struck 
Mr. Dalton with the back edge of a machete after Mr. Dalton fired a 
pistol at him.
    Gerardo Mora was charged with manslaughter in the death of Mr. 
Dalton. No one else was charged with any crime in connection with Mr. 
Dalton's death. The charges against Mora were dismissed at the request 
of the prosecutor on March 9, 1999. The prosecutor concluded that the 
evidence available was insufficient to convict and, therefore, decided 
not to take the matter to trial.
    We are not aware of any ongoing investigation into Mr. Dalton's 
death or of any outstanding indictments. We do not anticipate any 
further attempted prosecutions in this matter. The Dalton family lawyer 
expressed regret that an appeal would be futile since key evidence was 
lost through mishandling by the authorities.
                          costa rican land law
    Question. What have the Costa Ricans done to close the loopholes in 
existing law, which have been exploited by squatters to the detriment 
of property owners in Costa Rica?
    Answer. Landowners' problems with squatters have generally not been 
the result of loopholes in legal statutes. Landowners, regardless of 
nationality, have had problems obtaining enforcement of existing 
statutes designed to protect property rights while preventing land from 
becoming unutilized.
    A more systemic problem is that Costa Rican law affords speedy 
rights to people who openly and peaceably enter unused land and put it 
to ``productive'' use. Acquisition of property rights through adverse 
possession is well established in Costa Rican land law. Unlike our 
common law, which grants rights for adverse possession after many 
years, Costa Rican law grants protections to adverse possessors within 
a few months after peaceable, unchallenged and open entry onto idle 
land.
    Costa Rican law clearly distinguishes between peaceful, uncontested 
occupation of land and ``usurpation'' of land, which is a criminal 
offense. The courts and law enforcement authorities take usurpation 
statutes into account in squatter cases, but they are not applied 
consistently or with equal force in all instances. This problem affects 
Costa Rican and foreign landowners alike.

    Question. What specific steps has the U.S. taken to encourage the 
Costa Ricans to do so?
    Answer. The U.S. Embassy in Costa Rica has raised these issues many 
times with Costa Rican authorities at all levels and will continue to 
do so. Our Consular Information Sheet on Costa Rica has been updated to 
point out the many pitfalls in buying real estate in Costa Rica. We 
continue to believe and articulate the view that a legal system that 
allows quick and easy establishment of property rights through adverse 
possession will, in the long run, discourage investment and act as a 
brake on the country's development. To date, the Government of Costa 
Rica has shown no willingness to change its laws concerning land 
ownership.
    In the most prominent squatter cases in the Pavones area, the 
government has evicted squatters, has prevented them from reoccupying 
the land from which they were evicted, and now provides better security 
for property owners. It also is seeking other sites to which squatters 
could be resettled. The government is also working on zoning plans that 
could finally permit unambiguous titling of the land, or at least 
clarify the property rights concessions in the highly desirable 
maritime zone. These steps are all positive. We are currently waiting 
to see if prosecutors or the courts will use existing law to charge 
squatters criminally for land invasions.
         monitoring use of hurricane reconstruction assistance
    Question. What indigenous and international monitoring mechanisms 
are in place or being put into place to ensure that post-hurricane 
assistance will be used as it was intended to be used in Central 
American and the Caribbean?
    Answer. The transparent and effective use of funds is a top 
priority. We have created an inter-agency working group in part to 
coordinate donor efforts to guard against corruption. We are focusing 
on solutions that ensure both the proper use of funds and the quality 
of the reconstruction work.
    The supplemental request includes up to $10 million to design and 
implement anti-corruption programs. In addition, $12 million is slated 
to help local governments manage reconstruction assistance, including 
anti-corruption training for local officials.
    The countries themselves have shown a commitment to creating strong 
accountability mechanisms. The Nicaraguan Government has requested that 
the IDB fund the creation of a body to work with the ministries 
carrying out reconstruction and to report directly to donors. The 
Hondurans have asked USAID to support an independent Inspector General, 
and USAID has pledged $500,000. USAID is also providing $400,000 to 
enhance the Honduran Comptroller General's auditing capability. In 
Guatemala and El Salvador, controls are in place to monitor the flow of 
assistance in support of the peace processes in those countries, and 
these same mechanisms will be used to monitor the hurricane assistance.

    Question. Are you satisfied that these mechanisms are sufficient?
    Answer. We have made an excellent start, but this issue requires 
constant vigilance over the long term. We have recognized the potential 
for abuse since day one. Certainly, USAID will insist on transparency 
and accountability in any of its projects.
    As the reconstruction effort grows in scope and volume, we must not 
only remain vigilant, but we must continue our efforts to help the 
Central American countries improve their own anti-corruption 
mechanisms.
                   impact on u.s. business operations
    Question. What is the assessment of the impact of the natural 
disasters in Central America and the Caribbean to U.S. business 
operating in the regions?
    Answer. The majority of damage to U.S. companies occurred in 
Honduras, primarily in the banana and shrimp industries. The Embassy 
reported that damage to U.S. business operations was in excess of $75 
million.
    Although the damage to the infrastructure of Nicaragua, Guatemala 
and El Salvador was also extensive, and thereby affected the 
transportation of U.S. imports, U.S. operations in those countries 
suffered relatively little direct damage.
              u.s. assistance for u.s. business operations
    Question. What assistance is being provided to U.S. business 
impacted by the hurricane in Central America and the Caribbean?
    Answer. The Overseas Private Investment Corporation (OPIC) and the 
Export-Import Bank of the United States (ExIm Bank) offer insurance and 
other financing assistance to U.S. companies. Officials from both OPIC 
and ExIm Bank have visited the region since the hurricane to promote 
use of their services.
    The insurance and financing provided by OPIC or ExIm Bank will 
facilitate U.S. trade and investment in the region by offering 
exporters and investors the means to reduce transaction and investment 
risk.
    On February 10, 1999, OPIC President Munoz and Citibank President 
Menezes signed the $200 million Investment Facility for Central America 
and the Caribbean. The facility offers loans ranging from $500,000 to 
$40 million with terms of one to ten years. In El Salvador, Caterpillar 
and the Salvadoran cement producer CESSA immediately made use of the 
facility.
            opic and central american and caribbean recovery
    Question. What role will OPIC play in assisting the recovery of 
U.S. business?
    Answer. OPIC is working closely with several different U.S. 
companies interested in doing projects in at least half a dozen Central 
American and Caribbean countries. The investments in Central America 
alone, if they go forward, would represent OPIC political risk 
insurance and/or financing totaling $675 million.
    This new investment will complement OPIC's existing support in the 
Central American and Caribbean region, which today totals $1.5 billion. 
This total includes the Latin American Investment Funds, which can 
invest in some Central American countries.
    The total also includes the new lending agreement that OPIC signed 
in February with Citibank. It establishes a 22-country $200 million 
investment facility for Central America and the Caribbean that will 
help meet the need for medium- and long-term capital in the region. The 
facility will encourage private sector investment in rebuilding the 
economies of the countries that were devastated by hurricanes and 
natural disasters.
    Under a ten year agreement, OPIC will guarantee one half of each 
loan made by Citibank under the facility for projects in the region and 
will provide political risk insurance for the other half. Citibank will 
perform credit screening and OPIC will assure compliance with such 
standards as environmental protection, labor rights, and protection of 
jobs here in the U.S.
              argentina: intellectual property protection
    Question. Argentina failed to provide adequate protections for 
intellectual property of American companies, particularly the 
pharmaceutical industry. In what ways do Argentina's IPR protections 
fall short of U.S. expectations?
    Answer. Argentina's lack of patent protection for pharmaceutical 
products has been a contentious bilateral issue. In 1997 it cost 
Argentina 50% of its GSP benefits. Argentina's IP regime does not yet 
meet WTO standards.
    Among the problems with the pharmaceutical patent law: it contains 
onerous compulsory licensing provisions; it does not provide patent 
protection until November 2000; and it does not provide WTO Agreement 
on Trade-Related Aspects of Intellectual Property Rights (TRIPS) 
consistent protection for exclusive test data.
    Argentina remains one of the few major pharmaceutical markets in 
the world without protection for pharmaceutical inventions. In addition 
it is used as an export base for pirate products to countries where 
legitimate products enjoy patent protection.
    Two recent actions that appear to violate Argentina's current TRIPS 
obligations provide evidence that IP protection for pharmaceutical and 
agrochemical products is weakening. First, the GOA has failed to 
provide Exclusive Marketing Rights (EMR) for a drug patented by a U.S. 
firm, as required under TRIPS.
    Second, in August, the GOA issued new regulations that eliminated 
the 10-year data exclusivity period for the protection of confidential 
data. Agrochemicals, which enjoy patent protection under Argentine law, 
received protection of confidential test data until August 1998, when 
this practice was changed.
    Argentina's copyright laws are currently under review by the 
executive branch.
    Effective enforcement remains a problem. U.S. industry estimates 
1998 losses due to copyright piracy, such as video and software piracy, 
at $275.7 million.

    Question. What is the annual cost of piracy by Argentina's drug 
manufacturers to American drug companies?
    Answer. The pharmaceutical industry estimates losses at nearly $600 
million per year.

    Question. What additional sanctions are under consideration to 
demonstrate the importance of this issue to the U.S. Government?
    Answer. We have thus far removed 50% of Argentina's GSP benefits. 
Argentina is one of the countries which has lost GSP benefits because 
they have not given intellectual property adequate and effective 
protection.
    We emphasized our concerns regarding Argentina's intellectual 
property regime to the GOA during the recent visit of President Menem.
    In consultation with industry, USTR is examining the possibility of 
initiating WTO proceedings in the absence of progress.
    We continue to consider all policy options at our disposal in 
working to ensure that Argentina brings its IP regime into compliance 
with its TRIPS obligations.
             commission on human rights resolution on cuba
    Question. What specific steps has the State Department taken to 
ensure the adoption of a strong resolution condemning Cuba's human 
rights record at the upcoming UN Human Rights Commission session in 
Geneva? If no other country introduces such a resolution, will the U.S. 
delegation do so, as Assistant Secretary of State Harold Hongju Koh 
assured this committee would be the case? Has the Department made clear 
to all member countries the importance we attach to this issue and 
explained the negative impact on bilateral relations with countries 
that fail to support such a resolution?
    Answer. A number of members of the Commission on Human Rights have 
expressed an interest in having a country-specific resolution on the 
human rights situation in Cuba at the session which is starting this 
week in Geneva.
    The Czech Republic has announced that it will introduce a 
resolution on Cuba at the 1999 session of the Commission on Human 
Rights. The Poles have just announced that they are officially co-
authors of the resolution.
    We have been consulting with government officials of countries who 
are members of the Commission on Human Rights, and others, both in 
capitals and with their representatives in Geneva, to urge their 
support of a Cuba resolution.
                           new cuba measures
    Question. Congressional authors of the Cuban Liberty and Democratic 
Solidarity Act of l996 have asserted that the Administration is 
prohibited from licensing the sale of food to Cuba. Please provide a 
thorough written explanation of the Administration's legal 
justification for its contention that it has the right to license such 
sales of food to Cuban independent non-governmental organizations.
    Answer. On January 5, the President announced new measures to 
support the Cuban people. These modest and reasonable adjustments to 
the regulations that implement the Cuban embargo are in full compliance 
with the law. In particular, they are well within the scope of the 
President's licensing authorities under various provisions of law 
already in force when the 1996 Libertad (Helms-Burton) Act was passed. 
One of the new measures authorizes the licensing of sales of food and 
agricultural inputs to independent non-governmental entities in Cuba.
    The Libertad Act codified the Cuban embargo as of March 1, 1996. 
This means that it codified the restrictions, but also preserved the 
licensing authorities set out under prior provisions of law. These 
provisions include section 620(a) of the Foreign Assistance Act, 
section 5(b) of the Trading with the Enemy Act (TWEA), the Export 
Administration Act, the 1992 Cuban Democracy Act (CDA), Presidential 
Proclamation No. 3447 establishing the embargo, and applicable federal 
regulations.
    Section 5(b) of the TWEA provides the basic authority for 
enforcement of the Cuban embargo. This law authorizes the President, 
``through any agency he may designate, and under such rules and 
regulations as he may prescribe, by means of instructions, licenses, or 
otherwise,'' to regulate or prohibit financial, trade and other 
transactions with any foreign country or nationals thereof by persons 
subject to U.S. jurisdiction. This statutory authority remains in 
force.
    The Export Administration Act (EAA) sets forth additional licensing 
authorities. Section 4 authorizes the Secretary of Commerce, ``under 
such conditions as may be imposed by the Secretary which are consistent 
with the provisions of this Act,'' to license the export of goods from 
the United States. Section 6 authorizes the President to ``prohibit or 
curtail the exportation of any goods . . . to the extent necessary to 
further significantly the foreign policy of the United States . . .''.
    The Department of Treasury's Cuban Assets Control regulations, 31 
CFR, Part 515, and the Commerce Department's Export Administration 
regulations, 15 CFR, Parts 730 et. seq., make up part of the regulatory 
scheme that implements the Cuban embargo. These programs incorporate 
reasonable administrative flexibility to ensure that they serve the 
foreign policy objectives for which they were imposed without 
unintended or counterproductive consequences.
    Sales of food and agricultural commodities to Cuba require a 
specific license and are generally subject to denial. The President's 
new initiative does not remove the license requirement, but does 
provide case-by-case review for a defined scope of commodities to non-
governmental end-users in Cuba. In particular, the Administration will 
consider, on a case-by-case basis, applications for sales of food and a 
limited range of agricultural commodities in order to support 
independent non-governmental entities in Cuba.
    Sales to independent entities not only will help get food to the 
Cuban people, but will contribute to the development of a civil society 
independent of the current Cuban government. This is a regulatory step 
that furthers the foreign policy purposes of the embargo. This 
represents a modest and reasonable exercise of licensing authority that 
is fully consistent with the existing regulations.
    Indeed, the Helms-Burton Act clearly contemplates actions that 
provide support to the Cuban people. Section 109 of that Act, for 
example, specifically authorizes, indeed encourages, support for 
individuals and independent non-governmental organizations to support 
democracy-building efforts for Cuba.
                    usg financial support for brazil
    Question. How much financial support has the U.S. Government 
committed to the international financial rescue plan for Brazil?
    Answer. The U.S. Government has guaranteed $5 billion of the $41.5 
international assistance package announced in November 1998. Other 
contributions to the package included $18 billion from the IMF, $4.5 
billion each from the World Bank and IDB, and $9.5 billion in bilateral 
contributions from nineteen other countries.

    Question. What is the financial exposure to U.S. taxpayers if 
Brazil defaults on its obligations to the United States?
    Answer. We certainly do not foresee that happening. Brazil has 
taken major steps to reduce its government budget deficit and to enact 
needed fiscal reforms, and we expect they will continue on this path. 
Of the funds disbursed so far as part of the international package, the 
U.S. share of the guarantee amounts to approximately $1.5 billion. We 
anticipate these funds, as well as any additional funds that may be 
disbursed up to the original $5 billion pledge amount, will be repaid 
fully and in a timely manner.

    Question. Which of the conditions imposed by international 
financial institutions as part of the rescue package has the Brazilian 
Government satisfied and which have yet to be fulfilled?
    Answer. The original IMF program announced last November called on 
the GOB to implement a substantial package of fiscal measures designed 
to raise revenues and reduce expenditures. All of these measures--which 
amount to a budget adjustment of about 2.6% of GDP--have been approved. 
As a result of Brazil's change in exchange rate policy in January, a 
new IMF program was developed to adjust monetary and other targets. The 
new agreement was announced March 8, but it has yet to be formally 
approved by the IMF Board. The agreement calls on the Government of 
Brazil to take additional steps to further reduce the government budget 
deficit and abide by strict anti-inflationary monetary policy targets. 
The agreement also requires Brazil to persuade private sector 
commercial banks to maintain credit lines to the country. So far, 
Brazil has progressed in all these areas.
                       chile and mlat with spain
    Question. If the Government of Chile were expressly to request that 
the U.S. Government not provide documents to the Spanish court in the 
Pinochet case inasmuch as doing so would recognize the competence of 
the foreign court, would the State Department use its discretion under 
the Mutual Legal Assistance Treaty with Spain to withhold documents in 
the interest of good relations with the sovereign Government of Chile?
    Answer. While we would certainly bring to the attention of the 
Department of Justice any concerns expressed by the Government of 
Chile, the United States is obligated to respond to the Spanish request 
in accordance with the terms of the 1990 U.S.-Spain Mutual Legal 
Assistance Treaty (MLAT). As the Central Authority for the United 
States under the treaty, the Justice Department is responsible for 
making and receiving all legal assistance requests, and for 
communicating directly with the Spanish Central Authority about 
requests made to or from the United States. The Justice Department is 
also responsible for deciding whether the exceptions to the requirement 
of compliance under the treaty with Spain are applicable. As do most 
other MLAT's, the treaty with Spain provides that compliance may be 
refused where the ``security or similar essential interests'' of the 
United States would be prejudiced. There has been no determination that 
such extraordinary circumstances exist in this case.
                     chile declassification project
    Question. What is the rationale for declassifying Pinochet-era U.S. 
documents before Allende-era documents? Why is this not being done in 
chronological and historical order? What is the estimated total cost 
(not merely incremental cost) of the Chile declassification process 
that is now under way in the State Department and in various U.S. 
Government agencies? How does the Department intend to pay for this 
declassification process? How does the Department justify these 
expenditures?
    Answer. On behalf of the President, the NSC asked State and other 
agencies to undertake a compilation and review for release of documents 
that shed light on human rights abuses, terrorism, and other acts of 
political violence during and prior to the Pinochet era in Chile. The 
Department is working to carry out that instruction.
    In the first phase, agencies will retrieve and review documents 
from 1968-1978. A second phase is expected to address the period 1979-
91. In conducting the review of documents in the first phase, agencies 
will begin with documents from the 1973-1978 period. This corresponds 
to the period of greatest concern regarding allegations of human rights 
abuses in Chile.
    A preliminary estimate of the total cost of State Department action 
in compiling, reviewing and releasing documents covering the 1968-78 
period is $825,000.
    Many of these costs are fixed overhead. Department personnel have 
added fulfillment of the NSC instruction to their other duties. The 
Department is still examining options for funding the incremental 
costs.
    The Department believes that the expenditures related to the Chile 
Declassification Project are fully justified by the fact that reviewing 
such documents for declassification is an important element in the 
Administration's foreign policy. Release of the information may assist 
Chilean efforts to address such lingering questions as the fate of the 
disappeared. This policy is consistent with other efforts by the 
Administration, as in El Salvador, Guatemala, and Honduras, to clarify 
the facts surrounding human rights abuses and terrorism by releasing 
information in U.S. Government files as appropriate. It is also 
consistent with the Administration's commitment to greater openness, as 
exemplified by Executive Order 12958.
                         cuba: 1996 shoot-down
    Question. Besides seeking an ICAO inquiry and UN inquiry, what 
effective steps has the Administration taken to comply with President 
Clinton's promise to surviving family members to bring to justice those 
Cuban officials responsible for the February 1996 murder of the 
Brothers to the Rescue pilots?
    Answer. After the shoot-down, the Department of Justice launched an 
investigation, which remains open. I refer you to the Department of 
Justice for additional information about the investigation.
    As the President said in 1996, the brutal shoot-down provided the 
world with ``a harsh reminder of why a democratic Cuba is so important, 
not only to us but to the people of Cuba.''
    We are pressing forward in our efforts to promote peaceful, 
democratic change in Cuba. Part of this effort is to provide 
humanitarian support for the Cuban people and assistance in the 
development of independent civil society.
    We believe that increasing the flow of information to, from, and 
within Cuba, fostering people-to-people contacts, and facilitating 
outside support for independent groups increases chances that the 
inevitable transition will be peaceful and take democratic directions. 
The measures the President announced on January 5 are designed to 
facilitate these goals.
                             alejandre case
    Question 1. State Department official Michael Ranneberger asserted 
in a declaration filed before the U.S. District Court for the Southern 
District of Florida that the Cuban state-run telecommunications firm 
Empresa de Telecommunicaciones de Cuba, S.A. (ETECSA) is ``a separate 
legal entity'' from the Cuban state, i.e., having ``a legal status 
distinct from'' the Cuban state. Did the Department rely on information 
provided by ETECSA, the Cuban Government, or representatives thereof in 
preparing the Ranneberger declaration (particularly those 
characterizing in detail the inner workings of ETECSA)? If so, is it 
sound judgement on the part of the Department or Mr. Ranneberger to 
rely on information provided by Cuba, particularly since the Department 
and Mr. Ranneberger are taking the Government of Cuba's side in a court 
case against American citizens? What independent source of information 
does the Department and Mr. Ranneberger have detailing in the inner 
workings of a state-run Cuban entity? If the Administration considers 
ETECSA an independent entity, would it consider ETECSA eligible to 
purchase food from the United States under the measures announced in 
January 1999? If not, why not? Does the Department of State possess 
similar insight in the importation of cocaine to Cuba for transshipment 
to the United States? If not, why not?
    Answer. The U.S. Government intervened in the case of Alejandre v. 
Republic of Cuba for the limited purpose of protecting U.S. Government 
equities and the national security and foreign policy interests of the 
United States as set forth in the Cuba Democracy Act of 1992, P.L. 102-
484, Title XVII; 22 U.S.C. 6001 et seq. Section 6004(e)(3) of this Act 
specifically authorizes the President to issue licenses in order to 
permit telecommunications contact between individuals in the United 
States and the people of Cuba. Both the Executive and Legislative 
Branches have determined that maintaining direct telecommunications 
services between the United States and Cuba is a critical element of 
our policy towards Cuba. In particular, such services support our 
policy of encouraging development of a civil society independent of the 
Cuban Government and promoting an eventual peaceful transition to 
democracy. In a declaration filed in that case, the Department asserted 
that the Cuban company Empresa de Telecommunicaciones de Cuba, S.A. 
(``ETECSA'') is a corporation organized under the laws of Cuba. 
Declaration of Michael E. Ranneberger, Coordinator, Office of Cuban 
Affairs, U.S. Department of State, para. 6. The Department further 
asserted that ETECSA ``appears to conduct its business as a separate 
legal entity.'' Id. At para. 7. As noted in the declaration, various 
statements contained therein were based on information provided by 
ETECSA. For your convenience a copy of the Ranneberger declaration is 
attached.

                      United States District Court

                                for the

                      Southern District of Florida

                            Southern Division

  [case nos. 96-10126-civ-king, 96-10127-civ-king, 96-10128-civ-king]
Marlene Alejandre, individually
and as personal representative
of the Estate of Armando
Alejandre, deceased, et al
            Plaintiffs

        v.

The Republic of Cuba and
The Cuban Air Force,
            Defendants

        v.

AT&T Corporation (Formally, American
Telephone and Telegraph Company), et al
            Garnishees
                 declaration of michael e. ranneberger
I, Michael E. Ranneberger, declare and say:

1. I am the Coordinator, Office of Cuban Affairs, in the U.S. 
        Department of State. I have held this position since July 1995, 
        and have been employed as a Foreign Service Officer by the 
        Department of State since 1975. Since July 1995, I have been 
        the director of the office within the Department of State 
        responsible for coordinating U.S. relations with Cuba, 
        including bilateral telecommunications matters. During the 
        course of these responsibilities, I have become familiar with 
        all aspects of our relations with Cuba, and have participated 
        in discussions with Cuban government officials on various 
        bilateral matters. The following is based on my personal 
        knowledge and information available to me as part of my 
        official duties.
2. In 1992, with strong bipartisan support, Congress enacted the Cuban 
        Democracy Act (the ``CDA'') (Pub. L. 102-484, Title XVII; 22 
        USC 6001 et seq.). The CDA declares that U.S. policy toward 
        Cuba should be ``to seek a peaceful transition to democracy and 
        a resumption of economic growth in Cuba through the careful 
        application of sanctions against the Castro government and 
        support for the Cuban people'' (22 USC 6002(1)). As part of the 
        policy of ``support for the Cuban people,'' the CDA authorizes 
        the resumption of direct telecommunications services between 
        the United States and Cuba (22 USC 6004(e)(l)). The law permits 
        the provision of telecommunications facilities ``in such 
        quantity and of such quality as may be necessary to provide 
        efficient and adequate telecommunications services'' between 
        the two countries (22 USC 6004(e(2)). The CDA also authorizes 
        the licensing of payments to Cuba of amounts due ``as a result 
        of the provision of telecommunications services,'' consistent 
        with the public interest, but not from blocked accounts (22 USC 
        6004(e)(3)).
3. Direct telecommunications form a critical element of ``support for 
        the Cuban people.'' The goal is to improve people-to-people 
        communications between the United States and Cuba, including 
        contacts between family members in both countries, to open the 
        Cuban people to new sources of information and ideas, and to 
        encourage the development of civil society independent of the 
        Cuban government.
4. Following enactment of the CDA, the Department of State and the 
        Federal Communications Commission (FCC) developed policy 
        guidelines (issued in July 1993). Among other measures, the 
        policy guidelines authorize the Treasury Department to 
        ``license each U.S. company or U.S. subsidiary to remit to Cuba 
        the fill share of Cuba's earnings from the service approved by 
        the FCC.'' The Department of State interprets the policy 
        guidelines, as well as the CDA, to authorize the licensing of 
        payments to Cuban nationals or entities separate from the Cuban 
        government, as well as to the Cuban government and its 
        agencies. Several U.S. companies subsequently negotiated 
        agreements to provide telecommunications services between the 
        United States and Cuba.
5. The Treasury Department's Office of Foreign Assets Control (OFAC) 
        amended the Cuban Assets Control Regulations to provide for 
        specific licensing on a case-by-case basis for certain 
        transactions related to telecommunications, including the 
        settlement of charges under the agreements (31 CFR 515.542(c)). 
        OFAC has issued eight licenses under this regulation 
        authorizing transactions related to telecommunications between 
        the two countries. The service agreements became operative in 
        November 1994, and licensed payments began to flow from U.S. 
        companies to their Cuban counterpart entity. The licensed 
        payments totaled about $39.5 million during the latest 
        available six-month reporting period (January 1 to June 30, 
        1998). These figures demonstrate that the telecommunications 
        policy authorized by the CDA is working, as intended, to 
        encourage enhanced people-to-people contacts between residents 
        of the two countries.
6. The payments from U.S. carriers under the agreements are made to the 
        Cuban company Empresa de Telecomunicaciones de Cuba, S.A. 
        (``ETECSA''). According to information provided by ETECSA and 
        its legal counsel to the U.S. Government, ETECSA is a 
        corporation (sociedad anonima) organized under the laws of 
        Cuba. It has five shareholders: three are separate Cuban 
        government owned or controlled corporations with a combined 59% 
        share, the fourth is STET International of Italy (through a 
        wholly-owned subsidiary in the Netherlands) with a 29% share, 
        and the fifth is a Panamanian-registered corporation known as 
        Universal Trade and Management Corporation (UTISA) with a 12% 
        share. Under Cuban law, ETECSA is a ``joint venture,'' which is 
        defined as ``a Cuban commercial company which adopts the form 
        of a nominal share corporation, in which one or more national 
        investors and one or more foreign investors participate.'' 
        Cuban Foreign Investment Act, Law No. 77 of September 5, 1995, 
        Art. 2(i). According to Article 13.1 of the same law, ``Joint 
        ventures imply the establishment of a legal status distinct 
        from that of any one of the . . . .'' Thus, under Cuban law, 
        ETECSA has a separate legal status from its shareholders.
7. In practice, ETECSA appears to conduct its business as a separate 
        legal entity distinct from the Cuban government. According to 
        information provided to the U.S. Government by ETECSA, its 
        funds are not intermingled with Cuban government funds. Unlike 
        wholly-owned entities of the Cuban state, ETECSA does not make 
        ``contributions'' (aportes) to the Cuban government. 
        (``Contributions'' are fixed assessments set by the Cuban 
        government at the start of each year, which are determined 
        without regard to expected revenues or profits.) The only 
        direct payments from ETECSA to the Cuban government are taxes. 
        ETECSA bills the Cuban government for services rendered, just 
        as it does other customers. ETECSA works in other countries on 
        its own, not through Cuban diplomatic missions. The ETECSA 
        board of directors acts for the shareholders, which are paid 
        quarterly dividends. Members of the board do not hold positions 
        with the Cuban government.
8. The garnishment of debts owed or payments made by U.S. carriers to 
        ETECSA could result in the termination of direct 
        telecommunications services between the two countries. On 
        January 8, Ricardo Alarcon, President of the Cuban National 
        Assembly, speaking on Cuban television, said that if the 
        payments due the Cuban enterprise were not received, Cuba would 
        not allow the service to continue ``free of charge.'' This 
        point was reiterated in a demarche made to my office by the 
        Cuban Interests Section of the Swiss Embassy in Washington on 
        January 14. Referring to the possibility that payments due 
        ETECSA might be interrupted, the Cuban Interests Section said 
        that such a development would lead to the interruption of 
        telephone service between the two countries. The Department of 
        State takes these statements by the Cuban authorities very 
        seriously, and believes that a disruption in direct 
        telecommunications between the two countries would have serious 
        adverse consequences for U.S. foreign policy interests.
9. Congress and the executive branch both have strongly supported 
        direct telecommunications between the United States and Cuba, 
        as set forth in the CDA. In my judgment, the continuation of 
        these services advances the national interest of the United 
        States, and their disruption would cause serious harm to U.S. 
        policy toward Cuba. Direct telecommunications encourage 
        humanitarian contacts between families in this country and 
        their loved ones in Cuba, encourage other people-to-people 
        contacts between the two countries, open new sources of 
        information and ideas for the Cuban people and promote the 
        development of an independent civil society on the island. 
        Direct telecommunications form a critical element of U.S. 
        policy to promote a peaceful transition to democracy. The 
        garnishment of licensed payments owed by U.S. carriers to their 
        Cuban counterpart would disrupt the continuation of these 
        services, and frustrate the policy approved by the legislative 
        and executive branches.

I declare under penalty of perjury that the above declaration is true 
        and correct.
                                     Michael E. Ranneberger
                              Coordinator, Office of Cuban Affairs,
                                               Department of State.
Executed at Washington, D.C.
January 26, 1999.
                         re: the alejandre case
    Question 2. Is it sound judgment on the part of the Department or 
Mr. (Michael) Ranneberger to rely on information provided by Cuba, 
particularly since the Department and Mr. Ranneberger are taking the 
Government of Cuba's side in a court case against American citizens?
    Answer. Mr. Ranneberger did not rely on the Government of Cuba for 
information. The Declaration conveyed publicly available information 
and information provided by ETECSA and made clear the source of the 
information.
    The USG is not ``taking the side'' of the Government of Cuba in 
this case. The USG has intervened in the litigation to defend important 
U.S. national security and foreign policy interests. These interests 
include preserving the ability of the USG to use asset blocking 
programs as a means of influencing the behavior of countries that 
threaten our interests and our interest in ensuring that similarly 
situated U.S. nationals with claims against the Government of Cuba are 
treated equitably.

    Question 2(a). What independent source of information does the 
Department and Mr. Ranneberger have detailing the inner workings of a 
state-run Cuban entity?
    Answer. The Department has no independent source of information 
that details or provides information on the inner workings of ETECSA.

    Question 2(b). If the Administration considers ETECSA an 
independent entity, would it consider ETECSA eligible to purchase food 
from the United States under the measures announced in January 1999? If 
not, why not?
    Answer. The Administration did not say that ETECSA is an 
organization independent of the Government of Cuba, but rather that it 
is an independent legal entity. ETECSA would not qualify under the 
regulations issued by the Department of Commerce to purchase food and/
or agricultural goods from a U.S. supplier.

    Question 2(c). Does the Department of State possess similar insight 
into the inner workings of the joint venture or Cuban ministry 
implicated recently in the importation of cocaine to Cuba? If not, why 
not?
    Answer. We are aware of the recent attempted shipment of cocaine to 
Cuba, which is still under investigation by Colombian and Spanish 
authorities. What information is available indicates that the narcotics 
were destined for Spain after a stop in Cuba. The Department has no 
information on the ``inner workings'' of the joint venture firm 
reportedly involved in this trafficking incident.
                         helms-burton title iv
    Question. If the Assistant Secretary of State for Western 
Hemisphere Affairs has personal knowledge of activities by a company 
doing business in Cuba that leads him ``reasonably to conclude'' that 
such company is trafficking in the property of U.S. national, is not 
the Assistant Secretary obligated under law and regulation to sanction 
such company under Title IV of the LIBERTAD Act? In light of the 
delegation of authority in U.S. regulations, does not the final legal 
authority and obligations to enforce this provision rest solely with 
the Assistant Secretary of Western Hemisphere Affairs, regardless of 
whether or not other officials agree with such a determination?
    Answer. In regulations implementing Title IV the Department has 
stated that, ``Determinations of ineligibility and excludability under 
Title IV will be made when facts or circumstances exist that would lead 
the Department reasonably to conclude that a person has engaged in 
confiscation or trafficking after March 12, 1992.'' The Assistant 
Secretary of State for Western Hemisphere Affairs has been delegated 
authority to make determinations of excludability and visa 
ineligibility under Section 401(a) of the Act. As a matter of practice, 
the Assistant Secretary may consult with other agencies in making such 
determinations. Nonetheless, authority for implementing Title IV rests 
with the Assistant Secretary.
                    mexican law enforcement vetting
    Question. How many persons have been vetted and are actively 
pursuing their duties in each of the following Mexican law enforcement 
units: bilateral border task forces, organized crime unit, special 
prosecutor for crimes against health (FEADS)? How many persons from 
each of these units have failed polygraph examinations or otherwise 
been implicated in wrongdoing?
    Answer. In accounting for personnel, the Government of Mexico 
considers the Bilateral Border Task Forces (BTF) to be part of the 
FEADS. All personnel in FEADS, including BTF personnel, have been 
vetted. That is, 106 vetted law enforcement officers. All 106 are 
considered on active duty, whether stationed on the border or on 
airport interdiction duty.
    No member of the FEADS has failed a polygraph test. However, five 
have been implicated in wrongdoing. Two were arrested in September 
1998, on kidnapping and drug trafficking charges. The U.S. Government 
believes the allegations are unfounded. These two remain in jail. In 
March 1999, three members were arrested and are in jail on extortion 
charges.
    The organized crime unit (OCU) has 194 agents, all of whom have 
been vetted. All 194 officers are on active duty.
    During a September 1998 re-vetting, 19 members of the OCU failed 
polygraph examinations. All personnel who failed have either been 
removed from the unit or re-assigned to sub-units of the OCU with no 
access to counternarcotics information.
    One member of the Special Investigations Unit (SIU), a vetted sub-
unit of the OCU, was arrested in February 1999 for drug trafficking. 
The agent escaped custody and his whereabouts are unknown.
          immunity for u.s. law enforcement officers in mexico
    Question. Has the Department of State requested full diplomatic 
immunity, consular immunity, or other immunity for all U.S. Drug 
Enforcement Agency or Federal Bureau of Investigation agents who are 
carrying out law enforcement activities in Mexico, in order to protect 
them from arrest or conviction by Mexican authorities for carrying 
weapons needed for their self-defense? If not, why not? If so, how has 
the Mexican Government responded?
    Answer. We have conveyed to senior levels of the Mexican Government 
U.S. interest in having the immunities of DEA agents--and FBI 
Resolution 6 agents assigned to the DEA contingent in Mexico--upgraded 
from the consular level (i.e., criminal and civil immunity both limited 
to official acts) to the administrative and technical level (i.e., full 
criminal immunity, but civil immunity limited to official acts). They 
would then enjoy the same level of immunity customarily accorded to law 
enforcement agents at embassies.
    DEA and FBI country attaches continue to enjoy diplomatic immunity 
(i.e., full criminal and comprehensive civil immunity).
    The Mexican Government has reaffirmed its commitment to the 
physical safety of DEA personnel in Mexico. However, it has not agreed 
to administrative and technical immunity for DEA agents.
                   extradition of u.s. customs agents
    Question. What is the status of the Mexican Government's publicly 
stated plans to seek the extradition of U.S. law enforcement officials 
involved in Operation Casablanca? Would the U.S. Government ever agree 
to extradite to Mexico or any other country any U.S. law enforcement 
official for actions taken in good faith and in the line of duty?
    Answer. The Mexican Government announced on February 7 that it had 
not found evidence that U.S. Customs agents involved in Operation 
Casablanca had violated Mexican law.
    While we cannot rule out the possibility of extradition should a 
very unusual case arise, we of course would generally not expect to 
extradite U.S. law enforcement officials for actions taken in good 
faith and in the line of duty.
                     mexican national extraditions
    Question. How many Mexican drug kingpins were extradited and 
surrendered to U.S. custody in 1998?
    Answer. Based on U.S. Government records, there were three Mexican 
national drug traffickers authorized for extradition in 1998: Jesus 
Amezcua Contreras, Arturo Paez Martinez, and Florentino Blanco Mesa. 
The Department of State has also received confirmation from the 
Government of Mexico that Luis Amezcua Contreras was found, in February 
1999, to be extraditable.
    Mexico's legal system provides for the appeal of extradition orders 
through the amparo process, similar to the U.S. due process right of 
appeal. During 1998 all of the traffickers authorized for extradition 
filed appeals which are being processed through the Mexican legal 
system.
                mexico's new counternarcotics initiative
    Question. Mexico recently allocated $400 million to its anti-drug 
efforts. Does this amount represent an incremental increase in funding 
for such activities? How much of an increase is programmed on an annual 
basis for such newly funded activities?
    Answer. The Government of Mexico recently announced a new 
comprehensive national effort to confront the top national security 
threat it faces--illicit drug trafficking, production, and use. In 
announcing its new counternarcotics strategy, the Government of Mexico 
indicated that it would be spending up to $500 million over the next 
three years to improve surveillance and rapid response capability and 
strengthen land, air, and sea interdiction.
    In 1999, Mexico has provided an initial investment of $160 million 
to begin procurement of equipment. This investment will be in addition 
to the $770 million counter-drug budget the Mexican Congress approved 
for 1999.
    While the Government of Mexico makes public the budget for various 
government agencies, it has not previously organized or made public its 
total counternarcotics spending. The 1999 budget is the first time 
interagency counternarcotics spending is brought together in one place 
and thus the relationship to prior years funding cannot be determined. 
Further, future year funding is not yet known because the Mexican 
Congress must approve annually the national budget. However, this 
effort represents a major commitment by the Mexican Government to 
participate fully in the fight against illicit drugs.
                      forward operating locations
    Question. What specific alternatives is the Administration 
considering for the forward operating locations to replace the U.S. 
military bases in Panama? What countries have been asked to allow such 
activities on their territory? Have any of these countries agreed to 
such an arrangement? Is there any alternative more ideal than the 
facilities in Panama (provided that the Panamanian Government concurred 
in such a presence)? If the new president of Panama were to ask the 
U.S. military to remain at bases in Panama, would you advocate doing 
so?
    Answer. We are actively discussing the establishment of forward 
operating locations (FOLs) for the purpose of aerial counter-narcotics 
interdiction with the Government of Ecuador and the Government of the 
Netherlands regarding Aruba and Curacao.
    We are not seeking the establishment of bases in these or other 
countries, but rather access agreements for the use of existing airport 
facilities. We believe the FOLs identified will satisfy our 
requirements though we may seek and benefit from agreements with other 
countries too.
    Panama's new president takes office September 1. By that date, no 
significant element of U.S. forces will remain in Panama. However, 
nothing in the Panama Canal Treaty prevents future discussions with the 
Government of Panama regarding a U.S. military presence.
                nicaragua: u.s. citizen property claims
    Question. What is the status of American-citizen property claims in 
Nicaragua? Please provide a table indicating the number of settlements 
of American-citizen claims by month during each of the last three 
years.
    Answer. Sandinista-era property disputes still figure prominently 
in our bilateral policy concerns and are a significant impediment to 
promoting economic growth. We take every occasion in meetings with the 
Nicaraguan Government to press for the rapid resolution of pending 
American citizen property claims. The Nicaraguan Government has been 
responsive and has made significant progress over the years, as 
indicated in the attached table.
    Nevertheless, we would like to see the rate of resolutions 
accelerated. Our Embassy in Managua works closely with American citizen 
claimants and meets regularly with Nicaraguan officials to press for 
the rapid and fair resolution of U.S. citizens' claims. A U.S. Foreign 
Service Officer and two local employees work full-time assisting 
American citizen claimants.
    Since the 1990 electoral defeat of the Sandinistas, 796 American 
citizens have filed 2,306 claims with our Embassy in Managua. 1,342 of 
these claims have been resolved; 964 remain pending. 306 American 
citizen claimants registered with the Embassy have had all of their 
claims resolved, nearly 38 percent of the total.
    The Nicaraguan Government has resolved another 941 American citizen 
claims not registered with our Embassy--resolutions that the Embassy 
has confirmed--for a total of 2,283 resolutions.
    While the Nicaraguan Government has made significant progress 
(resolution of 2,283 claims), newly naturalized American citizens 
continuously bring new claims to the Embassy. Since January 1995, 758 
new claims have been filed with us.
    In addition, the Nicaraguan Government has resolved 98 claims 
relating to properties held by the government. Only five are pending at 
the current time and the Embassy, the claimants and the Nicaraguan 
Government are actively working on resolving them.
    The Nicaraguan Government has worked to raise the value of the 
bonds used to pay compensation. They are in the process of 
standardizing the bonds, making them more attractive to investors and 
claimants. The Nicaraguan Government expects to have the new bonds 
ready in April. Claimants would then be able to exchange their old 
bonds for the new ones--or can choose to keep their old bonds.
    Legislation is also pending in the Nicaraguan National Assembly 
that would allow direct payment of bonds to the occupants of 
confiscated properties in exchange for their agreement to return such 
properties to their original owners.
    This same legislation would also authorize land swaps, but would 
first require the Nicaraguan Government to establish a ``land bank'' of 
properties that would be available for exchange.
    In addition, the Nicaraguan Supreme Court is in the process of 
developing a mediation mechanism, along with new property courts, which 
could encourage resolutions and accelerate processing of claims through 
the judicial system.
    We have encouraged the Nicaraguan Government to make greater 
efforts to contact claimants and encourage them to pursue their claims. 
As a result, the Vice Minister for Property began about two years ago 
making regular trips to Miami to meet with claimants to discuss their 
cases. This has resulted in a number of resolutions and saved claimants 
the expense of traveling to Managua.
                        waiver year resolutions


----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
              1994-1995                                       1995-1996                                      1996-1997                                     1997-1998                                     1998-1999
----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Aug-94...........................        8      Aug-95..........................        7      Aug-96..........................       33      Aug-97.........................       32      Aug-98.........................       32
Sep-94...........................        4      Sep-95..........................        5      1-Sep...........................       27      Sep-97.........................       34      Sep-98.........................       34
Oct-94...........................       11      Oct-95..........................       19      Oct-96..........................       32      Oct-97.........................       20      Oct-98.........................       29
Nov-94...........................       89      Nov-95..........................       83      Nov-96..........................       26      Nov-97.........................       17      Nov-98.........................       28
Dec-94...........................       34      Dec-95..........................        6      Dec-96..........................        5      Dec-97.........................       16      Dec-98.........................       29
Jan-95...........................       29      Jan-96..........................       21      Jan-97..........................        7      Jan-98.........................       23      Jan-99.........................       64
Feb-95...........................       25      Feb-96..........................       27      Feb-97..........................        0      Feb-98.........................       23      ...............................  ...........
Mar-95...........................       38      1-Mar...........................       40      Mar-97..........................       22      Mar-98.........................       34      ...............................  ...........
Apr-95...........................       44      Apr-96..........................      102      Apr-97..........................       43      Apr-98.........................       46      ...............................  ...........
May-95...........................       36      May-96..........................       88      May-97..........................       65      May-98.........................       64      ...............................  ...........
Jun-95...........................      100      Jun-96..........................       92      Jun-97..........................       78      Jun-98.........................       97      ...............................  ...........
Jul-95...........................        4      Jul-96..........................       46      Jul-97..........................       15      Jul-98.........................       28      ...............................  ...........
  Additional.....................      118      ................................  ...........  ................................  ...........  ...............................  ...........  ...............................  ...........
    Total........................      540      ................................      536      ................................      353      ...............................      434      ...............................      216
New Claims Filed:
Jan-95...........................       44      Aug-95..........................       16      Sep-96..........................       52      Aug-97.........................        8      Aug-98.........................        6
Mar-95...........................       16      Oct-95..........................       46      Nov-96..........................       28      Sep-97.........................        7      Sep-98.........................        6
Jun-95...........................       65      Jan-96..........................      128      Dec-96..........................       10      Oct-97.........................        7      Oct-98.........................       10
                                   ...........  Jun-96..........................       54      1-Jan...........................        7      Nov-97.........................        7      Nov-98.........................        0
                                   ...........  Jul-96..........................       31      May-97..........................       79      Dec-97.........................        1      Dec-98.........................        0
                                   ...........  ................................  ...........  Jul-97..........................       11      Jan-98.........................        9      Jan-99.........................        1
                                   ...........  ................................  ...........  ................................  ...........  Feb-98.........................       30      ...............................  ...........
                                   ...........  ................................  ...........  ................................  ...........  Mar-98.........................       23      ...............................  ...........
                                   ...........  ................................  ...........  ................................  ...........  Apr-98.........................        4      ...............................  ...........
                                   ...........  ................................  ...........  ................................  ...........  May-98.........................       26      ...............................  ...........
                                   ...........  ................................  ...........  ................................  ...........  Jun-98.........................       17      ...............................  ...........
                                   ...........  ................................  ...........  ................................  ...........  Jul-98.........................        4      ...............................  ...........
    Total........................      125      ................................      275      ................................      187      ...............................      143      ...............................       23
----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------


          nicaragua: status of military-to-military relations
    Question. What is the status of military-to-military relations 
between the U.S. and Nicaragua? Has the Department of State abided by 
its commitment to me and my House counterpart to withhold all such 
formal contact until the Nicaraguan military has taken significant 
steps to improve its notorious human rights record? Are there any 
persons cited in the reports of the Nicaraguan Tripartite Commission 
still in the ranks of the Nicaraguan military today? If so, who and 
why? Are there any persons cited in the ``La Maranosa'' massacre still 
in the ranks of the Nicaraguan military today? If so, who and why?
    Answer. We do have relations with the Nicaraguan army in the sense 
that we collaborate with them on issues of mutual interest. For 
example, the Nicaraguan army provided invaluable security and 
logistical support to U.S. armed forces personnel who recovered last 
April the remains of pilots of a B-26 downed in the mountains of 
northern Nicaragua after participating in the Bay of Pigs operation. 
Similarly, but on a greatly magnified scale, the Nicaraguan army 
collaborated closely and effectively with U.S. armed forces to ensure 
that our humanitarian engineering and medical assistance to Nicaragua 
following Hurricane Mitch (``Task Force Build Hope'') was delivered 
promptly and had a beneficial impact. In both instances the conduct of 
the Nicaraguan army was professional and competent.
    In addition, we have facilitated Nicaraguan army participation in a 
limited and carefully selected number of Southcom and other seminars 
dedicated to issues of mutual and humanitarian interest. For example, 
Nicaraguan civil defense personnel participated in a series of 
Southcom-sponsored seminars and exercises on disaster preparedness and 
relief. This experience unquestionably left the civil defense unit--a 
part of the army--better prepared to respond to Hurricane Mitch.
    Because of concerns about human rights and U.S. citizen property 
cases, we have withheld other aspects of a normal relationship with the 
Nicaraguan army, in particular the provision of training to Nicaraguan 
military personnel and the accreditation of a Nicaraguan defense 
attache in Washington (We do have a defense attache's office in 
Managua). The Sandinista government pulled its Defense attache out of 
Washington in 1989 in protest over Operation Just Cause in Panama.
    Since 1995, however, the Nicaraguan military has made important 
strides on both human rights and property:

          Human rights abuses by the Nicaraguan army have dropped 
        significantly. Communication and respect between the army and 
        Nicaraguans in rural areas--where most abuses had previously 
        occurred--has improved dramatically. The OAS (Organization of 
        American States) and the CRS (Catholic Relief Services), which 
        are involved in grassroots human rights organizations known as 
        peace commissions, verify these findings. Moreover, in the most 
        significant abuse to have occurred in the last three years, the 
        killing of a young woman in Wamblan in December 1996, the army 
        collaborated in a civilian judicial process that found six army 
        personnel guilty in absentia of murder. The six soldiers 
        deserted during the investigation and their whereabouts are 
        unknown.
          Effective March 12, 1999, the Nicaraguan army retired the 
        former head of the Sandinista secret police and four other 
        senior members of the Defense Intelligence Directorate, who 
        also would have had close ties to the former secret police.
          In addition, the army has taken a more active and cooperative 
        role in trying to resolve property cases in the hands of the 
        army as an institution, which are claimed by American citizens. 
        One case was resolved in December 1998. Of the remaining three: 
        the Embassy and the Nicaraguan Government have been waiting 
        since October 1998 for one claimant to present necessary 
        documentation; in the second case, the Embassy and the 
        Nicaraguan Government are analyzing recently presented 
        documentation; and, in the third case, the claimant is waiting 
        for the suspension of judicial action relating to property 
        cases to be lifted in order to continue her case in the 
        Nicaraguan courts.

    We were impressed with Nicaraguan army actions in these two 
important areas, even before the close and effective cooperation 
necessary in the Hurricane Mitch relief and reconstruction effort 
increased contact between our militaries.
    We know of one military officer cited in the Tripartite Commission 
reports who remains on active duty; we have encouraged the Nicaraguan 
Government to comply with the recommendations contained in the 
Commission's various reports. Those recommendations focus principally 
on reopening judicial processes in individual cases.
    We have not yet determined whether the officer mentioned in 
judicial proceedings related to the ``La Maranosa'' case remains in the 
army. We would note, however, that a civilian judicial process 
acquitted this officer.
                  guatemala: murder of bishop gerardi
    Question. What is the status of the investigation of the murder of 
Bishop Juan Jose Gerardi in Guatemala? Has the U.S. Government offered 
technical support for this investigation? If so, what has been the 
result of this assistance? If not, why not? Does the U.S. Government 
have any information that implicates any member of Guatemala's security 
forces or other government official in this heinous murder or in any 
effort to impede the investigation. If so, please explain in detail.
    Answer. The investigation is open and active. Recent and ongoing 
activities include taking testimony and a crime scene reconstruction (a 
common procedure in Guatemala criminal investigations).
    At the request of the Government of Guatemala, the USG has provided 
technical support for the investigation. The FBI has been involved from 
very early in the investigation. FBI investigators have traveled to 
Guatemala to provide assistance at various times. Material evidence has 
also been brought to the FBI crime laboratory for testing.
    I refer you to the FBI for additional details. Since the 
investigation is ongoing, the results have not been made public.
    We are not aware of any concrete information implicating members of 
Guatemala's security forces or other government officials in this 
heinous murder. However, because the Bishop's murder occurred so soon 
after his public delivery of a report which held the military, military 
commissioners and civil patrols responsible for approximately 80 
percent of war-related rights violations, some observers suspect a 
political motive for the crime.
    There are allegations of impropriety in the investigation. The 
apparent failure of the original prosecutor to investigate thoroughly 
all reported leads has raised questions about the efficacy and 
impartiality of the investigation. That prosecutor withdrew from the 
case in December.
    We have and will continue to urge a thorough investigation to bring 
to justice the perpetrators of this deplorable crime.
                                paraguay
    Question. What steps has the U.S. Government taken to support 
constitutional democracy in Paraguay?
    Answer. Since the restoration of democracy in Paraguay in 1989, the 
United States has played a crucial role in support of Paraguay's 
democratic consolidation. In 1996, when the democratically elected 
government of Juan Carlos Wasmosy was threatened by then-Army General 
Lino Oviedo, the USG called an urgent meeting of Foreign Ministers at 
the OAS and supported the Government of Paraguay (GOP) in Asuncion as 
it successfully stood up to Oviedo. In 1998, the USG supported the GOP 
as it carried through with scheduled national elections, in the face of 
attempts by some senior civilian and military leaders to postpone the 
elections unconstitutionally. Following the election of President Cubas 
and an opposition legislature in 1998, the USG has repeatedly urged all 
sides to work out their differences through constitutional processes. 
While the democratic process has been severely strained, the 
institutions of democracy continue to function and are seeking, through 
constitutional means, to resolve the current impasse.
    The USG has further supported democracy in Paraguay throughout the 
last decade through programs of several agencies (e.g., State 
Department, USAID, USIS, Peace Corps, ODC, DEA, NIMA). The USG provided 
critical support to the Supreme Electoral Tribunal that enabled it to 
carry out the 1998 elections in a transparent manner. We continue to 
support a civil-military dialogue aimed at helping the military 
establish its role in a democratic society.
    Question. What more can be done to stress the importance of 
resolving this crisis?
    Answer. USG officials have made clear to President Cubas, the 
military, Vice President Argania, all factions of Congress, and the 
Supreme Court our support for democratic institutions and the rule of 
law. We have been especially clear that the independence of the 
judiciary is key to any democracy. We have emphasized that the 
international community would react sharply to any rupture of 
constitutional order.

    Question. Please list all forms and amounts of U.S. assistance 
(including trade benefits) as well as international financial 
institution loans or assistance for Paraguay.
    Answer. USAID plans to provide $5.3 million in assistance in fiscal 
year 1999. This aid, much of which will go to non-governmental 
organizations, will strengthen local government, help ensure democratic 
elections, improve the criminal justice system, combat corruption, 
promote civil-military dialogue, increase coverage and quality of 
family planning services, and help develop and manage environmental 
reserves. $200,000 in IMET training funds will encourage military 
professionalization. The State Department is currently planning to 
provide $250,000 in counter-narcotics funds and $111,000 in anti-
terrorism training.
    In 1998, Paraguay received $66 million in approved loans and 
guarantees from the Inter-American Development Bank and $40 million in 
approved World Bank loans.

    Question. Has the U.S. Government considered suspending such 
assistance if the Paraguayan Government continues to ignore the 
decision of the Supreme Court in the Oviedo case?
    Answer. The USG has made it clear to President Cubas that we 
disagree with his decision to not carry out the order of the Supreme 
Court in the Oviedo case. With the exception of a small military-to-
military cooperation program, the GOP currently receives very little 
direct assistance from the USG. Most USG assistance to Paraguay goes to 
non-governmental organizations and is in areas of priority interest to 
us (e.g. environment, population) and of less immediate concern to the 
GOP. We have made it clear that a rupture of the constitutional process 
would have sudden and severe consequences for the GOP from the U.S. and 
the international community.

                  Questions Submitted by Senator Biden

                            security funding
    Question. Do you agree that the Department probably requires more 
than the $3 billion you have requested to meet its security needs?
    Answer. Yes, I agree that the Department needs more than the $3 
billion requested. However, the Department's budget request for 
security, as well as for other international affairs programs and 
operations, was limited by the provisions of the Budget Enforcement Act 
and addressed the need to eliminate deficit spending.
    The security requirement will most certainly not be met in the next 
five years--a multi-year, sustained level of investment in buildings, 
equipment, and personnel is essential. The $3 billion requested in 
advance appropriations is only the start of this multi-year program. 
Far more will be required.
    A viable construction program requires careful planning--from 
ascertaining the number of personnel to be housed (not just today but 
into the future), designing the building, acquiring an appropriate 
site, awarding the construction contract, and then proceeding with the 
construction and outfitting of the facility.
    The Department is now well-positioned to execute an aggressive 
construction program. We have made great strides since the tragic 
bombings last August. We must move out smartly to ensure that our 
people and facilities overseas are adequately protected from threats of 
terrorism.
         administration conflict resolution measures in africa
    Question. In the past year, the security situation in sub-Saharan 
Africa has taken a dramatic turn for the worse. There are now four new 
major conflicts underway across the region. Civil war has broken out in 
Angola and Sierra Leone. Fighting between Ethiopia and Eritrea 
escalates each day. Perhaps most alarming is the unprecedented 
involvement of eight sub-Saharan states in the war in the Democratic 
Republic of Congo. Nations that have enjoyed good relations may 
potentially have troops facing each other over the barrel of a gun.
    The State Department has sent several envoys to the region to try 
to mediate these various disputes, including Assistant Secretary of 
State Susan Rice, and Special Envoys Anthony Lake, Howard Wolpe, and 
Jesse Jackson. I support these efforts; the suffering and loss of human 
life in each of these situations is tragic. The Administration must 
continue to be actively engaged in trying to bring peace to the region.
    What specific measures is the Administration taking to help African 
States resolve the conflicts currently underway? What additional steps 
are planned?
    Answer. Armed conflict continues to hinder development and 
democratic transformation in Africa. Peace and stability are the 
foundations upon which economic growth and democratic transitions are 
built. The USG supports Africa's search for peace and contributes to 
conflict resolution in four ways.
    First, we actively mediate in conflict situations. Assistant 
Secretary Susan Rice has traveled throughout the continent in support 
of mediation efforts in various areas of conflict. Former NSA Anthony 
Lake has sought to mediate the border dispute between Ethiopia and 
Eritrea, visiting the area four times since October 1998. President 
Clinton has also been active in trying to resolve the Ethiopian/
Eritrean dispute and has written and called both leaders on the matter. 
Former Congressman Howard Wolpe, Special Envoy to the Great Lakes, has 
interceded with all eight Africa nations that have forces fighting in 
the Congo. Special Presidential Envoy Jesse Jackson has facilitated 
peace talks in Guinea, Liberia and Sierra Leone and other West African 
nations.
    Second, we support conflict management capabilities within Africa. 
The USG has contributed nearly $9 million over five years to the OAU to 
build and equip a Crisis Management Center within OAU Headquarters and 
to equip a 100-man Rapid Deployment Military Observer Force. OAU has 
deployed military observers to Comoros, and has mediated in every major 
conflict on the continent. The USG has supported financially the 
efforts of the Intergovernmental Authority on Development (IGAD) to 
find peaceful solutions to the civil wars in Somalia and Sudan. The USG 
also spends nearly $20 million annually to train African military units 
in peacekeeping and humanitarian relief operations under the African 
Crisis Response Initiative (ACRI). ACRI-trained personnel and equipment 
are employed in peacekeeping operations in Guinea Bissau, Sierra Leone, 
and the Central African Republic. The Department of Defense has 
allocated $41.7 million over the next five years to build an African 
Center for Security Studies modeled on the Marshall Center in Germany.
    Third, we directly assist with our Africa regional peacekeeping 
operation funds. In FY 1998, the U.S. contributed $6.7 million in 
support of ECOMOG peacekeeping operations in Sierra Leone and Liberia, 
and plans to contribute over $10.8 million this year for ECOMOG/Sierra 
Leone, pending Congressional approval.
    Fourth, we assist African conflict resolution activities through 
multilateral organizations like the UN. In FY 1998 the USG provided $37 
million for the UN Observer Mission to Angola (MONUA), $2.5 million for 
the UN Observer Mission in Sierra Leone (UNOMSIL), and $6.5 million for 
the War Crimes Tribunal in Rwanda (ICTR).
    We also aggressively engage other donor nations to assist in 
conflict prevention and resolution, and support for non-governmental 
organizations such as the International Foundation for Electoral 
Systems (IFES), the International Republican Institute (IRI), and the 
National Democratic Institute (NDI), and the African Center for 
Constructive Resolution of Disputes (ACCORD).

    Question. It would appear that, in the post-Cold War era, our 
influence in sub-Saharan Africa has declined.
    Has our influence in sub-Saharan Africa waned so profoundly since 
the end of the Cold War that we are unable to effectively encourage our 
African allies to resolve their disputes?
    Do we still have the same amount of leverage that we once did? If 
so, can you cite specific examples of when we have done so? If such 
leverage exists, and we have not used it, why haven't we?
    Answer. Our influence in sub-Saharan Africa may be stronger since 
the end of the Cold War since we have no colonial history in Africa, 
and are not choosing to back rulers in Africa based on Cold War 
alliances. We are more actively engaged in regional, sub-regional, and 
bilateral relations than ever before. Notwithstanding our engagement, 
we cannot always successfully influence events in Africa, as evidenced 
by the conflicts ongoing from the Horn, across the continent, to West 
Africa. Even so, our posture and influence in Africa is highlighted by 
the historic, first-ever U.S.-Africa Ministerial meeting, which 
attracted 46 sub-Saharan African countries and a number of African 
regional organizations in March 1999. President Clinton has forged a 
long-term partnership with Africa. UN Secretary General Kofi Annan, OAU 
Secretary General Salim Salim, and others have underscored their 
support for U.S. engagement and efforts to work with Africa to promote 
sustainable development, combat transnational threats, prevent the 
spread of HIV/AIDS, and create a brighter future for the youth of 
Africa.
    Also, over the recent years there have been a number of successes 
and improvements in democracy and stability in Africa to which we have 
contributed: Mozambique, South Africa, Chad, Liberia, Guinea Bissau, 
and most recently, Nigeria. In June, South Africa will hold its second 
national democratic elections following its shedding of apartheid, and 
in Nigeria, a steady transition to civilian, democratic rule is well on 
track. Over half the region's countries will have completed a second 
set of national elections by the year 2000--this on a continent almost 
universally dominated by one-party states in 1990.
    There are also a number of specific examples of our leverage and 
ability to influence key events in Africa. Although the border dispute 
continues between Eritrea and Ethiopia, the President was able to 
broker an important air strike moratorium between the two countries. A 
visit to Kigali by Assistant Secretary Susan Rice resulted in the 
Government of Rwanda publicly announcing that it had military forces 
operating in the DROC--an important admission for mediating the dispute 
in the Congo. In the Horn, we influenced the establishment of a 
Permanent Secretariat in IGAD for exclusive support to the Sudan peace 
talks, and we are working toward the establishment of a continuous, 
sustained mediation process. Through U.S. initiatives, the IGAD process 
has been revitalized, and dialogue on the civil war in Sudan has 
resumed. Our direct involvement in the Burundi peace talks in Arusha 
has had a substantial impact on the direction and progress of 
negotiations in the Arusha Accords. In West Africa, we leveraged 
significant African and international support for the ECOMOG missions 
in Sierra Leone and Liberia. ECOMOG has become Africa's most consistent 
and reliable peacekeeping force. Finally, African endorsement of the 
African Crisis Response Initiative and the Department of Defense's 
African Center for Security Studies are also examples of the influence 
that we continue to enjoy in Africa.
    These successes in Africa are due in no small part to our influence 
and programs that cross the entire spectrum, from conflict resolution 
to economic development, democratization, good governance, and respect 
for human rights.
    Even with our successes, we readily admit that there are limits to 
our leverage in Africa, and that our ability to influence is not the 
same in all situations. Our leverage is amplified when we are able to 
move in partnership with African interests, and with the multilateral 
support of the Europeans and the UN. It is also amplified with the 
confidence and support of Congress--an essential element for us--as we 
address the magnitude of evolving challenges in Africa. In that 
endeavor, we need to better identify and address the systemic causes of 
conflict in Africa, including arms flows, illicit diamond and resource 
sales that finance the arms and sustain conflict, and the transnational 
entities that are entering into the equation more and more.
                    inviolability of african borders
    Question. Since the end of colonialism, sub-Saharan African states 
have largely adhered to the principle that the inherited boundaries 
between them should remain inviolate and that the sovereignty and 
territorial integrity of African states should be respected. This 
principle is clearly spelled out in the charter of the Organization of 
African Unity and was cited by Robert Mugabe as one of the main reasons 
for Zimbabwe's involvement in the war in the Democratic Republic of the 
Congo. In the past two years, we have seen a gradual shift away from 
the principle, the most obvious example being the aforementioned war.
    Have the rules among African states changed regarding the 
inviolability of borders and sovereignty?
    If so, what are the implications for African international 
relations and interstate conflict, and how will this affect U.S. 
foreign policy in the region?
    Answer. In recent years, as internal conflict has weakened several 
African countries, others with the ability to project force have 
intervened--sometimes at the request of the government, sometimes not. 
However, in general we do not believe the rules have changed among 
African states regarding sovereignty and the inviolability of borders. 
To abandon these principles, after decades of adherence to them, would 
only exacerbate instability in Africa. We believe that African 
governments on the whole continue to support these principles endorsed 
by the OAU. (NB--The Ethiopia/Eritrea conflict involves a border 
dispute over frontier locations.)
    The DROC government invited Zimbabwe, Angola and Namibia to assist 
it in the fight against the rebels and the troops from neighboring 
countries who had violated the borders of DROC.
    The United States spoke against the Angolan troops in Congo-
Brazzaville and the non-invited forces in DROC.
    Although three SADC states, led by Zimbabwe, have intervened 
militarily in the Democratic Republic of the Congo, SADC is also 
attempting to mediate the conflict there. We support these mediation 
efforts to secure a cease-fire and withdrawal of forces and have 
encouraged national dialogue in the Congo. We remain hopeful that 
mediation will succeed.
                          iraq: regime change
    Question. What can you say today to assure the Iraqi people that 
were they to rebel against Saddam Hussein, that we would not stand idly 
by as we did in 1991?
    Answer. The U.S. looks forward to the time when Iraq can be 
restored to its rightful place in the region, a time when the Iraqi 
people can once again be proud to be Iraqis. We do not believe this is 
possible as long as Saddam Hussein rules Iraq. We are working with 
Iraqis inside Iraq, outside Iraq and others who share the goal of 
regime change.
    We have designated seven Iraqi based groups as eligible for 
assistance under the Iraq Liberation Act. We are considering what 
further assistance we could provide to them under the Act. However, we 
are not going to take any precipitate action that might risk more lives 
unnecessarily. We will proceed in a deliberate manner in addressing 
this very serious issue.
    In the meantime, we continue to enforce the No-Fly zones in 
northern and southern Iraq. These zones were designed to prevent Saddam 
from using even more lethal air power against Iraqis living in the 
north and south.
    As we have stated, we are also committed to responding should 
Saddam Hussein move against the people of the north.
    Questions about any specific response we might take would have to 
be addressed to DOD.

    Question. I'm sure that you are familiar with the plan advocated by 
some which calls for raising an ``Iraq Liberation Army,'' inserting it 
in American-protected enclaves, and supporting it with U.S. military 
power as it marches toward Baghdad. What is your assessment of this 
plan?
    Answer. In November, the President stated publicly that the U.S. 
supports regime change in Iraq. In accordance with the Iraq Liberation 
Act, the President designated seven Iraqi opposition groups as eligible 
to receive assistance under the Act. We are considering how to proceed.
    We have of course heard a variety of descriptions for a plan for 
inserting Iraqi fighters into Iraq and supporting them. For a military 
assessment of the feasibility of such a plan and the likely USG 
commitment to either support or extract the Iraqi fighters, we defer to 
colleagues at Defense.
    However, it must be clear that for any such plan to be seriously 
contemplated, the support of at least one neighboring country to 
provide logistical and other assistance would be essential. Our policy 
of continuing to contain Saddam while working toward regime change has 
met with mixed responses in neighboring countries. Most regional states 
agree stability and security would be well served by a new government 
in Baghdad. But they have traditional reservations about openly 
advocating what could be considered as interference in domestic 
affairs. They also have little confidence in the ability of Iraqis 
outside Iraq to be able to effect such change.
    For our part, we believe that Iraqis outside Iraq have a role to 
play in the effort to achieve regime change through delegitimizing the 
regime, developing a unity and coherence of purpose and demonstrating 
through discussions and cooperative action that there can be a better 
future for Iraqis. However, we currently believe that Iraqis inside 
Iraq are better placed to effect serious regime change.

    Question Do you envisage supplying lethal arms and training to 
Iraqi opposition groups? If so, when could that begin?
    Answer. No decision to drawdown any goods or services under the Act 
has yet been taken. We are considering several options, among them the 
possibility of providing lethal arms, non-lethal equipment and 
training.
    While we remain committed to implementing the Iraq Liberation Act, 
we are also committed to ensuring that our actions move the process 
toward a better day for the Iraqi people and do not needlessly or 
precipitately subject Iraqi citizens--or Americans who might be called 
upon to support or extract them--from unnecessary risk or loss of life.

    Question. What incentives can you offer to a new leadership in 
Iraq? What can we do to guard against some of the dangers that might 
accompany regime change?
    Answer. The biggest incentive for a new leadership in Iraq is 
clearly the possibility to lead Iraq forward into the community of 
nations where it can once again participate within the normal pattern 
of international discussion and interaction.
    Such a future assumes that a new leadership would meet Iraq's 
outstanding obligations under the UN resolutions, be prepared to live 
in peace with its neighbors, respect its own citizens and maintain the 
territorial integrity of Iraq.
    We are supporting Iraqis who have begun thinking and publishing 
about the key issues that a new government would face, from 
participatory government to debt restructuring to restructuring and 
renewing the key sectors of the economy, from oil to health. It seems 
clear to us that not only the U.S., but the entire international 
community would welcome such a new regime and seek to facilitate its 
re-entry into the family of nations as a proud and positive participant 
for peace. We would do everything we could to promote such a response 
on the part of the international community.
    Regime change, once begun, is unpredictable. We are very conscious 
of this fact, as are the Iraqi people. That is why we want to work with 
groups inside and outside Iraq interested in creating a better future 
for Iraq so that they may work with greater coherence and mutual 
respect. Change, when it comes, must provide real and lasting benefit 
to the Iraqi people. We are not prepared to precipitously advocate 
change--change that might inadvertently lead to great risk of Iraqi--or 
American--life.
    But let me also be clear. We cannot and will not make these 
decisions for the Iraqi people. Change, when it comes, must be brought 
about for Iraqis by Iraqis. It cannot be imposed from outside.

    Question. How effective do you believe containment has been in 
serving our fundamental objectives? Do you believe containment is 
eroding, or is it sustainable, especially given Saddam's continuing 
reckless actions and statements? Is there a tension between containment 
and an overt and aggressive policy of regime change?
    Answer. Containment has been and remains a key U.S. and 
international policy in dealing with Iraq under Saddam Hussein. 
Containment, through the international sanctions and arms control 
regimes provided for in UNSCRs, has gone far to disarm Saddam of his 
weapons of mass destruction and to ensure that he does not have the 
ability to reconstitute those weapons. At the same time, by allowing 
Iraq to export oil but controlling the revenue from those exports, the 
UN has been able to mitigate the effect of sanctions on the Iraqi 
people by providing needed humanitarian assistance.
    The U.S. and others have backed up the policy of containment 
through the threat of force and, when necessary through the use of 
force.
    Since 1991, Saddam's regime has consistently refused to comply with 
Iraq's obligations to the international community. There is general 
frustration with Saddam's defiance of the international community, just 
as there is genuine concern about the long-term effect of sanctions on 
the people of Iraq. But there is no division about the fundamental 
issues: Iraq under Saddam Hussein must be disarmed and monitored and it 
must comply with its obligations under all the relevant UNSCRs.
    After eight years of prevarication and obfuscation, it is plain for 
all to see that Saddam Hussein will not meet his international 
obligations. That is why we publicly have stated our support for regime 
change.
    No other nation openly supports a policy of regime change. In fact, 
many nations have expressed concern with a policy that both seeks to 
force Saddam to cooperate with the international community while at the 
same time calling for regime change.
    We agree that there is an inherent tension in the policy, but we 
believe firmly that containment must remain a pillar of U.S. policy 
until such time as there is regime change.
                   iraq: french and russian proposals
    Question. What is your view of recent proposals on weapons 
monitoring and inspections made by France and Russia?
    Answer. Neither the French nor the Russian proposal adequately 
addresses the dangers posed by Iraq's continuing refusal to disclose 
and destroy its weapons of mass destruction and long-range missiles as 
required by UN Security Council resolutions. Nor can we support lifting 
UN sanctions on Iraq until Iraq has complied with all of its 
obligations.
    We are actively engaged with the French, Russians and other members 
of the Security Council to reestablish an effective disarmament and 
monitoring presence in Iraq.
    A UN assessment panel is meeting now to review disarmament issues. 
We expect that its conclusions, due in mid-April, will provide a 
baseline for further Council discussion.
                        indicting saddam hussein
    Question. Why haven't we sought a resolution in the U.N. Security 
Council to establish a Commission of Experts that would systematically 
gather evidence as a prelude to a possible war crimes prosecution of 
Saddam Hussein?
    Answer. Saddam Hussein and members of his inner circle are 
responsible for numerous incidents that bear investigation as war 
crimes, crimes against humanity and genocide.
    These incidents range from the use of chemical weapons against 
Iraqi civilians at Halabja and other locations in northern Iraq in 
1988-89, to the ongoing draining of the southern marshes, to the use of 
civilian ``human shields'' to deter military operations. As I noted a 
year ago, Saddam Hussein is a ``repeat offender.'' Finding a way to 
hold him accountable for these crimes is a key goal we have long 
supported.
    We are supporting the work of a number of non-governmental 
organizations that are working to educate the international community 
about the war crimes of Saddam Hussein and his regime. We announced the 
first of these grants last week, to the INDICT organization, and we 
hope to support other groups, notably the Human Rights Alliance and the 
International Monitor Institute, that are doing important work in this 
area.
    To be successful, all of these efforts require a great deal of 
careful preparatory work on which we are well embarked. David Scheffer, 
Ambassador at Large for War Crimes Affairs is leading the effort inside 
and outside the USG to move this process forward.
                russia: political and economic stability
    Question. What is your assessment of Russia's prospects for 
maintaining a reasonable degree of stability in the near-to-medium 
term?
    Answer. As President Clinton stated in Moscow in September, Russia 
can build a prosperous and stable future for itself if it completes the 
transformation begun seven years ago. As I said in Chicago last fall: 
``The drama of Russia's transformation from a dictatorship and an 
empire to a modern democratic state is far, far from over . . . A true 
and lasting transition to normalcy, democracy, and free markets in 
Russia is neither inevitable nor impossible. It is an open question, 
the subject of a continuing debate and struggle.''
    Russia has accomplished a great deal in its transformation in the 
last seven years. Three democratic elections, two for the Duma, and one 
for Presidency. Governments have been chosen according to procedures 
established in the Russian constitution. Russians enjoy more basic 
freedoms than ever before in this history, and those freedoms rest on 
better constitutional foundations. Those freedoms will be particularly 
important as Russia holds Duma elections in December and then 
Presidential elections in June of 2000.
    Russia is going through difficult economic times. And there is no 
doubt that Russia's 74-year experience with communism makes a 
transition to a free-market economy a difficult one. No one is seeking 
to impose a specific type of market economic system, but economic 
realities exist that any country ignores at its own peril. Russia must 
deepen its reform effort if it wants to enjoy the benefits that 
increased investment (foreign and domestic) could bring. We should be 
supportive, but at the same time we must acknowledge it is up to the 
Russian leadership, together with the Russian people, to build sound 
economic policy that ultimately helps guarantee political stability.
           russia: u.s. policy and russian domestic politics
    Question. How likely is Russia to have a new leader with whom we 
can deal? Are we beginning to prepare for a post-Yeltsin Russia?
    Answer. U.S. policy has been to support Russia's transformation to 
a democratic, free-market oriented society, rather than any single 
leader or personality. President Yeltsin has been elected twice by the 
Russian people to serve as President of the Russian Federation. In that 
capacity we work with him and his government on issues of concern to 
our two countries.
    At the same time, we maintain regular contact, through our Embassy 
in Moscow, with Duma deputies of all parties and with political leaders 
throughout the country. We also encourage regional leaders and Duma 
deputies to visit the U.S., some through U.S. Government-sponsored 
exchange programs.
    Russia faces Duma elections in December of this year followed by 
Presidential elections in June, 2000. Although we are watching 
developments closely, it would be premature to speculate now on what 
might happen in Russian domestic politics in the next eighteen months.

                Questions Submitted by Senator Brownback

            pa outlawing of militant/terrorist organizations
    Question. Have all militant and/or terrorist organizations been 
outlawed by the PA as required by the Wye Memorandum?
    Answer. The Wye River Memorandum obligated the Palestinian side to 
``inform the U.S. fully of the actions it has taken to outlaw all 
organizations (or wings of organizations, as appropriate) of a 
military, terrorist or violent character. . . .''
    The Palestinians have provided to us a March 3, 1996 statement 
issued by the Palestinian Authority stating that a meeting of the 
Higher Palestinian National Security Council, chaired by Chairman 
Arafat, had decided to ban the activity of all paramilitary groups, 
including the armed wings of HAMAS and the Palestinian Islamic Jihad.
    We have some questions regarding the legal status of this 
statement. We are discussing this with the Palestinians.
    The Palestinian security services have been effective in taking 
action against those terrorist groups.
    We continue to press the PA to do everything possible to prevent 
terror and to cooperate fully with Israel in this effort.
               revolving door for palestinian prisoners?
    Question. Has the ``revolving door'' policy whereby security 
offenders are subjected to token arrests and then released come to an 
end?
    Answer. We have been outspoken publicly and directly with the 
Palestinian leadership that there can be no ``revolving door.''
    Earlier this year, the Palestinians have released people without 
consulting us. We told the Palestinians of our dissatisfaction with how 
those releases were handled.
    We have explored these releases of Palestinian prisoners thoroughly 
with both the Palestinians and the Israelis. Based on everything we 
know, we do not believe that the Palestinians have released individuals 
who pose a threat.
    Although it is no longer being alleged that the PA released 
prisoners who were responsible for the killing of Americans, I want to 
make clear that we have investigated this issue thoroughly and, from 
all available information, there is no evidence that anyone suspected 
of such involvement has been released.
    We believe the Palestinians recognize the seriousness of our 
message on the handling of any future releases, and have made some 
improvements in the mechanism for carrying out such releases.
    The Palestinians will discuss these with us and the Israelis.
    We made clear to the Palestinians that there should be no surprises 
in future releases.
                            illegal firearms
    Question. Could you tell us how many illegal firearms have been 
collected? How many do you estimate are still unaccounted for?
    Answer. From early December through early February the Palestinians 
confiscated 124 weapons. We have not received updated figures since 
then, but we are aware that registration of weapons by Palestinian 
police is ongoing, with some confiscations as appropriate. 
Additionally, the Palestinian Civil police recently destroyed a number 
of munitions, explosives, and other confiscated materials.
    We do not have an estimate for the number of illegal weapons in 
areas under PA jurisdiction. Clearly, there are grounds for concern 
regarding weapons possessed by extremist elements. Civilian Police 
statistics demonstrate an exceptionally low level of crime committed 
through the use of individually owned weapons; for example, there was 
only one recorded-armed robbery in all of 1998.
                    size of palestinian police force
    Question. Have the Palestinians cut their police force to the 
agreed upon size of 30,000?
    Answer. The Wye River Memorandum obligates the Palestinians to 
provide a list of its policemen to the Israeli side in conformity with 
the prior agreements between the Israelis and Palestinians.
    It was agreed at Wye that the Palestinian police force should 
number no more than 30,000.
    The Palestinians have prepared a list of all those who would remain 
in the trimmed-down police force. The Palestinians and Israelis have 
yet to come to agreement on how such a list should be handled, and that 
is the reason the Palestinians have not yet handed the list over to the 
Israelis.
    The Palestinian have prepared and provided to the USG a list 
detailing the excess number above the agreed limit. We are encouraging 
the parties to come to agreement directly on this issue.
         commission on international religious freedom funding
    Question. I am disappointed that the Administration did not request 
any funding for the Religious Liberty Commission formed by the 
International Religious Freedom Act. The budget made no provisions for 
the functions of the Commission which was authorized at $3 million by 
last year's legislation. Can you please ensure that this $3 million is 
included in both the FY 1999 Supplemental Appropriations bill and the 
FY 2000 Appropriations bill?
    Answer. It is our understanding that the Congress intended the 
Commission to be independent. Specifically, the Act authorizes a 
Congressional appropriation to the Commission, while not providing the 
Executive Branch with direct authority to fund the Commission.
    The Act does, however, call on the Secretary of State to provide 
administrative support for the Commission.
    Within tightly constrained Department resources, we have already 
allocated funds to facilitate the Commission's startup and 
administrative support ($125,000 for the remainder of fiscal year 
1999). We have also established an office of International Religious 
Freedom, headed by Robert Seiple, the Ambassador at Large for 
International Religious Freedom, and staffed by four professional 
officers.
    While the Department will provide administrative support to the 
Commission, as called for in the Act, we must recognize that the Act 
did not appropriate money to support the activities of the Commission 
described in the Act. Without such an appropriation, the Commission 
will be unable to carry out its mandate up to its own expectations and 
those of Congress.
    We hope that the Congress provides the $3 million appropriation for 
the Commission under the authority provided in the Act.
                      funding for radio free asia
    Question. What is your budget submission for Radio Free Asia? Is 
this amount adequate to allow RFA to continue its 24-hour per day 
broadcasting to China, as well as to its other 5 mandated countries?
    Answer. Of the FY 2000 appropriations requested for International 
Broadcasting Operations, $23 million would be allocated for Radio Free 
Asia.
    RFA is confident that this will allow it to continue its 24-hour 
per day broadcasts to China, as well as to fully maintain its regular 
broadcasts of two hours per day in the vernacular to Burma, Cambodia, 
Laos, North Korea, and Vietnam.

                Question Submitted by Senator Coverdell

        protection of u.s. investments in the dominican republic
    Question. What specific actions are being taken to protect U.S. 
investments in the Dominican Republic and to guarantee the rights of 
U.S. companies in their contractual relations with the Dominican 
Government? Specifically, I am concerned at the Dominican Government's 
failure to comply in a timely manner with its contractual obligations 
to pay U.S. companies for services and products provided.
    Answer. Protecting U.S. investment, resolving property and 
investment disputes, and ensuring that the Dominican Government 
respects its contractual obligations are at the forefront of our 
bilateral economic agenda.
    Our Charge d'Affaires Linda Watt in Santo Domingo has been 
intensely involved in supporting the interests of U.S. independent 
power producers, which have particularly complained about difficulties 
in receiving timely payments. In addition, U.S. officials in Washington 
as well as in the Dominican Republic have been actively involved in 
pressing institutional reform in this sector, as well as across the 
economy.
    Our Acting Assistant Secretary for Western Hemisphere Affairs, Pete 
Romero, has also raised our concerns on this issue, including directly 
to President Fernandez.
    The Dominican Government has recently improved its payments records 
to U.S. independent power producers and has reaffirmed to us its 
readiness to work to resolve outstanding claims and to improve the 
investment climate.

                Questions Submitted by Senator Feingold

                        angola: renewed conflict
    Question. It is depressingly clear that the civil war in Angola has 
resumed with vigor, and I fear for the health and safety of all 
civilians. What are your observations about this turn of events in 
Angola?
    Answer. We share your concerns about the impact of renewed conflict 
in Angola on innocent civilians. The administration has devoted over 
$50 million annually since 1994 in support of humanitarian relief for 
the tens of thousands of Angolans displaced by the civil war. We 
continue to coordinate with other donors in responding to the 
humanitarian needs of the approximately 100,000 Angolans newly 
displaced by the upsurge in fighting, and believe UN humanitarian aid 
workers should have access to displaced populations throughout Angola.
    In an effort to help ensure that this conflict does not result in 
gross violations of human rights, we have made clear to both UNITA and 
the Government of Angola (GRA) that they have an obligation to respect 
the rights of non-combatants, to treat prisoners of war with dignity, 
and to ensure the safety of humanitarian aid workers assisting the 
victims of war.
    Regrettably, this conflict is likely to continue for several more 
months, with additional civilian casualties, before a negotiated 
settlement becomes viable. The GRA has rejected new talks for now, and 
Jonas Savimbi's purported readiness to negotiate will not be taken 
seriously until he demonstrates that UNITA has taken concrete steps to 
fulfill some of its remaining obligations under the 1994 Lusaka 
Protocol. UNITA remains subject to three sets of UN sanctions that were 
imposed between 1993 and 1998. We are concerned, however, by reports 
that UNITA continues to use regional states as conduits for acquiring 
arms and munitions.
    The Angolan people have suffered enormously during a quarter 
century of civil war. The international community must find a way to 
end this senseless conflict and provide ordinary Angolans the 
opportunity to live in peace. Accordingly, we are discussing with the 
Government of Angola and the UN secretariat a way to maintain a 
residual UN presence in Angola as a follow-on to MONUA, the UN 
peacekeeping mission in Angola whose mandate ended February 26. We 
envision UN personnel would help to coordinate humanitarian assistance, 
monitor human rights, and facilitate negotiations if and when the 
Angolan parties so desire.
    In the meantime, the Administration will, in conjunction with the 
UN, and others in the international community, seek to stay engaged in 
the search for peace in Angola. We will continue to encourage the 
Government of Angola to undertake the social, economic, and political 
reforms needed to foster national reconciliation.
                    continued un presence in angola
    Question. Specifically, what is your view about the potential for a 
continued United Nations presence in Angola?
    Answer. We are hopeful that the UN can maintain a presence in 
Angola even after the MONUA force concludes its pullout.
    The question is: what sort of presence will the Government of 
Angola agree to?
    The Angolans have already said that they would welcome humanitarian 
workers and human rights monitors. The United States and its Security 
Council are working for something more--a political presence headed by 
a Special Representative of the Secretary-General that could play a 
good offices role in addition to observing and reporting on the 
security, humanitarian, and human rights situation.
    We are still negotiating with the Angolans on this. We believe 
strongly that this resumption of war is fruitless since, in our view, 
the differences in the country cannot be resolved militarily. When the 
two parties finally realize this, we want the UN to be positioned to 
bring the Government and UNITA swiftly back to the peace table.
                              sierra leone
    Question. The situation in Sierra Leone involves untold horrors 
against innocent civilians, yet it is unclear what the international 
community, and the United States in particular, is doing to assist the 
situation. Our support, until now, for the peacekeeping and 
humanitarian effort does not appear to be sufficient. What is U.S. 
policy in Sierra Leone at this time? Is there more we can do, and if 
so, what?
    Answer. The Administration strongly supports the democratically 
elected Government of President Ahmad Tejan Kabbah and abhors the 
violence that rebel forces have inflicted upon the people of Sierra 
Leone.
    The State Department is actively engaged in seeking an end to the 
tragic conflict in Sierra Leone. Our four-part strategy in support of 
Sierra Leone consists of: (1) support for regional diplomacy, (2) 
increased support for the ECOMOG peacekeeping force, (3) ending 
external support for the rebels, and (4) expediting humanitarian 
assistance for the people of Sierra Leone.
    We believe that the effort of West Africans to resolve the crisis 
with a combination of diplomacy and peacekeeping is commendable and 
should be supported. The rebel attack on Freetown forced us to evacuate 
our diplomats from Sierra Leone on Christmas Eve. However, Joseph 
Melrose, our Ambassador to Sierra Leone, is making regular trips to 
Freetown to consult with Sierra Leone Government officials. The Rev. 
Jesse Jackson and other Department officials are also working closely 
with regional leaders and rebel representatives to help facilitate a 
dialogue between the Sierra Leone Government and rebel leaders that we 
hope will lead to a peaceful settlement of the conflict.
    ECOMOG, the 12,000-man Nigerian-led West African peacekeeping 
force, is doing its best to restore peace and stability to Sierra 
Leone, but is woefully lacking in resources. Recognizing the need of 
the Sierra Leone people for security, the State Department is 
continuing to provide essential nonlethal logistical support to ECOMOG. 
Moreover, we are urging our partners in the international community to 
join us in this support.
    In FY 1998, the Department provided $3.9 million in non-lethal 
logistical support for ECOMOG. So far in FY 1999, we have provided 
another $4.0 million in non-lethal logistical support to ECOMOG and $1 
million in medical supplies and equipment to treat Nigerian ECOMOG 
soldiers wounded in Sierra Leone. The State and Defense Departments are 
developing a longer-term support package for ECOMOG which will include 
at least an additional $5.8 million for non-lethal logistical support.
    Britain recently announced a new <brit-pound>10 million (about $16 
million) assistance package to support ECOMOG and retraining of a new 
Sierra Leone Army. The Netherlands, Canada, Germany, China, Italy, 
France, Norway and Belgium have also come to ECOMOG's aid. However, 
much more is needed. Nigeria is reportedly spending a million dollars a 
day to support ECOMOG's Sierra Leone operation. With stronger financial 
support for ECOMOG operations, Nigeria's civilian government may be 
more inclined to leave its troops in Sierra Leone until there is peace 
and stability.
    Reports that some African governments are supporting the insurgents 
in Sierra Leone are especially troubling. We condemn support to the 
rebels from any source and have made our position clear. In particular, 
we continue to press the Government of Liberia to stop the support for 
the rebels emanating from its territory and to play a constructive role 
in ending the conflict.
    The humanitarian crisis in Sierra Leone is fundamentally driven by 
the rebel war, and the rebels brutality against the civilian 
population. Rebel violence prevents relief agencies from delivering 
assistance to those in need outside Freetown.
    The United States is the largest donor of humanitarian assistance 
to Sierra Leone. USAID and the State Department have provided more than 
$31 million in humanitarian assistance to Sierra Leone and Sierra 
Leonean refugees in neighboring countries since the beginning of fiscal 
year 1999. This includes food aid, support for refugees, emergency 
shelter, and medical, nutrition, water, sanitation and agricultural 
assistance delivered through non-governmental organizations (NGOs). In 
FY 1998, the United States provided Sierra Leone with more than $55 
million in earmarked humanitarian assistance for its refugees. Our 
assistance to Sierra Leone will continue at similar levels as long as 
there is a need and as long as security conditions permit humanitarian 
agencies to function.
     sierra leone crisis: international and united nations response
    Question. The human rights atrocities in the Sierra Leonean 
conflict have really challenged our imagination. What can the 
international community do to help improve this situation? Does it make 
sense to expand the United Nations monitoring arm, known as UNOMSIL? 
Why or why not?
    Answer. We support the efforts of the democratically elected 
government of President Tejan Kabbah and ECOMOG peacekeeping forces to 
restore peace and stability in Sierra Leone. We are actively engaged in 
seeking an end to the tragic conflict in Sierra Leone along the two-
track approach--diplomatic and peacekeeping--adopted by the West 
African heads of state and government at the October 1998 summit in 
Abuja.
    The Nigerian military has provided the majority of the troops in 
the ECOMOG peacekeeping force that is attempting to curtail rebel 
atrocities, restore peace and stability, and pressure the rebels to 
begin negotiations in good faith. Ghana, Guinea and Mali are also 
contributing troops to this effort. A total of more than 12,000 troops 
have been deployed to date.
    We and the British have provided logistical support to ECOMOG in 
Sierra Leone since May 1997. In FY 1998 the USG provided $3.9 million 
in logistical assistance to ECOMOG in Sierra Leone, as well as 149 
heavy duty trucks. We have committed our $4 million total peacekeeping 
allotment for FY 1999 to support ECOMOG there, and are seeking 
additional funds for this purpose. The USG has also provided 
substantial humanitarian support in Sierra Leone.
    Six ECOWAS countries are making diplomatic efforts to realize a 
lasting peace accord, urging the rebels to cease fighting and to pursue 
a dialogue leading to an end to the conflict and national 
reconciliation. Some of those West African governments have also 
strongly condemned support by external forces, primarily Liberia, to 
the rebels in Sierra Leone and the atrocities being perpetrated by the 
rebels against the civilian population.
    The U.S. and UK have also lent their diplomatic efforts towards 
these goals. The UN Security Council and Secretary General Annan have 
repeatedly asked UN member states to assist the ECOMOG peacekeeping 
operation in Sierra Leone, however, the response has been very limited.
    The UN Observer Mission in Sierra Leone (UNOMSIL) has never 
exceeded 40 of the 70 military observers authorized in July 1998. Its 
mandate is to help demobilize ex-combatants and to advise on human 
rights and on building a police force.
     After the January 1999 rebel assault on Freetown, total UNOMSIL 
staff was reduced to eight. Staffing is now back up to fourteen. 
UNOMSIL's mandate is under review; we expect it to focus on 
facilitating a negotiated settlement.
    If the parties to the conflict negotiate a settlement, then an 
expanded UNOMSIL might be asked to assist the demobilization of ex-
combatants.
    We will consider any proposed modification of UNOMSIL's mandate 
under the Administration's peacekeeping policy and in consultation with 
the Congress.
                  peacekeeping in sierra leone and car
    Question. Why is it that the United Nations has seen fit to conduct 
a major peacekeeping operation in the Central African Republic but has 
not proposed a similar operation for Sierra Leone?
    Answer. The situations in these two countries are very different. 
In the Central African Republic, the UN mission MINURCA is a 
peacekeeping operation. In Sierra Leone, the UN Observer Mission 
UNOMSIL oversees a peace enforcement action led by a West African 
multinational force, ECOMOG. Both operations are appropriate in size 
and structure for their respective missions.
    MINURCA guarantees security in the CAR's capital while the 
government implements crucial reforms. This reform program is based on 
a series of internal agreements on measures to promote national 
reconciliation and long-term stability.
    MINURCA consists of a force of 1,350 troops, mostly infantry, who 
safeguard Bangui during this transitional period.
    There is no settlement agreement in Sierra Leone, however. The 
Government of Sierra Leone and ECOMOG forces continue to fight a well-
entrenched and brutal insurgency.
    The U.S. views this conflict as a threat to regional stability, and 
we are providing substantial support to ECOMOG.
    The UN has a limited monitoring and advisory role in Sierra Leone. 
UNOMSIL includes fourteen military observers, plus civilian political 
and human rights experts who report on the military situation and 
provide expert advice to the Secretary General's Special 
Representative.
    The Special Representative relies on UNOMSIL's support in his 
efforts to promote a peaceful settlement among the belligerents in 
Sierra Leone.
    We strongly support negotiations in Sierra Leone. Should talks 
result in a peaceful settlement, the UN might be asked to play a 
substantial role in implementing it.
    We are prepared to examine any peacekeeping proposal for Sierra 
Leone in the light of the guidelines established by the Administration.
                       radio democracy for africa
    Question. One of the major initiatives to come from the President's 
historic trip to Africa last year is his proposal for Radio Democracy 
for Africa, which the President again highlighted in his State of the 
Union address, seeking $5 million in the current budget request. 
However, there are concerns about the impact a new program like this 
will have on VOA's mandate. How does Radio Democracy for Africa help 
the United States achieve foreign policy goals in Africa?
    Answer. Like regular VOA programming, Radio Democracy for Africa 
(RDA) news and informational programs are guided by the VOA charter and 
journalistic code. By law, the news they offer must be accurate, 
objective, and reliable. Public affairs programming such as 
discussions, in-depth reports, roundtables, interviews, etc., are 
balanced, responsible and present a range of views on controversial 
issues of public importance.
    RDA programs differ from regular VOA programs in that they are 
targeted to and focus intensively on particular countries and regions. 
News reporting on events in those countries is greatly increased, and 
most of the additional news is gathered by journalists who live in the 
targeted countries. For example, in Nigeria there has been intense 
coverage of the electoral process and the transition to democratic 
civilian government. In central Africa, there has been coverage of the 
armed regional conflict and of ethnic, humanitarian, economic and 
social issues. This highly targeted news can blunt the effectiveness of 
domestic disinformation campaigns that may be waged by state-controlled 
media or by irresponsible political organs such as the ``hate'' radio 
which spurred on ethnic violence in Rwanda in 1994. RDA keeps open the 
air waves to responsible parties and offers participation to those who 
have been pushed to the political margins.
    In announcing Radio Democracy for Africa last year, the President 
said the VOA initiative would encourage progress toward freedom and 
democracy, respect for human rights, and an independent and objective 
media. RDA will have programming that promotes the U.S. policy goals in 
Africa, such as conflict resolution and formation of democratic 
institutions and an independent judiciary and civilian police forces. 
Discussion of debt relief, economic development and trade will also be 
featured in RDA programming. RDA will also strengthen both the public 
and private press by training reporters in objective journalism. In 
this way, RDA will build the capacity of an independent media.
                       sudan: prospects for peace
    Question. What are the prospects for peace in Sudan?
    Answer. We are not convinced the warring parties are ready to make 
peace. There are elements on both sides, however, that appear convinced 
that neither side can win a military victory.
    We are currently working with other donors and with Kenya, which 
chairs the peace talks under the auspices of the Intergovernmental 
Authority on Development (IGAD), to invigorate the Sudan peace effort. 
Most significantly, we are planning to provide financial and technical 
assistance for a permanent secretariat devoted to ensuring a sustained, 
continuous mediation effort. We also are urging Kenyan President Moi to 
appoint a special envoy dedicated full-time to moving the process 
toward a peace settlement.
    We and other donors also have formed a working group to devise ways 
in which we can use incentives and pressures to nudge the parties to 
negotiate seriously.
                     sudan: humanitarian assistance
    Question. What is the status of Operation Lifeline Sudan (OLS) and 
other humanitarian operations? What is the administration's position on 
the UN's February appeal for $198.4 million in emergency humanitarian 
assistance?
    Answer. Operation Lifeline Sudan (OLS) is now the largest emergency 
food delivery program in history, having surpassed the Berlin Airlift. 
Its job is complicated by warfare, floods, bandits, ruined 
infrastructure, disease and flight bans imposed by the Government of 
Sudan. Its performance has been remarkable in the face of these 
difficulties, although there have been inefficiences for which we have 
criticized the OLS. OLS responded well, and has taken steps to improve 
its performance. This is the tenth year of OLS's operation. The 
continuing food shortages will end only when the Sudanese civil war 
ends.
    The United States provides financial and diplomatic support to the 
Sudan peace talks sponsored by the Intergovernmental Authority on 
Development. We are now engaged with Kenya, which chairs the peace 
talks, and other donors to invigorate the peace process.
    OLS's request for $198.4 million is in line with previous years' 
requests. The United States typically pays about one third of OLS' 
costs with the remainder paid by other donor nations. We also provide 
funds to NGOs outside the OLS system which, unlike OLS, are able to 
operate in the face of the occasional flight bans imposed by the 
Government of Sudan.
                     sudan: effects of u.s. strike
    Question. In the aftermath of the U.S. strike on the el-Shifa 
facility in Khartoum, has there been a backlash against the U.S. that 
has had an impact on either the humanitarian operations or the civil 
war?
    Answer. The U.S. strike on el-Shifa has had no discernible impact 
on the humanitarian relief effort or on the civil war. A humanitarian 
ceasefire has been in place in Bahr el Ghazal, the region hardest hit 
by the famine of last year, since July 1998. Both the Government of 
Sudan and the SPLA have agreed twice to extend the ceasefire, now due 
to expire on April 15, 1999.
    We had a difficult relationship with the Government of Sudan (GOS) 
before the el-Shifa strike and that remains the case today. Although 
the GOS withdrew its diplomats after the strike and told us our 
diplomats were not welcome in Khartoum, our two countries continue to 
maintain diplomatic relations. Since the el-Shifa strike, Under 
Secretary of State for Political Affairs Tom Pickering has met and 
exchanged correspondence with Sudanese Foreign Minister Mustapha 
Ismail, and Assistant Secretary of State Susan Rice and Director of 
East African Affairs David Dunn have met on separate occasions with 
Sudan's ambassador to the United States and with its charge d'affaires.
               sudan: impact of ethiopia-eritrea conflict
    Question. What has been the impact, if any, of the conflict between 
Ethiopia and Eritrea on the Sudanese civil war?
    Answer. We are concerned that the Ethiopia/Eritrea conflict is 
having a negative impact throughout the region. Both countries were 
strong supporters of the Sudan peace process conducted under the 
auspices of the Intergovernmental Authority on Development (IGAD), but 
their energies and resources are now directed at one another.
    Sudan has provided support to violent dissident groups fighting 
against both governments. We are concerned that Sudan may try to take 
advantage of the border dispute by encouraging such groups, 
particularly those active in Eritrea.
    There are some indications that both Eritrea and Ethiopia have 
moved closer to the Government of Sudan since their conflict began. 
Ethiopia, for example, approved the resumption of air service by 
Ethiopian Airlines between Khartoum and Addis Ababa. However, we 
believe that Eritrea and Ethiopia are aware of the long-term danger 
Sudan poses and will remain cautious.
                         unchr china resolution
    Question. Would the release of one or more prominent Chinese 
dissidents as part of a deal to drop a resolution condemning China at 
the U.N. Commission on Human Rights in Geneva be acceptable to you?
    Answer. The United Nations Commission on Human Rights (UNCHR) in 
Geneva is an important multilateral mechanism for encouraging change in 
China. The Administration supports the Geneva process, and intends to 
participate vigorously in this year's Commission activities.
    We are aware of Congressional expressions of support in favor of a 
resolution, and assure you that Congressional concerns were considered 
seriously in our decision to introduce a resolution condemning human 
rights practices in China.
    Last year, our Government did not sponsor a resolution because of 
positive steps the Chinese had taken, but made clear that we were 
keeping our options open for the future.
    We based our UNHRC decision not on a token gesture on China's part, 
but on overall human rights progress or retrogression over the year.
                          china: human rights
    Question. What is your position on China's recent violations of 
human rights?
    Answer. As noted in our recently released human rights report for 
China, the government's human rights record deteriorated sharply 
beginning in the final months of 1998 with a crackdown on organized 
political dissent.
    We deplore the arrest, trial, and lengthy sentences meted out to 
individuals who sought to peacefully organize and register an 
opposition party in China. We have conveyed our concern to the Chinese 
Government publicly and through diplomatic channels, most recently 
during my March 1-2 visit to Beijing and during Under Secretary 
Pickering's March 15 meeting with Ambassador Li.
    Our position is clear. We believe the Chinese Government should 
allow its citizens to peacefully express political and religious views 
and release all those held in violation of international standards for 
the exercise of these fundamental rights.
                               east timor
    Question. What message have you given to the Indonesians on East 
Timor?
    Answer. I visited Indonesia March 4-5. East Timor figured 
prominently in my discussions with senior Indonesian Government (GOI) 
and military officials. I also met with East Timorese leader Xanana 
Gusmao. I expressed deep concern with all my interlocutors about 
reports from East Timor of escalating political violence, human rights 
abuses, and growing humanitarian needs. I urged immediate adoption of 
measures to break the cycle of violence. I reiterated, for example, our 
call for a halt to distribution of arms to pro-Jakarta civilian 
militias, and for collection back of those weapons already distributed. 
I also expressed support for Xanana Gusmao's proposal for a council to 
promote dialogue and reconciliation among East Timorese.
    Because recent GOI willingness to consider independence for East 
Timor, if East Timorese reject autonomy, had opened new opportunities 
for an enduring solution, I urged all parties to work constructively 
for realistic and peaceful transition arrangements to either autonomy 
or independence. I stressed that identifying credible means for 
determining the will of East Timor's people was essential.
    I also stressed that preparations must begin immediately for a 
modification in East Timor's status, so that East Timor can succeed 
socially and economically. I believe that the international community 
must play both immediate and longer-term supportive roles in East 
Timor. In that context, I expressed U.S. support to the Indonesian 
Government for an expanded international presence on East Timor, in 
advance of a negotiated agreement, to reduce violence. I urged other 
confidence-building measures, including troop reductions.
              criteria for prioritizing security upgrades
    Question. You have said that no overseas embassy can now be 
considered a ``low threat'' post, if that is the case, what criteria 
are you using to determine how security upgrades are prioritized?
    Answer. We believe the threat from transnational terrorism extends 
to all of our overseas posts. Following the attacks against our 
embassies in East Africa, all overseas missions, regardless of threat 
levels, were instructed to adopt ``high threat'' perimeter and access 
control standards, wherever possible.
    The methodology currently in use by the Department to help 
prioritize major security upgrades combines political violence threat 
assessments, including profiles of the local security environment 
(capability of host government security forces, border controls, 
availability of explosives, etc.), with existing physical 
vulnerabilities of facilities. Priorities are also influenced by 
project feasibility, complexity and resources requirements.
                security and challenges at african posts
    Question. Africa frequently has been considered a low priority for 
American foreign policy. In light of attacks that have already taken 
place against U.S. facilities on that continent, what measures is the 
Department taking to ensure that the security needs of U.S. African 
posts, beyond just Kenya and Tanzania, are given equal consideration to 
those of more high visibility facilities? What are the particular 
challenges U.S. diplomats face in Africa?
    Answer. Let there be no doubt of this Administration's increased 
attention to African foreign policy issues. In addition to the 
President and the Vice President, the Secretary of State and numerous 
other Cabinet level officials have visited Africa to address a whole 
range of foreign affairs matters. The just-concluded U.S.-Africa 
Ministerial is another example of this Administration's commitment 
towards furthering its initiatives in Africa.
    In the aftermath of the bombings in Nairobi and Dar es Salaam, the 
Office of Foreign Buildings Operations (FBO) and the Bureau of 
Diplomatic Security (DS) conducted a thorough analysis of the 
vulnerabilities of all American embassies. This assessment of 
chanceries worldwide is being used to help determine priorities for 
constructing new embassies--subject to the availability of funding. In 
recognition of the inadequate security conditions of our embassies in 
Africa, the assessment confirmed that the majority of chanceries in 
region are vulnerable to terrorist attacks. Funding to design and 
construct new facilities for some of the most vulnerable posts in 
Africa is included in the FY 1999 Emergency Security Supplemental, as 
well as the Department's $36 million request for worldwide security 
upgrades in FY 2000 and in the $3 billion advance appropriation for FY 
2001-2005. Posts in Africa are receiving equal attention when compared 
to other posts worldwide regarding security upgrades.
    The challenges facing American diplomats in Africa today are 
similar to the ones that our colleagues faced thirty years ago--
communicable diseases, poor host country infrastructure, political 
instability, and high crime, plus the palpable threat of transnational 
terrorism. While the current Administration has placed a greater 
emphasis on U.S. foreign policy toward Africa, years of insufficient 
funding for Embassy operations has taken its toll on maintaining our 
infrastructure at our posts in Africa. Although our employees are 
prepared to deal with the issues of urban crime and other difficulties 
overseas, the potential of terrorist attacks and the psychological 
impact that terrorism plays on the lives of their families makes 
serving in many African posts an even greater hardship than previously 
acknowledged. Additional funding will assist the Department in 
addressing this important issue.
                criteria for troop deployment to kosovo
    Question. What criteria will the Administration use in deciding 
whether U.S. troops should be sent to Kosovo?
    Answer. Successful implementation of the agreement's security 
provisions will require a robust international troop presence.
    Troops are especially required to supervise Serb withdrawal and KLA 
demilitarization and related military tasks.
    President Clinton has laid out the following key conditions for 
considering use of U.S. troops:
    The parties must agree to a strong and effective peace agreement 
with an immediate cease-fire, rapid withdrawal of most Serb security 
forces, and demilitarization of the KLA.
    The parties must commit to implement the agreement and cooperate 
with NATO.
    The mission of the force must be carefully defined with a clear and 
realistic exit strategy.
    NATO is the only organization with the structure, experience and 
skills to succeed in such a complex military task.
    Moreover, NATO's political and military cohesiveness is a great 
advantage that promotes the authority of the implementation force.
    KLA confidence in NATO has been a key part of Kosovar Albanians 
moving towards a ``yes'' on the Rambouillet agreement.
    Potential troop contributors, NATO partners, and the parties all 
have more confidence in NATO's capability and willingness for this 
mission than in that of other organizations.
                    air strikes strengthen milosevic
    Question. Some have argued that NATO air strikes against Serbia 
would only strengthen the Milosevic regime and the resolve of the Serbs 
in opposing a peace agreement with the Kosovar Albanians. Please 
comment on this argument.
    Answer. We disagree with this analysis.
    NATO air strikes would degrade Milosevic's ability to pursue a 
military option in Kosovo and would undermine the willingness of his 
armed forces to carry out such a policy.
    All indications are that neither the Serbian people nor the FRY 
military support Milosevic's further international isolation and 
confrontation for their country.
    Air strikes would be planned to have maximum impact on the 
leadership and the forces they use to repress the civilian population 
of Kosovo, not on the Serb population at large.
    In light of these factors, we expect air strikes to increase the 
pressure on Milosevic to accept the just settlement the Contact Group 
has proposed and the Kosovo Albanians have accepted.

                  Questions Submitted by Senator Grams

             consensus and the un 2000-2001 budget outline
    Question. It is my understanding that under Kassebaum-Solomon the 
U.S. must join in the consensus for every major budget decision. How 
was the Administration's decision to disassociate from the consensus on 
the budget outline consistent with that obligation?
    Answer. The United States fully supports the practice of consensus 
decisionmaking as an effective tool to ensure that U.S. views are 
reflected to the maximum extent in decisions reached on UN budgets.
    The value of consensus and our commitment to it is demonstrated by 
the fact that, over the past decade, the U.S. has been able to join 
consensus in enacting every UN regular budget, which over time have 
reflected increasing budget discipline (including, most recently, zero 
nominal growth).
    Regarding the UN budget outline for 2000-2001, we made clear our 
opposition to exceeding the current budget level.
    This outline, however, serves only as a guide for the preparation 
of the actual 2000-2001 budget.
    Throughout this year-long process, the U.S. will continue to make 
our opposition evident and will fight to bring the budget in line prior 
to its final consideration before the General Assembly session in 
December 1999.
    As part of this endeavor, we will continue to urge UN efforts to 
make additional savings.
                         wye memorandum package
    Question. Madam Secretary, while I support the three-year, $1.9 
billion Wye Memorandum package, I am concerned about the ability of the 
U.S. to ensure that these funds are not diverted to purposes for which 
they are not intended. All too often U.S. aid is misused, wasted, or 
mismanaged. What auditing or monitoring mechanisms are in place to 
ensure the appropriate use of U.S. funds by the Jordanians and the 
Palestinians?
    Answer. Auditing and monitoring mechanisms are in place to ensure 
the appropriate use of U.S. funds by the Jordanians and the 
Palestinians.
    In every case, USAID works through contractors or non-governmental 
organizations which are chosen according to strict USAID procurement 
and contracting regulations, and are closely and carefully monitored by 
USAID. The contractors or NGOs also receive regular, comprehensive 
independent audits.
    In the case of the Palestinians, no financial assistance is 
provided directly to the Palestinian Authority or the PLO. All funds 
are used for development projects for the benefit of the Palestinian 
people, including water and sanitation projects, private sector 
development, and rule of law/democracy.
    With AID providing $375 million in development assistance over the 
last five years, there has been a clean track record regarding 
accountability of funds.
               bureau of educational and cultural affairs
    Question. Is the Administration still considering the possibility 
of creating a separate bureau for international exchanges and cultural 
affairs?
    Answer. Such a bureau will be created. Congressional views were an 
important consideration in this decision.
    The revised Reorganization Plan and Report of the President, sent 
to the Congress on March 31, makes known the decision to create a 
separate Bureau of Educational and Cultural Affairs once USIA 
integrates with State on October 1.

                Questions Submitted by Senator Wellstone

    Question. Do you intend to inform the Government [of China] that 
the U.S. is ready to sponsor a resolution on China at this U.N. 
Commission on Human Rights?
    Answer. As Congress urged, the U.S. sponsored a resolution on 
China's human rights situation at the 55th session of the United 
Nations Commission on Human Rights. We tabled the resolution, which 
acknowledged progress China has made and discussed areas where serious 
problems remain, on April 16. We were successful in getting only one 
cosponsor, Poland, before the vote on April 23. Despite a vigorous 
lobbying effort we were unsuccessful in convincing any past cosponsor 
to sponsor again in 1999. The E.U., which had cosponsored the 
resolution with us in past years, declined to do so this year. Members 
of the E.U. also declined to co-sponsor the resolution in their 
national capacities. As it has every year that a China resolution has 
been tabled, the Chinese introduced a procedural no-action motion. This 
motion was passed 22 to 17 (a narrower margin than in 1997, the last 
time a resolution was tabled) and the resolution did not come to the 
floor for a vote.
    We were disappointed by this outcome, but continue to believe that 
tabling the resolution was the right thing to do. It was also an 
important element of our policy of principled, purposeful engagement 
with China. Our primary goal in sponsoring the resolution was to focus 
international attention on the recent sharp deterioration in China's 
human rights record. We believed--and continue to believe--that there 
is no better place to do that than in the Commission, the world's 
preeminent forum on human rights. We have accomplished this goal, even 
though the Commission chose not to take action on our resolution.
                       children in armed conflict
    Question. As the use of child soldiers has gained international 
attention, the need for stronger international protections for children 
in armed conflict is becoming increasingly clear. In the last year, we 
have seen a number of initiatives in favor of establishing 18 as the 
minimum age for recruitment and participation in armed conflict, 
including a new United Nations policy establishing 18 as the minimum 
age for UN peacekeepers, resolutions adopted by the European Parliament 
and the World Council of Churches, and a growing number of countries 
that are evaluating their recruitment policies with a view to excluding 
those under 18 from military service. The U.S. Congress also passed a 
resolution in October that condemned the use of child soldiers, and 
urged the U.S. not to block efforts to establish 18 as the minimum age 
for participation in armed conflict. Given these developments and the 
urgent need for stronger protections for children, will the 
administration withdraw its opposition to an international ban on the 
recruitment or participation of children under 18 in armed conflict?
    Answer. The United States strongly supports efforts to put an end 
to the use of child soldiers in conflicts around the globe. In recent 
years rebels, militias, and in some cases government forces have relied 
on child soldiers, some of whom are not even teenagers. With individual 
countries and through international agreements we have sought to stop 
this abhorrent practice.
    Article 38(2) of the Convention on the Rights of the Child, like 
Additional Protocol I to the Geneva Conventions of 1949 (Article 
77(2)), provides that states parties should take all feasible measures 
to ensure that persons who have not attained the age of 15 years do not 
take a direct part in hostilities, and that they are not recruited into 
the armed forces.
    In negotiations on a proposed optional protocol to the Convention 
concerning involvement of children in armed conflict, the United States 
has supported provisions to set the minimum age of enlistment at 17 
years and to impose an obligation on states to take ``all feasible 
measures'' to ensure that persons under 17 years of age do not take a 
direct part in hostilities. Such a requirement would be consistent with 
current U.S. law, which permits enlistment of persons age 17 with 
parental consent, as well as admission to the U.S. military academies.
    Other participants in the negotiations support an 18-year age 
standard for both recruitment and participation in armed conflict. We 
continue to believe that a 17-year age limit is likely to achieve wider 
support in the UN General Assembly because it is easier to implement 
and more consistent with the laws of many states, including our own.
                rehabilitation of former child soldiers
    Question. Accounts of the use of children as soldiers by the Lord's 
Resistance Army in Uganda, and in the devastating Sierra Leone conflict 
make clear that child combatants may suffer not only physical injury or 
disability, but also psychological damage or rejection by their home 
communities. Rehabilitation and social reintegration programs are 
essential to help former child soldiers regain a place in civilian 
society and help prevent their re-recruitment into subsequent 
conflicts. How is the need for the demobilization, rehabilitation and 
reintegration programs for former child soldiers in conflict areas 
being incorporated into U.S. policy?
    Answer. The United States places the highest priority on assisting 
young children throughout the world who are victimized by human rights 
abuses such as forced recruitment and abduction.
    We are committed to working with other governments, UN agencies, 
international and non-governmental organizations, and other partners to 
address this problem.
    Specifically, we are working closely with the UN High Commissioner 
for Refugees (UNHCR) and UNICEF with respect to programs to 
rehabilitate children through counseling, reconciliation, education and 
vocational training in the hope that these methods will facilitate 
their reintegration into civilian society, help them readjust to being 
children, and prepare them to lead constructive lives.
    In 1998, the United States contributed over $7 million to 
activities for refugee children, including over $4 million for UNHCR's 
Children-at-Risk programs, which highlights particularly those children 
affected by armed conflict, including child soldiers, and over $2 
million for the Liberian Children's Initiative, a joint UNHCR/UNICEF 
program to address the needs of children and youth in Liberia following 
seven years of war.
    Because of the particular vulnerability of refugee and internally 
displaced children, the United States is working with UNHCR to 
strengthen its infrastructure and activities in order to better address 
the special protection and assistance needs of refugee children.
    Specifically on the situation in Uganda, the United States condemns 
in the strongest terms the reprehensible acts of the Lord's Resistance 
Army and is helping the Ugandan Government in its efforts to end this 
terrible problem. The Northern Uganda Initiative, announced by the 
First Lady during a March 1998 visit to Uganda, is a 3-year, $10 
million project to provide targeted U.S. assistance where it is most 
needed. The United States is also providing monetary and training 
assistance to the Ugandan People's Defense Force (UPDF) to improve its 
effectiveness in defending Ugandans against terrorist and insurgent 
attacks from Sudan. The training includes a focus on respect for basic 
human rights. We are concerned that a military response is not enough 
and have encouraged the Government of Uganda to pursue in parallel a 
political track to resolve the crisis.
    In Sierra Leone, USAID recently awarded a $1.5 million grant to 
UNICEF for assistance to war-affected children, including documentation 
and tracing of unaccompanied children and reunification with their 
families, demobilization, elimination of the use of under-age 
combatants, and community reintegration of former child soldiers. In 
addition, to date in FY99, the United States has provided $5 million in 
non-lethal logistical support to the West African ECOMOG peacekeeping 
force that is attempting to restore security and stability to Sierra 
Leone.
              Additional Material Submitted for the Record

              Prepared Statement of Senator John Ashcroft

    Mr. Chairman, this hearing could not be more timely, in my opinion, 
to deal with an increasingly serious problem during this 
Administration: the disorderly definition of U.S. national interests 
abroad and the haphazard use of military force to achieve those 
objectives. The still-likely possibility that U.S. troops could be 
involved in Kosovo reinforces the longstanding concerns I have had 
about how our armed forces are being used.
    Whether it be an inconsistent policy toward Iraq, or repeated 
deployments of U.S. troops for less than vital national security 
interests, our military forces are often left to compensate for the 
lack of foresight in this Administration.
    The Senate is dealing with legislation right now to try and arrest 
declining readiness and morale in our armed forces, forces that are 
severely overextended. Defense spending has declined in real terms by 
27 percent since 1990, but the pace of operations abroad has risen 
dramatically.
    In the 1990s, operational missions increased 300 percent while the 
force structure for the Army and Air Force was reduced by 45 percent 
each, the Navy by approximately 40 percent, and the Marines by over 10 
percent. Contingency operations during this Administration have exacted 
a heavy cost: $8.1 billion in Bosnia; $1.1 billion in Haiti; $6.1 
billion in Iraq.
    Generally speaking, the success of our diplomacy has an inverse 
relationship to the number of times we send U.S. soldiers abroad. The 
number of deployments under this Administration is perhaps the most 
telling indicator of a incoherent foreign policy. In light of possible 
U.S. involvement in Kosovo, I would appreciate the Secretary addressing 
several issues.

  <bullet> What is the vital national interest in Kosovo and what can 
        be achieved by the deployment of U.S. forces there? The 
        Administration has put itself in a difficult position where 
        some sort of U.S. involvement in Kosovo is almost guaranteed. 
        If a settlement is not reached, we probably will bomb with NATO 
        warplanes; if the Serbs and Kosovo Albanians reach an 
        agreement, we send as many as 4,000 U.S. troops to enforce the 
        settlement. To what end is this commitment being made?

    Nation-building exercises are questionable endeavors. Our forces 
have been in Bosnia two years past the original deadline, with no end 
in sight. Haiti's constitutional government is collapsing. Nation-
building exercises are tying U.S. forces down in peripheral areas and 
undermining our ability to address real security threats.

  <bullet> More generally, what is the Administration's policy on 
        military intervention: If U.S. forces should be in Kosovo, 
        where 2,000 people have died, should they be in Sudan, which 
        has had 2 million casualties in its civil war? Should U.S. 
        forces be in the Democratic Republic of Congo or Angola or the 
        Caucusus?

    These questions must be addressed. The American people need to have 
a clear understanding of when their sons and daughters will be placed 
in harm's way--they deserve a consistent policy for military 
deployment, not just a reactive diplomacy where U.S. soldiers are sent 
to the crisis receiving the most media attention.

</pre></body></html>
